<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         THURSDAY, MAY 3, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Allard.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        SHEILA DWYER, ASSISTANT SECRETARY OF THE SENATE
        CHRIS DOBY, FINANCIAL CLERK

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning. The subcommittee will come 
to order.
    This morning we meet to take testimony on the fiscal year 
2008 budget request for the Secretary of the Senate and the 
Library of Congress (LOC). Nancy Erickson is with us this 
morning, and the Librarian of Congress, Dr. Billington.
    This is our fourth and final hearing of the 2008 budget 
process. I am joined this morning by my ranking member, Senator 
Allard, and I understand that Senator Alexander may join us 
this morning.
    We have two separate panels today. First, the Secretary of 
the Senate, and I understand she may be joined by Sheila Dwyer, 
the Assistant Secretary and the Financial Clerk of the Senate, 
Chris Doby.
    Mr. Doby, while we're on the subject of your shop and the 
Disbursing Office, I asked my office manager if she could give 
me a list of some of the people from the Disbursing Office 
who've been helpful. She gave me a list too long to read this 
morning, so I'm going to just submit it for the record and 
thank you very much for the help of your wonderful staff. We 
really appreciate it.
    [The information follows:]

    Chris Doby, Financial Clerk, Tim O'Keefe, Margaret Fibel, 
Neil Elliott, Gerry Thrasher, Melissa Stewart, Paul Jochum, 
LaKisha Haggerty, Ivan Shnider, Bob Millett, Kim Cone, 
Ileanexis Deese, Ted Ruckner, Sean Malloy, Debbie Shnider, Gene 
Barton, Linda Sothern, Martin Tanabe, Donna Nance, Rachel 
Morris, Monica Billups, Cathy Strodel, Lauren Bliss, Dianna 
Gilkerson, and Cynthia Handwork.

    Senator Landrieu. I also want to thank all of your other 
employees. Nancy, I think this is the first time you've 
testified before this subcommittee as the Secretary. We're 
pleased to have you this morning. We'll look forward to hearing 
the details of your budget, which totals $25.5 million. This is 
an increase of $2.5 million, or 11 percent above the current 
year. So, we hope that you're prepared to justify the request 
that you have submitted to us, because while it's not 
exorbitant, it is higher than inflation and we look forward to 
hearing from you about that.
    I'd like to turn now to Senator Allard for his opening 
remarks.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman. I'd like to put 
my full statement in the record and proceed to the testimony 
from the witnesses.
    I'd like to personally welcome Secretary of the Senate, 
Nancy Erickson, thank you for being here, and also, Dr. 
Billington.
    I will have a few questions on the Government Performance 
and Results Act (GPRA) as a result of the inspector general 
study on performance-based budgeting at the Library, and maybe 
another question or two on the Library.
    Madam Chairman, that's all I have. Just put my full 
statement in the record if you would please.
    Senator Landrieu. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you, Madam Chairman. Welcome Secretary of the Senate 
Nancy Erickson, Assistant Secretary Sheila Dwyer, Senate 
Financial Clerk Chris Doby, and their very able team.
    Also, good morning to Librarian of Congress Dr. James 
Billington and Chief Operating Office Jo Ann Jenkins. 
Congratulations, Ms. Jenkins, on your appointment as the 
Library's ``number 2,'' a well-earned appointment. I also note 
the presence of the Library's top team and welcome them all 
today.
    Madam Chairman, I have a number of concerns about the 
Library's request, when we get to the second panel. In 
particular, while some improvements have been made by the 
Library to come into compliance with the spirit and intent of 
the Government Performance and Results Act, the Library's 
Inspector General has found resistance within the Library to 
improvements in their budget process.
    We absolutely must ensure that the Library has a solid 
performance-based budget. According to the IG's report, 
``Performance-based budgeting enables policy makers to 
determine if programs are contributing to their stated goals, 
coordinating efforts with related initiatives elsewhere, 
targeting those most in need of agency services, achieving 
desired outcomes, and experiencing cost-beneficial results. The 
success of performance-based budgeting can be measured by the 
quality of the decision-making process, the transparency of 
decision-making information, and the meaningfulness of the 
information to key stakeholders.''
    Madam Chairman, I will focus some of my questions on this 
issue when we turn to questions.

    Senator Landrieu. Please proceed.
    Ms. Erickson. Thank you, Chairman Landrieu and Senator 
Allard, for this opportunity to testify today before your 
subcommittee on behalf of the Office of the Secretary and its 
employees. I ask that my full statement, including our 
department reports, be submitted for the record.
    With me today is Sheila Dwyer, the Assistant Secretary, and 
Chris Doby, our Financial Clerk, who I know has worked closely 
with your subcommittee staff over the years. I'm also joined 
today by many of our department heads.
    Before turning to my formal remarks, I want to take a 
moment to publicly thank my predecessor, Emily Reynolds, and 
her Assistant Secretary, Mary Suit Jones, for their assistance 
during my transition. Their graciousness has been a testament 
to the strength of the traditions in the Office of the 
Secretary.

                             BUDGET REQUEST

    Our budget request for fiscal year 2008 is $25.5 million, 
of which $23.5 million is salary costs, and $2 million is 
operating costs. This increase from fiscal year 2007 of $2.446 
million is comprised totally of cost-of-living and merit 
increases, so that we can continue to attract and retain the 
caliber of people the Senate deserves for its operations. 
Notably, our request also factors in necessary funding for the 
implementation and maintenance of the electronic supporting 
systems in the Office of Public Records.
    If enacted this year, Senate bill 1, the Ethics Reform 
bill, and Senate bill 223, a bill that would require electronic 
filing of Federal Election Campaign documents, will 
significantly increase the volume of reports filed with the 
Office of the Secretary.
    Prior to taking the oath of office on January 4, many 
people shared with me their high regard for the staff who work 
for the Office of the Secretary. Their unsolicited comments 
were a real tribute to the men and women who work in our 26 
departments. After serving 4 months as Secretary of the Senate, 
I can attest to the wealth of institutional knowledge and their 
pride in serving the Senate every day. It is indeed a privilege 
to work with this talented group of people.
    Since 1789, the Office of the Secretary has traditionally 
provided support for the Senate in three areas: legislative, 
administrative, and financial. And, today I'd like to share 
some of our staff's accomplishments in each area.

                         LEGISLATIVE DEPARTMENT

    The state of our Legislative Department, the people who 
support the Chamber's legislative functions, is strong. Our 
legislative positions are fully staffed with a healthy mix of 
experienced veterans and newer staff, each of whom have a good 
amount of experience. Our legislative offices operate with an 
emphasis on teaching, passing on institutional knowledge, and a 
real concern for succession planning. Today, we employ much 
more crosstraining than in the past. We work closely with our 
partners in the Sergeant at Arms Office to practice our 
continuity of operations planning to ensure that we can support 
the Chamber under any circumstance.
    Our legislative staff work with the Sergeant at Arms on 
ATS, to improve the online amendment tracking system. Now, 
Senate staff have access to not only offered amendments, but 
also submitted amendments. The feedback from the Senate 
community has been extremely positive.

                            PARLIAMENTARIAN

    I'm pleased to report today that the Office of the 
Parliamentarian intends to complete, by the end of this 
Congress, a supplement to the Senate precedents. This will be 
an enormous undertaking, but will be a valuable resource for 
Members and their legislative staff.

                                CURATOR

    With regard to administrative responsibility, the Senate 
Curator's staff recently organized the Senate Commission on 
Art's unveiling ceremony in the old Senate Chamber for Senator 
Dole's leadership portrait, which was attended by many of 
Senator Dole's former colleagues. We also celebrated the 
completion of the mural commemorating the Connecticut 
Compromise in an unveiling ceremony in the Senate reception 
room, where we were honored by Senator Byrd's keynote remarks. 
The Senate Commission on Art anticipates an unveiling ceremony 
later this fall for Senator Daschle's leadership portrait.
    Educating the public about the Senate's arts and historic 
furnishings collection is a priority. This past year, the 
Curator's staff, working with our Senate webmaster, worked 
together to launch several interactive exhibits on Senate.gov.

                            SENATE HISTORIAN

    With respect to publications, our Senate historian authored 
a wonderful book entitled, ``200 Notable Days,'' which 
highlights 200 colorful short stories about significant events 
in the Senate's 218-year history. Just in time for new Member 
orientation, the Senate Historical Office, with the assistance 
of our Printing and Documents Department, published a ``New 
Member's Guide to Traditions of the United States Senate''.
    During my first visit in January to the Senate Library, I 
had the pleasure of meeting a staff member who, single-
handedly, completed a 13-year project cataloging all of the 
Senate's hearings dating back to 1889, an impressive 
accomplishment, which provides legislative staff with online 
access to the library's collection of over 36,000 Senate 
hearings.
    Senator Landrieu. Is that employee here in the room?
    Could you stand up please? And we'll give you a round of 
applause.
    Ms. Erickson. In addition to managing a collection that 
dates back from the Continental Congress, the library staff has 
witnessed a 90-percent increase in information inquiries. The 
library is significantly expanding the use of web technology to 
meet the Senate's growing demand for accurate and timely 
information. As the Senate's purveyor of information, our 
Senate website, Senate.gov, received 70 million visits last 
year, 20 million more than the previous year.

                            STATIONERY ROOM

    Unlike the first Secretary of the Senate, Samuel Otis, we 
do not provide quill pens anymore, but the Keeper of the 
Stationery sells pre-flown flags. Last year's pilot program was 
a success, and the program is now available to all Senate 
offices. It allows Senate offices to fulfill constituent 
requests for flags that have flown over the Capitol in a time-
sensitive manner.
    We also appreciate the funding your subcommittee provided 
us to complete the point-of-sale project in our Stationery 
Room. The project modernized our 20-year-old computer system. 
And, I'm pleased to report today that it was completed under 
budget and ahead of schedule. We hope the system will allow us 
to offer e-commerce options in Senate offices.

                           DISBURSING OFFICE

    With respect to our financial duties, the Senate Disbursing 
Office processes payroll for the nearly 6,500 people on the 
Senate payroll every 2 weeks. In addition, it administers 
health insurance, life insurance, and retirement programs for 
Members and their staff. The office processed 158,000 vouchers 
last year. The Disbursing Office also provided transition 
assistance to staff who chose retirement or whose employment 
was affected by the November elections.
    Finally, our web-based financial management information 
system, known as FMIS, was upgraded to allow offices to better 
track cash and travel advances to make it easier for staff to 
prepare travel expense reports. We will continue our effort to 
improve FMIS, including the goal of implementing a paperless 
voucher system.

                           PREPARED STATEMENT

    I look forward to working with you and your staff in the 
coming year and I appreciate your support for the Office of the 
Secretary. I'd be happy to answer any questions you may have.
    [The statement follows:]
                  Prepared Statement of Nancy Erickson
    Madam Chairwoman, Senator Allard, and Members of the Subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2008.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of the 26 departments of the 
office, their recent achievements, and their plans for the upcoming 
fiscal year.
    My statement includes: Presenting the fiscal year 2008 budget 
request; implementing mandated systems, financial management 
information system (FMIS) and legislative information system (LIS); 
continuity of operations planning; and maintaining and improving 
current and historic legislative, financial and administrative 
services.
             presenting the fiscal year 2008 budget request
    I am requesting a total fiscal year 2008 budget of $25,500,000. The 
request includes $23,500,000 in salary costs and $2,000,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $2,446,000 over the fiscal year 2007 
Continuing Resolution funds, which were held at fiscal year 2006 
levels. The increase is a result of the costs associated with annual 
salaries and merit increases in fiscal year 2007 not previously funded 
($1,112,000), the costs associated with the annual Cost of Living 
Adjustment for fiscal year 2008 ($650,000), and funding for merit 
increases and other staffing ($684,000). The operating budget 
represents an increase of $20,000 from fiscal year 2007.
    The net effect of my total budget request for 2008 is an increase 
of $2,466,000. Our request is consistent with the amounts requested and 
received in recent years through the Legislative Branch Appropriations 
process, aside from last fiscal year when funding as a result of the 
Continuing Resolution was held to the previous year's level. This 
request will enable us to continue to attract and retain talented and 
dedicated individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Items                                 fiscal year      estimates      Difference
                                                                   2007, Public     fiscal year
                                                                     Law 110-5         2008
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $630,000        $550,000        -$80,000
    Administrative services.....................................      $1,290,000      $1,390,000       +$100,000
    Legislative services........................................         $60,000         $60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................      $1,980,000      $2,000,000        +$20,000
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 Senate offices. Consistent with our five year 
strategic plan, the Disbursing Office continues to modernize processes 
and applications to meet the continued demand by Senate offices for 
efficiency, accountability and ease of use. Our goals are to move to an 
integrated, paperless voucher system, improve the Web FMIS system, and 
make payroll and accounting system improvements.
    During fiscal year 2006 and the first half of fiscal year 2007, 
specific progress made on the FMIS project included:
  --Web FMIS was upgraded twice, once in January 2006 and again in 
        December 2006. This system is used by office managers and 
        committee clerks to create vouchers and manage office funds, by 
        the Disbursing Office to review vouchers and by the Senate 
        Committee on Rules and Administration to sanction vouchers. 
        These two releases provided both technical and functional 
        changes. Most significant of these is the integration of the 
        travel advance and cash advance tracking functionality of the 
        standalone Funds Advance Tracking System (FATS). As a result of 
        this change, an office manager knows before coming to the 
        Disbursing Office front counter whether a travel advance can be 
        issued. The system changes support the underlying rules 
        associated with travel advances that were issued by the Senate 
        Committee on Rules and Administration in December 2006. As a 
        result of the integration of the advance functions into Web 
        FMIS, the standalone FATS system was shut down during the first 
        week of March.
  --The Senate Automated Vendor Inquiry (SAVI) System was upgraded in 
        December 2006. It is used by Senate staff to create expense 
        summary reports (ESRs) online and to check the status of 
        reimbursements. It is integrated with Web FMIS so that vouchers 
        are created in Web FMIS from ``imported'' ESRs without re-
        typing the expense and itinerary data shown on the ESR. SAVI 
        release 4.0 addressed requests from SAVI users to reduce the 
        number of pages for an average travel ESR from 3 to 2 by 
        collapsing any sections in which there are no expenses.
  --ADPICS was upgraded twice, once in March 2006 and again in October 
        2006. Used primarily by the Sergeant at Arms (SAA) finance 
        staff, it is a mainframe system that provides integrated 
        procurement, receiving and voucher preparation functions that 
        are not included in Web FMIS. In response to requests from the 
        SAA finance staff, functional and ``ease-of-use'' changes to 
        ADPICS were made to approximately 40 ADPICS and FAMIS screens. 
        These included adding fields on specific screens, modifying 
        calculations, modifying query results, and facilitating 
        ``round-trip'' linking from one screen to another and then back 
        to the original.
  --The computing infrastructure for FMIS is provided by the SAA. Each 
        year the SAA staff upgrades the infrastructure hardware and 
        software. Two major upgrades were accomplished during the last 
        year. The first, upgrading the FMIS database software, DB2 from 
        version 7 to version 8, was done in three ``steps'', the last 
        of which was completed in August 2006. The second, installing a 
        new mainframe, first at the Alternate Computer Facility (ACF) 
        and then at the Primary Computing Facility in the Postal Square 
        Building (PCF), was completed in December 2006. For each 
        activity, the Disbursing Office staff tested the changes in the 
        FMIS testing environment and then validated the changes in the 
        production environment.
  --Disaster operation services for FMIS are provided at the ACF. In 
        October 2006, the SAA conducted a day-long disaster recovery 
        test of the Senate's computing facilities, including FMIS 
        functions. The test involved switching the Senate's network 
        from accessing systems at the PCF, to the ACF, our backup 
        location, and powering down the PCF. The Disbursing Office 
        staff successfully tested all critical online components of 
        FMIS, including Payroll, ADPICS, FAMIS, SAVI, Web FMIS, and 
        Checkwriter. Two components were not tested: printing documents 
        from ADPICS for SAA finance, which required hardware that was 
        not yet at the ACF; and running the overnight batch processes.
    During the remainder of fiscal year 2007 the following FMIS 
activities are anticipated:
  --Implementing additional system and reporting enhancements for the 
        SAA.
  --Implementing a new release of Web FMIS that:
    --Integrates additional functionality from the FATS system to track 
            election moratorium periods that informs an office manager 
            when a voucher includes travel related expenses that are 
            not allowable during the 60 days prior to an election;
    --Enhances the pages used by the Senate Committee on Rules and 
            Administration Audit staff to review and sanction vouchers 
            to use newer technology and make functional changes to 
            support imaging and electronic signature functions;
    --Enhances the Office Budget page to simplify creation of a budget; 
            and
    --Allows ``importing'' of data from the Bank of America credit card 
            program in order to simplify voucher creation.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, and imaging of 
        supporting documentation, and beginning acquisition.
  --Implementing online distribution of payroll system reports.
  --Implementing e-mail notification to vendors of payments made via 
        direct deposit.
  --Upgrading the Hyperion Financial Management (HFM) system, the 
        software to be used for creating financial statements should 
        the Senate decide to issue such statements.
  --Testing and verifying an upgrade of the mainframe operating system 
        to Z/OS version 1.7
  --Participating in the yearly disaster recovery test.
    During fiscal year 2008 the following FMIS activities are 
anticipated:
  --Eliminating the Social Security number (SSN) as the key field in 
        the payroll system and all Senate systems receiving data from 
        the payroll system (e.g., FMIS employee vendor numbers).
  --Converting all data in FMIS using employee vendor number based on 
        SSN to new employee vendor number.
  --Conducting a pilot of the technology for paperless payment. This 
        assumes identification of satisfactory hardware and software 
        for electronic signatures and imaging of supporting 
        documentation, and resolution of related policy and process 
        issues.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.
                         capitol visitor center
    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address issues 
that might impact the status of the project or the operation of 
Congress in general.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the CVC will bring 
substantial improvements in enhanced security and visitor amenities, 
and its educational benefits for our visitors will be tremendous.
      continuity of operations and emergency preparedness planning
Background
    The Office of the Secretary maintains a COOP program to ensure that 
the Senate can fulfill its Constitutional obligations under any 
circumstances. Plans are in place to support Senate floor operations 
both on and off Capitol Hill, and to permit each department within the 
Office of the Secretary to perform its essential functions during and 
after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, the Office has successfully implemented COOP plans 
during the anthrax and ricin incidents, and has conducted more than 
thirty drills and exercises to test and refine our plans. In 
conjunction with the SAA, USCP, and the Offices of the Attending 
Physician (OAP) and the AOC, the Office of the Secretary has 
established and exercised Emergency Operations Centers, Briefing 
Centers, the Leadership Coordination Center and Alternate Senate 
Chambers, both on and off Capitol Hill.
    In addition, the office has identified equipment, supplies and 
other items critical to the conduct of essential functions, and has 
assembled ``fly-away kits'' for the Senate Chamber, and for each 
Department of the Office of the Secretary. Multiple copies of each fly-
away kit have been produced; some are stored in offices, and back-up 
kits are stored nearby but off the main campus, as well as at other 
sites outside the District of Columbia. This approach will enable the 
Office of the Secretary to resume essential operations in 12 to 24 
hours, even if the staff cannot retrieve anything from their offices.
    Today, the Office of the Secretary is prepared to do the following 
in the event of emergency:
  --support Senate floor operations in an Alternate Senate Chamber 
        within 12 hours on campus, and within 24 to 72 hours off 
        campus, depending upon location;
  --support an emergency legislative session at a Briefing Center, if 
        required;
  --support Briefing Center Operations at any of three designated 
        locations within one hour;
  --activate an Emergency Operations Center at Postal Square or another 
        near-campus site within one hour; and
  --activate an Emergency Operations Center at another site within the 
        National Capital Region within three hours.
Activities in the Past Year
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following:
  --Updated plans for use of the Leadership Coordination Center, to 
        support Leadership response to an incident, and the Office of 
        the Secretary's Emergency Operations Center.
  --Worked with the Sergeant at Arms on development of a joint program 
        to facilitate writing, maintaining and implementing COOP plans.
  --Worked with the SAA, the OAP, and the AOC on contingency plans for 
        a pandemic influenza outbreak.
  --Conducted and participated in 10 emergency preparedness drills and 
        exercises.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our emergency preparedness programs are 
designed to ensure that the Senate can carry out its Constitutional 
functions under any circumstances. These programs are critical to our 
mission and are a permanent, integral part of our operations.
                          legislative offices
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to carry out their 
daily chamber activities and the constitutional responsibilities of the 
Senate. The department consists of eight offices--the Bill Clerk, 
Captioning Services, Daily Digest, Enrolling Clerk, Executive Clerk, 
Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates, which are supervised by the Secretary through the Director of 
Legislative Services. The Parliamentarian's office is also part of the 
Legislative Department of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is 18 years. The experience of these senior 
professional staff is a great asset for the Senate. In order to ensure 
well-rounded expertise, the legislative team cross-trains extensively 
among their specialties.
                             1. bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved, so the Bill Clerk's office is generally 
regarded as the most timely and most accurate source of legislative 
information.
Legislative Activity
    The Bill Clerk's office processed into the database more than 1,500 
additional legislative items and 50 additional roll call votes than the 
previous session. Of most significant note, the number of Senate 
Resolutions submitted increased dramatically to reach 634, the highest 
number submitted in any one Congress.
    For comparative purposes, below is a summary of the second sessions 
of the 108th and 109th Congresses, followed by a cumulative summary of 
final numbers from each Congress:

----------------------------------------------------------------------------------------------------------------
                                                              108th         109th
                                                            Congress,     Congress,       108th         109th
                                                           2nd Session   2nd Session    Congress      Congress
----------------------------------------------------------------------------------------------------------------
Senate Bills............................................         1,032         1,953         3,035         4,122
Senate Joint Resolutions................................            16            14            42            41
Senate Concurrent Resolutions...........................            66            48           152           123
Senate Resolutions......................................           204           287           487           634
Amendments Submitted....................................         1,857         2,544         4,088         5,239
House Bills.............................................           322           325           604           611
House Joint Resolutions.................................            12             8            32            19
House Concurrent Resolutions............................            87            77           165           165
Measures Reported.......................................           317           233           659           519
Written Reports.........................................           208           157           428           369
                                                         -------------------------------------------------------
      Total Legislation.................................         4,121         5,646         9,692        11,842
Roll Call Votes.........................................           216           279           675           645
----------------------------------------------------------------------------------------------------------------

Assistance with the Government Printing Office
    The Bill Clerk's office maintains a good working relationship with 
the Government Printing Office (GPO) and seeks to provide the best 
service possible to meet the needs of the Senate. GPO continues to 
respond in a timely manner to the Secretary's request, through the Bill 
Clerk's office, for the printing of bills and reports, including the 
expedited printing of priority matters for the Senate chamber. To date, 
at the request of the Secretary through the Bill Clerk, GPO expedited 
the printing of over 100 measures for consideration by the Senate 
during the 109th Congress.
                    2. office of captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices via the Senate Intranet.
    Accuracy continues to be the top priority of the office. Overall 
caption quality is monitored through daily Translation Data Reports, 
monitoring of captions in realtime, and review of caption files on the 
Senate Intranet. Dedication to this process has produced an overall 
average office accuracy rate above 99 percent this past year, the 13th 
year in a row the office has achieved this feat.
    Continuity of Operations Planning (COOP) and preparation throughout 
2006 also was a priority to ensure that staff are prepared and 
confident about the ability to relocate and successfully caption from a 
remote location in the event of an emergency.
    The office continues to prepare and plan for its relocation to the 
Senate expansion space in the Capitol Visitor Center (CVC), where it 
will be housed with the Senate Recording Studio.
                         3. senate daily digest
    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest.
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference.
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's Web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which appears in the Extensions of Remarks section of 
        the Congressional Record.
  --To enter into LIS all official actions taken by Senate committees 
        on legislation, nominations, and treaties.
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law.
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes. (See Chart--Resume of Congressional Activity)
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.
Committee Activity
    Senate committees held 916 meetings during the second session of 
the 109th Congress, 153 more than were held during the second session 
of the 108th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest, published in the Congressional Record and entered in LIS. 
Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day.
Chamber Activity
    The Senate was in session 138 days, for a total of 1,027 hours and 
48 minutes, and conducted one live quorum call and 279 roll call votes. 
(See 20-Year Comparison of Senate Legislative Activity)
Computer Activities
    The Digest continues the practice of sending a disc containing the 
complete publication along with a duplicate hard copy to GPO at the end 
of the day. GPO receives the Digest copy by electronic transfer, which 
promotes the timeliness of publishing the Congressional Record. The 
office continues to feel comfortable with this procedure, both to allow 
the Digest Editor to physically view what is being transmitted to GPO, 
and to allow GPO staff to have a comparable final product to cross 
reference.
    The Digest office will soon implement a new procedure for preparing 
copy. Information System staff has worked closely with the Daily Digest 
staff to develop a Daily Digest Authoring System. The system will 
streamline the process for creating, editing, and managing files for 
the publication of the Daily Digest, and the publishing of the 
Congressional Record. Also, Digest staff continue to work closely with 
computer staff to refine the LIS/DMS system, including further refining 
the Senate Committee Scheduling application.
Government Printing Office
    The Daily Digest continues to work with GPO on issues related to 
the printing of the Digest and is pleased to report that editing 
corrections, especially the insertion of page reference numbers, and 
transcript errors are infrequent. Discussions with GPO continue 
regarding the inclusion of online corrections.
Office Summation
    The Daily Digest consults on a daily basis with the Senate 
Parliamentarians, the Official Reporters of Debates, and the 
Legislative, Executive, Journal, and Bill Clerks, as well as the staffs 
of the policy committees and other committee staffs, and is grateful 
for the continued support from these offices.

                          DATA ON LEGISLATIVE ACTIVITY--SECOND SESSION, 109TH CONGRESS
----------------------------------------------------------------------------------------------------------------
                                                                      Senate           House           Total
----------------------------------------------------------------------------------------------------------------
Days in Session.................................................             138             101  ..............
Time in Session.................................................   1,027 hrs 48"    850 hrs, 19"  ..............
Congressional Record:
    Pages of proceedings........................................          S11849           H9202  ..............
    Extension of remarks........................................  ..............           E2187  ..............
Public bills enacted into law...................................              73             175             248
Private bills enacted into law..................................               1  ..............               1
Bills in conference.............................................               1               4               5
Measures passed, total..........................................             635             710           1,345
    Senate bills................................................             142              87  ..............
    House bills.................................................             211             319  ..............
    Senate joint resolutions....................................               2               2  ..............
    House joint resolutions.....................................               8               8  ..............
    Senate concurrent resolutions...............................              20               8  ..............
    House concurrent resolutions................................              41              77  ..............
    Simple resolutions..........................................             211             209  ..............
Measures reported, total \1\....................................             231             345             576
    Senate bills................................................             160              10  ..............
    House bills.................................................              57             223  ..............
    Senate joint resolutions....................................               3  ..............  ..............
    House joint resolutions.....................................  ..............               1  ..............
    Senate concurrent resolutions...............................               4  ..............  ..............
    House concurrent resolutions................................  ..............               9  ..............
    Simple resolutions..........................................               7             102  ..............
Special reports.................................................               9              12  ..............
Conference reports..............................................               1               9  ..............
Measures pending on calendar....................................             303             159  ..............
Measures introduced, total......................................           2,302           2,451           4,753
    Bills.......................................................           1,953           1,785  ..............
    Joint resolutions...........................................              14              27  ..............
    Concurrent resolutions......................................              48             174  ..............
    Simple resolutions..........................................             287             465  ..............
Quorum calls....................................................               1               2  ..............
Yea-and-nay votes...............................................             279             287  ..............
Recorded votes..................................................  ..............             252  ..............
Bills vetoed....................................................  ..............               1  ..............
Vetoes overridden...............................................  ..............  ..............  ..............
----------------------------------------------------------------------------------------------------------------
\1\ These figures include all measures reported, even if there was no accompanying report. A total of 155
  reports have been filed in the Senate, a total of 366 reports have been filed in the House.


                           NOMINATIONS--RESUME
[Disposition of Executive Nominations (109-2) From: 01/03/2006 to 12/31/
                                  2006]
------------------------------------------------------------------------------------------------------------------------------------------------
Civilian Nominations, totaling 618 (including 148
 nominations carried over from the First Session),
 disposed of as follows:
    Confirmed.....................................                   415
    Withdrawn.....................................                    21
    Returned to White House.......................                   182
Other Civilian Nominations, totaling 3266
 (including 780 nominations carried over from the
 First Session), disposed of as follows:
    Confirmed.....................................                 3,263
    Withdrawn.....................................                     1
    Returned to White House.......................                     2
Air Force Nominations, totaling 7830 (including
 100 nominations carried over from the First
 Session), disposed of as follows:
    Confirmed.....................................                 7,829
    Returned to White House.......................                     1
Army Nominations, totaling 9785 (including 608
 nominations carried over from the First Session),
 disposed of as follows:
    Confirmed.....................................                 9,772
    Returned to White House.......................                    13
Navy Nominations, totaling 7036 (including 21
 nominations carried over from the First Session),
 disposed of as follows:
    Confirmed.....................................                 7,035
    Returned to White House.......................                     1
Marine Corps Nominations, totaling 1293 (including
 2 nominations carried over from the First
 Session), disposed of as follows:
    Confirmed.....................................                 1,289
    Returned to White House.......................                     4
Summary:
    Total Nominations carried over from the First                  1,659
     Session......................................
    Total Nominations Received this Session.......                28,169
    Total Confirmed...............................                29,603
    Total Unconfirmed.............................  ....................
    Total Withdrawn...............................                    22
    Total Returned to the White House.............                   203
------------------------------------------------------------------------


                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1987          1988          1989          1990          1991          1992          1993          1994          1995          1996
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/6          1/25           1/3          1/23           1/3           1/3           1/5          1/25           1/4           1/3
Senate Adjourned....................................         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96          10/4
Days in Session.....................................           170           137           136           138           158           129           153           138           211           132
Hours in Session....................................      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"
Average Hours per Day...............................           7.1           8.2           7.4           9.1           7.6           8.5           8.3           9.0           8.7           7.8
Total Measures Passed...............................           616           814           605           716           626           651           473           465           346           476
Roll Call Votes.....................................           420           379           312           326           280           270           395           329           613           306
Quorum Calls........................................            36            26            11             3             3             5             2             6             3             2
Public Laws.........................................           240           473           240           244           243           347           210           255            88           245
Treaties Ratified...................................             3            15             9            15            15            32            20             8            10            28
Nominations Confirmed...............................        46,404        42,317        45,585        42,493        45,369        30,619        38,676        37,446        40,535        33,176
Average Voting Attendance...........................         94.03         91.58          98.0         97.47         97.16          95.4          97.6         97.02         98.07         98.22
Sessions Convened Before 12 Noon....................           131           120            95           116           126           112           128           120           184           113
Sessions Convened at 12 Noon........................            12            12            14             4             9  ............             6             9             2            15
Sessions Convened after 12 Noon.....................            25             5            27            17            23            10            15            17            12             7
Sessions Continued after 6 p.m......................            97            37            88           100           102            91           100           100           158            88
Sessions Continued after 12 Midnight................             6             7             9            13             6             4             9             7             3             1
Saturday Sessions...................................             3  ............             1             3             2             2             2             3             5             1
Sunday Sessions.....................................             1  ............  ............             2  ............  ............  ............  ............             3  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1997          1998          1999          2000          2001          2002          2003          2004          2005          2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3          1/27           1/6          1/24           1/3          1/23           1/7          1/20           1/4           1/3
Senate Adjourned....................................         11/13         10/21         11/19         12/15         12/20         11/20          12/9          12/8         12/22          12/9
Days in Session.....................................           153           143           162           141           173           149           167           133           159           138
Hours in Session....................................      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"      1,02748"
Average Hours per Day...............................           7.1           7.7           7.3           7.2           7.1           7.0           8.7           7.7           7.7           7.4
Total Measures Passed...............................           386           506           549           696           425           523           590           663           624           635
Roll Call Votes.....................................           298           314           374           298           380           253           459           216           366           279
Quorum Calls........................................             6             4             7             6             3             2             3             1             3             1
Public Laws.........................................           153           241           170           410           136           241           198           300           169           248
Treaties Ratified...................................            15            53            13            39             3            17            11            15             6            14
Nominations Confirmed...............................        25,576        20,302        22,468        22,512        25,091        23,633        21,580        24,420        25,942        29,603
Average Voting Attendance...........................         98.68         97.47         98.02         96.99         98.29         96.36         96.07         95.54         97.41         97.13
Sessions Convened Before 12 Noon....................           115           109           118           107           140           119           133           104           121           110
Sessions Convened at 12 Noon........................            12            31            17            25            10            12             4             9             1             4
Sessions Convened after 12 Noon.....................             7             2            19            24            21            23            23            21            36            24
Sessions Continued after 6 p.m......................            96            93           113            94           108           103           134           129           120           129
Sessions Continued after 12 Midnight................  ............  ............  ............  ............             2             3             8             2             3             3
Saturday Sessions...................................             1             1             3             1             3  ............             1             2             2             2
Sunday Sessions.....................................             1  ............  ............             1  ............  ............             1             1             2  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

                           4. enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate-passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2006, 99 enrolled bills (transmitted to the President), 2 
enrolled joint resolutions (transmitted to the President) and 9 
concurrent resolutions (transmitted to Archives) were prepared, 
proofread, corrected, and printed on parchment for official enrollment. 
In addition, the office processed a total of 571 additional pieces of 
legislation that were passed or agreed to by the Senate.
    Throughout 2006 the enrolling clerks met with personnel of the LIS 
Project Office to integrate and test the LEXA application for 
processing bills for printing. The LEXA training manual was updated in 
early February 2006; and, as of January 2007, the enrolling clerks are 
now incorporating the new legislative drafting tool. Senate Enrolling 
will embark in this new challenge to continue to help incorporate these 
changes into the process to further its primary mission of providing 
the most timely and accurate product for the Senate.
                           5. executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepared the Executive Calendar daily as well as 
all nominations and treaty resolutions for transmittal to the 
President. Additionally, the Executive Clerk's office processes all 
executive communications, presidential messages and petitions and 
memorials.
Nominations
    During the second session of the 109th Congress, there were 1,049 
nomination messages sent to the Senate by the President, transmitting 
28,169 nominations to positions requiring Senate confirmation and 22 
messages withdrawing nominations sent to the Senate during the second 
session of the 109th Congress. Of the total nominations transmitted, 
370 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, NOAA, and Public Health Service. In addition, 
there were 2,486 nominees in the ``civilian list'' categories named 
above. Military nominations received this session totaled 25,213 
(7,730--Air Force; 9,177--Army; 7,015--Navy and 1,291--Marine Corps). 
The Senate confirmed 29,603 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 203 nominations were 
returned to the President during the second session of the 109th 
Congress.
Treaties
    There were 14 treaties transmitted to the Senate by the President 
during the second session of the 109th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 109-9 through 109-22). The 
Senate gave its advice and consent to 14 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were 11 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
109th Congress (Executive Report 109-9 through 109-19). The Senate 
conducted 29 roll call votes in executive session, all on or in 
relation to nominations and treaties.
Executive Communications
    For the second session of the 109th Congress, 4,186 executive 
communications, 192 petitions and memorials and 23 Presidential 
messages were received and processed.
LIS Update
    The Executive Clerk consulted with the computer staff during the 
year to improve the LIS processing of nominations, treaties, executive 
communications, presidential messages and petitions and memorials.
                            6. journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year, and 
in 2006, the Journal Clerk completed the production of the 1,090 page 
2005 edition.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting by hand for inclusion in the Minute Book (i) all orders 
(entered into by the Senate through unanimous consent agreements), (ii) 
legislative messages received from the President of the United States, 
(iii) messages from the House of Representatives, (iv) legislative 
actions as taken by the Senate (including motions made by Senators, 
points of order raised, and roll call votes taken), (v) amendments 
submitted and proposed for consideration, (vi) bills and joint 
resolutions introduced, and (vii) concurrent and Senate resolutions as 
submitted. These notes of the proceedings are then compiled in 
electronic form for eventual publication at the end of each calendar 
year of the Senate Journal.
    The LIS Senate Journal Authoring System continues to be updated as 
needed to further assist in the efficiency of production. The 2006 
Senate Journal is expected to be sent to GPO for printing at the end of 
April.
                          7. legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. The office prepares the Senate Calendar of 
Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. The office is responsible for verifying the accuracy of 
information entered into LIS by the various offices of the Secretary.
Summary of Activity
    The second session of the 109th Congress completed its legislative 
business and adjourned on December 9, 2006. During 2006, the Senate was 
in session 138 days and conducted 279 roll call votes. There were 231 
measures reported from committees and 635 total measures passed. In 
addition, there were 2,545 amendments processed.
Cross-Training
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately 50 percent of the legislative staff are 
currently involved or have recently been involved in cross-training.
Amendment Tracking System Feedback
    The Senate's Web-based application that allows users to access 
images of Senate amendments proposed to legislation is called the 
Amendment Tracking System (ATS). Developed in 1997 to provide the 
Senate with online access to amendments, ATS provides legislative staff 
with scanned images of the amendments, and descriptive information 
about them, including their purpose, sponsor, cosponsors, submitted 
date, proposed date, and status.
    In September of 2005, the scope of information available on ATS was 
expanded to include submitted amendments, those amendments that have 
been submitted but have not been proposed on the Senate floor. Staff 
members now have the option to view all, just submitted, or just 
proposed amendments. ATS also expanded the size of amendment images 
from 25 to 50 pages, so users are now able to see up to 50 pages of a 
submitted or proposed amendment.
    After utilizing the expanded version of the ATS for a full year, 
reaction from the Senate community continues to be extremely positive.
                    8. official reporters of debates
    The Official Reporters of Debates prepare and edit a substantially 
verbatim report of the proceedings of the Senate for publication in the 
Congressional Record, and serve as liaison for all Senate personnel on 
matters relating to the content of the Record. The transcript of 
proceedings, submitted statements and legislation are transmitted in 
hard copy and electronically throughout the day to GPO.
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors. The office provides formatting guidelines to 
Senate offices which has facilitated an accurate and timely printing of 
each day's Congressional Record.
                           9. parliamentarian
    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the Chair, Senators and their staff, 
as well as committee staff, House members and their staffs, 
administration officials, the media and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, unanimous consent agreements, as 
well as provisions of public law affecting the proceedings of the 
Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. In this respect, the Parliamentarians 
reviewed more than 1,000 amendments during 2006 to determine if they 
met various procedural requirements (such as germaneness). The 
Parliamentarians also reviewed thousands of pages of conference reports 
to determine what provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2006, the Parliamentarian and his assistants referred 
2,245 measures and 4,403 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. The office continues to address the 
jurisdictional questions posed by the creation of the new Department of 
Homeland Security, by the adoption of S. Res. 445 reorganizing 
intelligence and homeland security jurisdiction of the Senate's 
committees, and by the enactment of the Intelligence Reform and 
Terrorism Prevention Act of 2004. The Parliamentarians have made dozens 
of decisions about the committee referrals of nominations for new 
positions created in this department, nominations for positions which 
existed before this department was created but whose responsibilities 
have changed, and hundreds of legislative proposals concerning the 
department's responsibilities.
    Additionally, in the last six years, rules relating to legislation 
on appropriations bills, and the scope of conference reports on all 
bills were reinstated. As a result, the Parliamentarians have been 
asked to review hundreds of Senate amendments and now have the 
responsibility of potentially reviewing every provision of every 
conference report considered by both Houses of Congress.
    In 2006, as in all election years, the Parliamentarians received 
all of the certificates of election of Senators elected or reelected to 
the Senate, and reviewed them for sufficiency and accuracy, returning 
those that were defective and reviewing their replacements.
                financial operations: disbursing office
                     disbursing office organization
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed offices 
of the United States Senate, and to Members and employees of the 
Senate. To accomplish this mission, the Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, prepare 
auditable financial statements, and provide appropriate counseling and 
advice. The Senate Disbursing office collects information from Members 
and employees that is necessary to maintain and administer the 
retirement, health insurance, life insurance, and other central human 
resource programs and provides responsive, personal attention to 
Members and employees on an unbiased and confidential basis. The Senate 
Disbursing Office also manages the distribution of central financial 
and human resource information to the individual Member offices, 
committees, administrative and leadership offices in the Senate while 
maintaining the confidentiality of information for Members and Senate 
employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured to enhance its ability to provide quality 
work, maintain a high level of customer service, promote good internal 
controls, efficiency and teamwork, and provide for the appropriate 
levels of supervision and management. The long-term financial needs of 
the Senate are best served by an organization staffed with highly 
trained professionals who possess a high degree of institutional 
knowledge, sound judgment, and interpersonal skills that reflect the 
unique nature of the United States Senate.
               deputy for benefits and financial services
    The principal responsibility of this position is to provide 
expertise and oversight on federal retirement, benefits, payroll, and 
financial services processes. Coordination of the interaction between 
the Financial Services (Front Office), Employee Benefits, and Payroll 
Sections is also a major responsibility of the position, in addition to 
the planning and project management of new computer systems and 
programs. The Deputy for Benefits and Financial Services ensures that 
job processes are efficient and up to date, modifies computer support 
systems, as necessary, implements regulatory and legislated changes, 
and designs and produces up-to-date forms for use in all three 
sections.
    After year-end processing of payroll for the calendar year 2005, 
minor enhancements to the cost of living allowance (COLA) process were 
smoothly completed. W-2's were issued promptly and made immediately 
available on the Document Imaging System (DIS). During the year, other 
minor changes were made to the Human Resources Management System (HRMS) 
to promote greater efficiency.
    DIS, which contains electronic images of employee personnel 
folders, documents, records, W-2 statements, as well as other pay and 
service history records, has proven to be a valuable resource for the 
Disbursing Office. As DIS began nearing its storage capacity, research 
was conducted and projections were made on future uses and capacity 
requirements. New SQL servers were requisitioned and installed. In 
addition to transferring data from old to new, including replication 
for the Alternate Computing Facility (ACF), testing of the new server 
has begun, and it is expected to be fully operational later this month. 
This upgrade will allow us the ability to expand the scope of our 
document imaging and to bring it into full compliance with COOP 
guidelines.
    The Senate Service Facility (SSF) was completed in February. 
Revolving vertical file cabinets were installed in the Disbursing 
Office's enclosed, secure and environmentally controlled area. In 
addition, a dedicated, secure ``cage'' was provided for organized and 
elevated box storage. Access was granted and security codes were 
authorized to those in need of access. All Disbursing Office files and 
employee personnel folders in the offsite warehouses were transported 
to the SSF. Employee personnel folders were then transferred from the 
70 outdated file cabinets into the state-of-the-art revolving vertical 
cabinets. This required a great deal of planning and organization to 
integrate the personnel folders from many groupings into one 
alphabetical run for ease of access and organization. During the 
summer, 18,000 of the older employee personnel folders maintained on-
site in the Disbursing Office were purged. These folders were 
transported to the SSF and interfiled with those folders already 
located there. This alleviated overcrowding of the Disbursing Office 
files and has made the older folders readily accessible.
    As a result of legislation passed in 2004, the new pre-tax Federal 
Employees Dental and Vision Insurance Program (FEDVIP) was implemented 
in 2006. In preparation for implementation, disbursing staff attended 
agency-wide meetings and seminars. The Office of Personnel Management 
(OPM) provides guidance for this program which is administered by a 
third-party administrator. Programming specifications were determined 
for compliance with the program's parameters and its regulations, and 
provided to the SAA Computer Center for development. The Disbursing 
Office provided testing and trouble-shooting for the new programming. 
Preparations for the first annual FEDVIP Open Season (OS) were made, 
including training, education and distribution of materials. The 
initial FEDVIP OS coincided with the Federal Employees Health Benefits 
(FEHB) and Flexible Spending Accounts (FSA) OS, and enrollments were 
effective 12-31-2006. This new program will be monitored with 
programming and procedures modified as needed.
    Updates and revision of many Disbursing Office forms were 
completed, and many were made available electronically through Webster. 
The Disbursing Office also worked with the SAA Computer Center to 
provide internal electronic storage and retrieval of reports and to 
eliminate the need for paper production and distribution of those 
reports.
    In addition, the Disbursing Office administers the retirement and 
benefits programs for the Senate Employees' Child Care Center (SECCC). 
In 2006 electronic imaging and storage of employee folders and 
documents for SECCC staff was completed as well as the creation of 
electronic retirement records.
    At the request of the Senate Committee Rules and Administration, 
the Disbursing Office worked to edit and update relevant portions of 
the Senate Handbook. In addition, Senator-elect information and 
guidance was also reviewed and updated for the orientation handbook.
          front office--administrative and financial services
    The Front Office is the main service area of all general Senate 
business and financial activity. The Front office maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
office provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Office is the first line of service provided to 
Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit. Staff is also provided verbal and written detailed 
information regarding pay and benefits. Authorization is certified to 
new and state employees for issuance of Senate identification cards. 
Advances are issued to Senate staff authorized for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers 
checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
office and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.
General Activities
    Processed approximately 2,300 cash advances, totaling approximately 
$1.1 million and initialized 800 check/direct deposit advances, 
totaling approximately $620,000.
    Received and processed more than 25,000 checks, totaling over 
$2,500,000.
    Administered Oath and Personnel Affidavits to more than 2,700 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 12 Federal health carriers and distributed 
approximately 4,000 brochures to new and existing staff during the 
annual FEHB OS.
    Provided 20 training sessions to new administrative managers.
    In December, the advance functionality module of Web FMIS was 
implemented to replace the legacy FATS system for issuance and 
repayment of travel advances. This implementation required the ongoing 
dual run of both systems until testing was successfully completed in 
March of this year.
    The Front office continues its daily reconciliation of operations 
and strengthened internal office controls. New locks for cash drawers 
were ordered and scheduled for installation. This will allow for better 
central control of the cash accountability. Training and guidance to 
new administrative managers and business contacts continued, as did the 
incorporation of updates of the scanning and imaging project into daily 
operations. A major emphasis was placed on assisting employees in 
maximizing their Thrift Savings Plan (TSP) contributions and making 
them aware of the TSP catch-up program. The Front office continued to 
provide the Senate community with prompt, courteous, and informative 
advice regarding Disbursing Office operations.
                            payroll section
    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
Chairmen and other appointing officials for their staffs, including 
appointments of employees, salary changes, title changes, transfers and 
terminations. It is also responsible for input of all enrollments and 
elections submitted by Members and employees that affect their pay 
(e.g. retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to Members and employees. The Payroll Section jointly 
maintains the Automated Clearing House (ACH) FedLine facilities with 
the Accounts Payable Section for the normal transmittal of payroll 
deposits to the Federal Reserve. Payroll Expenditure, Projection and 
Allowance reports are distributed to all Senate offices. Issuance of 
the proper withholding and agency contributions reports to the 
Accounting Department is handled by Payroll as is transmission of the 
proper TSP information to the National Finance Center. In addition, the 
Payroll Section maintains earnings records for distribution to the 
Social Security Administration and employees' taxable earnings records 
for W-2 statements. The Payroll Section is also responsible for the 
payroll expenditure data portion of the Report of the Secretary of the 
Senate. The Payroll Section calculates, reconciles and bills the SECCC 
(Child Care Center) for their staff Employee Contributions and forwards 
payment of those contributions to the Accounting Section. The Payroll 
Section provides guidance and counseling to staff and administrative 
managers on issues of pay, salaries, allowances and projections.
General Activities
    The Payroll Section processed a January 1, 2006 cost of living 
increase of 3.44 percent. The Payroll Section maintained the normal 
schedule of processing TSP election forms. Employees took full 
advantage of the increase of TSP deductions making the most of the new 
$15,000 maximum. For those employees over 50, the TSP catch-up program 
provided an opportunity to make additional contributions in excess of 
the standard limitations.
    Payroll Allowance, Expenditure and Projection reports are provided 
to all Senate offices on a monthly basis. A desire to provide these 
reports in an electronic format was identified. Brainstorming sessions 
were held within the Disbursing Office to determine possible paths for 
this project. Initial contacts between the Disbursing Office, SAA 
Computer Center and the appropriate contractor were made and early 
stage meetings have been held to identify requirements, possible 
strategies and means to provide the electronic reports. The goal is to 
make these reports available electronically in 2007.
    The Payroll Section provides administration of the Student Loan 
Repayment Program (SLRP). In response to the high volume of calls and 
e-mails, an exclusive SLP e-mail account has been established. This 
tool will speed responses to inquiries from offices and employees. In 
addition, meetings were held with office administrators to provide 
clarification about and to ensure compliance with Public Law 107-68 
that governs the Senate SLP.
    In November the Payroll Section gained access to the U.S. Treasury 
Pacer System, which allows us to resolve SLP lender issues and employee 
inquiries in an accurate and efficient manner by presenting physical 
evidence of payments negotiated. Disbursing continues to review 
internal processes and controls, seeking ways to improve efficiency and 
performance. In 2006, the office developed a database to provide better 
tracking and reporting for the SLP activities.
    In September the Payroll Section began to receive TSP reports, 
receipts, loans and error lists via TSP's Web-based secure system. This 
enabled us to handle all of these functions in a timely manner. 
Previously TSP correspondence was sent by mail and was subject to mail 
delays and loss.
    The Payroll Section was involved in the preparations and 
programming specifications for implementation of FEDVIPS. Flexible 
Spending Accounts, and Long Term Care Insurance processing continues. 
The office continues to refine and improve processes in working with 
third party administrators.
    The 2006 elections presented the Payroll Section with the need to 
prepare for the opening and closing of ten personal offices in addition 
to leadership changes. Disbursing Office staff looked into the 
specifics of S. Res. 478 to determine its impact on outgoing staff and 
to ensure that procedures allowed for the proper administration of the 
resolution.
    The Payroll Section again participated in disaster recovery 
testing. This year's test, conducted in October, entailed using the ACF 
processing equipment to operate the payroll/personnel system from the 
Hart Building while SAA programmers ran trial payrolls from dial up 
sources. Part of the test was for members of SAA Production Services to 
produce the payroll output from printers located at the ACF. The 
Payroll/Personnel Systems test proved that it could be run from 
multiple locations at the same time.
                       employee benefits section
    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
FSAs, the Long Term Care Insurance (LTCI) Program and FEDVIPS. In 
addition, the sectional work includes research and verification of all 
prior federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input and when 
Official Personnel Folders and Transcripts of Service from other 
federal agencies are received, verifies the accuracy of the information 
provided and reconciles as necessary. Senate Transcripts of Service, 
including all official retirement and benefits documentation, are 
provided to other federal agencies when Senate Members and staff are 
hired elsewhere in the government. EBS is responsible for the 
administration and tracking of employees placed in Leave Without Pay 
(LWOP) to perform military service and the occasional civilian 
appointment to an international organization. EBS also handles most of 
the stationery and forms inventory ordering and maintenance for the 
Disbursing Office. EBS processes employment verifications for loans, 
the Bar Exam, the Federal Bureau of Investigation (FBI), OPM, and 
Department of Defense (DOD), among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment, as are the employee fees associated 
with FSAs. Designations of Beneficiary for Federal Employees' Group 
Life Insurance (FEGLI), Civil Service Retirement System (CSRS), Federal 
Employees Retirement System (FERS), and unpaid compensation are filed 
and checked by EBS.
General Activities
    EBS assisted with the transition of Senator Corzine and his staff 
as he resigned his Senate seat to become Governor of New Jersey, as 
well as the transition of Senator Menendez and his staff to the Senate 
from his seat in the House. EBS also provided counseling to all 
outgoing Senators, and provided their outgoing staff with office talks 
and individual counseling. Additionally, EBS provided counseling to 
committee and leadership staff affected by leadership changes.
    EBS conducted agency-wide seminars on CSRS and FERS and hosted a 
seminar with the D.C. Department of Employment Services in December for 
all potentially outgoing staff. This seminar was very helpful to staff 
in providing pointers and references in applying for new employment.
    EBS staff attended interagency meetings on the development and 
understanding of the new FEDVIP program and the Benefeds Portal that 
will combine third-party administration of FSA, LTCI and the new FEDVIP 
programs. EBS also attended government-wide TSP meetings to keep 
abreast of new regulations and procedures.
    Approximately 500 employees changed plans during the annual FEHB 
OS. These changes were processed and reported to carriers very quickly. 
This year we were again able to offer Senate employees access to the 
online ``Checkbook Guide to Health Plans'' to research and compare FEHB 
plans. This tool will remain available to staff throughout the year. 
Once again, the Disbursing Office hosted a FEHB OS Health Fair, with 
over 1,200 employees attending. Senate enrollment in the new Dental and 
Vision Insurance plans was over 1,600.
    There has been significant coordination with the SAA Computer 
Center to effect computer enhancements and provide additional automated 
forms to the EBS database. This has provided greater efficiency and 
increased accuracy of information. In addition, EBS created several 
``fillable forms'' for use by EBS staff.
    EBS is in the process of building a sectional electronic 
``library'' of scanned documents on our shared directory. This library 
of samples, documentation, rulings and other benefits will help to 
teach new personnel to ensure consistent EBS output. The library will 
also be a valuable COOP resource.
                 disbursing office financial management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities, to process and 
pay expense vouchers within reasonable time frames, to work toward 
producing an auditable consolidated financial statement for the Senate 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
Disbursing Office Financial Management is segmented into three 
functional departments: Accounting, Accounts Payable, and Budget. The 
Accounts Payable Department is subdivided into three sections: Audit, 
Disbursement and Vendor/SAVI. The Deputy coordinates the activities of 
the three functional departments, establishes central financial 
policies and procedures, acts as the primary liaison to the HR 
Administrator, and carries out the directives of the Financial Clerk 
and the Secretary of the Senate.
                         accounting department
    During fiscal year 2006, the Accounting Department approved in 
excess of 53,000 expense reimbursement vouchers, processed 1,300 
deposits for items ranging from receipts received by the Senate 
operations, such as the Senate's revolving funds, to cancelled 
subscription refunds from Member offices. General ledger maintenance 
also prompted the entry of thousands of adjustment entries that include 
the entry of all appropriation and allowance funding limitation 
transactions, all accounting cycle closing entries, and all non-voucher 
reimbursement transactions such as payroll adjustments, COLA budget 
uploads, stop payment requests, travel advances and repayments, and 
limited payability reimbursements. The department began scanning all 
documentation for journal vouchers, deposits, accounting memos, and 
letters of certification to facilitate both storage concerns and COOP 
backup.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement Db2 version 8 Compatibility and New Features 
modes, and an upgrade to the mainframe operating system to Z/OS. During 
January 2006, the Accounting Department with contract support completed 
the 2005 year-end process to close and reset revenue, expense, and 
budgetary general ledger accounts to zero. The new CD log was developed 
and extensive regression testing was required. The log is now fully 
functional. Document purge and rollover were turned over to the IT 
group as the department geared up for 2006 fiscal year-end closing 
activities.
    The Department of the Treasury's monthly financial reporting 
requirements include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, reported to the 
Department of the Treasury on a monthly basis is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts, a 
summary all activity of all monies disbursed by the Secretary of the 
Senate through the Financial Clerk of the Senate. All activity by 
appropriation account is reconciled with the Department of the Treasury 
on a monthly and annual basis. The annual reconciliation of the 
Treasury Combined Statement is also used in the reporting to the Office 
of Management and Budget (OMB) as part of the submission of the annual 
operating budget of the Senate.
    This year, the Accounting Department transmitted all federal tax 
payments for federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security, and Medicare to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP.
    There are also internal reporting requirements such as the monthly 
ledger statements for all Member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. It is 
the responsibility of the Accounting Department to review and verify 
the accuracy of the statements before Senate-wide distribution.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, continues to work closely with the SAA Finance 
Department in completing the corrective actions that were identified 
during our Pro-forma financial statements auditability assessment. 
Based on the results of this exercise, 23 corrective actions were 
suggested including an action plan and proposed schedule to have them 
corrected. Some of the actions were rather simple to implement while 
others will take significantly longer. Of the 23 corrective actions 
noted, 18 have been completed and 5 are still in process.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance and distribution 
of the budget justification worksheets (BJW). In fiscal year 2006, the 
budget justification worksheets were mailed to the Senate accounting 
locations and processed in December. The budget baseline estimates for 
fiscal year 2007 were reported to OMB by mid-January, via the upgraded 
MAX database.
    During January, the Senate Budget Analyst is responsible for the 
preparation of 1099's and the prompt submission of forms to the IRS 
before the end of the month.
                            accounts payable

             Vendor/Senate Automated Vendor Inquiry Section

    The Vendor/Senate Automated Vendor Inquiry (SAVI) Section maintains 
the accuracy and integrity of the Senate's central vendor (payee) file 
for the prompt completion of new vendor file requests and service 
requests related to the Disbursing office's Web-based payment tracking 
system known as SAVI. This section also assists the IT Department 
performing periodic testing and monitoring the performance of the SAVI 
system.
    Currently, more than 14,400 vendor records are stored in the vendor 
file. Daily requests for new vendor addresses or updates to existing 
vendor information are processed within 24 hours of being received. In 
2004, the A/P Department began paying vendors electronically via the 
ACH. Besides updating mailing addresses, the Vendor/SAVI section 
facilitates the use of ACH by switching the method of payment requested 
by the vendor from check to direct deposit. Whenever a new remittance 
address is added to the vendor file, a standard letter is mailed to 
vendors requesting tax and banking information. If a vendor responds to 
our letter and indicates they would like to receive ACH payments in the 
future, the method of payment is changed. Currently, more than 1,800 
vendors and over half of the home state office landlords are being paid 
via ACH.
    SAVI is the Disbursing office's Web-based payment tracking system. 
Senate employees can electronically create, save, and file expense 
reimbursement forms, track their progress, and get detailed information 
on payments. The most common service requests are requests for system 
user ids, system passwords and to activate deactivated accounts. 
Employees may also request an alternative expense payment method. An 
employee can choose to have their payroll set up for direct deposit or 
paper check, but can have their expenses reimbursed by a method 
different from their salary payment method.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group resolving returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect ABA routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor/SAVI section electronically scans and stores all 
supporting documentation of existing vendor records and new vendor file 
requests. Currently electronic records for over 9,000 vendors have been 
verified against paper records and the paper files certified for 
destruction. In the near future, this section will assist the IT 
Department in testing an automatic e-mail notification system which 
will alert vendors when an EFT payment has been made and will provide 
pertinent payment information.
    During 2006, the Vendor/SAVI section processed over 2,400 vendor 
file requests, completed nearly 1,800 SAVI service requests, mailed 
over 1,100 vendor information letters, and converted over 500 vendors 
to direct deposit.
    The SAVI web-based system was upgraded in 2006 to version 4.0, and 
the section participated in testing of new features and functionality.

                        Disbursements Department

    The department received and processed over 158,000 expense claims. 
The department also wrote more than 34,000 expense checks and 
approximately 57,500 direct deposit reimbursements were transmitted via 
ACH. The department has experienced a slight increase of roughly 5.7 
percent in the number of checks written and a slight increase of 2 
percent in the number of ACH payments. The department's goal is to 
reduce the number of checks and increase the number of ACH payments 
sent out. The department suffered no performance loss, ensuring that 
all vendors and employees continued to receive timely and accurate 
payments. ACH and check printing capabilities were established at the 
ACF. The ACF is stocked so COOP initiatives can be carried out. A new 
version of Checkwriter was installed as part of the release of Web FMIS 
version 11.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Currently, files are maintained for the current period and two 
prior periods in-house as space is limited. Previously, older documents 
were stored in the department's warehouse, but were successfully 
transferred to the SSF in February 2006.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied and include the following: 
preparation of foreign travel advances and vouchers, reimbursements for 
expenses incurred by Senate leadership, re-issuance of items held as 
accounts receivable collections, re-issuance of payments for which non-
receipt is claimed, and various supplemental adjustments received from 
the Payroll Department. Such adjustments are usually disbursed by 
check, but an increasing number are now handled electronically through 
the ACH. Paper payroll check registers were replaced by an electronic 
version using Reveal software. A spreadsheet was also created to track 
cases of non-receipt of salary checks, including stop payment requests 
and reissuance.
    During 2006, while small in number, some ACH returns occurred. All 
rejected items are logged into an ACH Reports folder. They are 
classified as either Payroll or Accounts Payable, and the actual daily 
reports are also scanned into the folder. Once logged in, the payroll 
items are forwarded to the Payroll Department, and the non-payroll 
items are forwarded to Vendor/SAVI for appropriate corrective action.
    The Accounts Payable Disbursements Department prepares mailing 
labels for the distribution of the monthly ledgers to the 140 
accounting locations throughout the Senate. Although the ledgers are 
sorted and sent out by Accounting, the Disbursements Group maintains 
the file of how and where the statements are to be delivered. The main 
objective of this process is to have each office receive their ledger 
statements for the month just ended by the 10th of the following month.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement Supervisor and the Accounts Payable Manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides online access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via e-mail. During 2006, over 500 requests were 
received for check copies.
    The Disbursements Department continues the use of laser checks. The 
tractor-fed check writer system has been dismantled and a new, improved 
system was developed and implemented. The folder/inserter was purchased 
and has been installed. New hardware and further Checkwriter upgrades 
were implemented in 2006. The result was a user friendly system which 
has the additional benefits of greater security and a higher degree of 
accuracy.

                            Audit Department

    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System, and 
assists in the production of the Report of the Secretary of the Senate.
    A major function of the section is monitoring the Fund Advances for 
travel and petty cash. FATS was used to ensure that advances were 
charged correctly, vouchers repaying such advances were entered, and 
balances were adjusted for reuse of the advance funds. An ``aging'' 
process was also performed to ensure that travel advances are repaid in 
the time specified by the travel advance regulations. Travel advances 
may be repaid via regular voucher processing, or may be canceled if the 
corresponding travel is not taken and the funds are returned.
    Late in 2006, a new advance module was placed into service for 
issuing and tracking advances. The module is part of Web FMIS version 
11 and is the first of a two-phase project. The first phase has been 
completed and accommodates issuance, tracking, and repayment of 
advances. The second phase will accommodate entry and editing of 
election dates and Senator-elect vouchers. There is no conceptual 
difference in the way advances are issued and repaid, only the 
methodology involved in using FATS versus Web. FATS will ultimately be 
replaced once phase two of Web FMIS advances is implemented.
    Concurrently, the Accounts Payable Manager, Deputy for Financial 
Management, and the IT Department participated in discussions with the 
Senate Committee on Rules and Administration which led to a major 
revision to the Senate Travel Regulations. Among the many changes was a 
standardization of the number of travel advances any one individual may 
have outstanding at any given time. Prior to this, different entities 
had different limits and some had no limits at all. A maximum of two 
per individual was established. The advance revisions were included in 
the latest version of Web FMIS.
    The Accounts Payable Audit Section processed in excess of 158,000 
expense vouchers in fiscal year 2006, as well as 45,000 uploaded items. 
In addition, the section sanctioned in excess of 56,000 vouchers under 
authority delegated by the Senate Committee on Rules and 
Administration. The voucher processing consisted of providing 
interpretation of Senate rules, regulations and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS and paid within 10 business 
days.
    Uploaded items are of two varieties, certified expenses and vendor 
payments. Certified expenses have been around since the 1980's and 
included items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass transit, mass 
mail, franked mail, excess copy charges, Photographic Studio, and 
Recording Studio charges. Expenses incurred by the various Senate 
offices are certified to the Disbursing Office on a monthly basis. The 
expenses are detailed on a spreadsheet which is also electronically 
uploaded. The physical voucher is audited and appropriate revisions are 
made. Concentrated effort is put forth to ensure certified items appear 
as paid in the same month they are incurred.
    Vendor uploads are fairly new, and are used to pay vendors for the 
Stationery Room, Senate Gift Shop, state office rentals, and refunds of 
security deposits for the Page School. The methodology is roughly the 
same as for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the state office rents are generally paid a few days 
prior to the month of the rental in keeping with a general policy of 
paying rent in advance.
    The Disbursing Office has sanctioning authority for vouchers of 
$100 or less. These vouchers comprise approximately 60 percent of all 
vouchers processed. The responsibility for sanctioning rests with the 
Certifying Accounts Payable Specialists and are received, audited, and 
paid within 5 business days of receipt. As in the previous year, 
Disbursing continued to pass two post-payment audits performed by the 
Senate Committee on Rules and Administration.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. Currently, there are three Certifying Accounts 
Payable Specialists who handle the bulk of the sanctioning 
responsibilities within the group. This, coupled with the reduced flow 
of vouchers to the Senate Committee on Rules and Administration, has 
allowed us to continue with their inclusion in the online sanctioning 
process.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section trained 10 new Administrative Managers and 
Chief Clerks and conducted three informational sessions for Senate 
staff through seminars sponsored by the Congressional Research Service 
(CRS). The Accounts Payable group also routinely assists the IT 
department and other groups as necessary in the testing and 
implementation of the new hardware, software, and system applications. 
Web FMIS version 10 was in use for most of the year with the 
electronic, importable expense summary report (ESR). The section 
participated in testing for the release of Web FMIS version 11 late in 
the year.
    The cancellation process for advances was upgraded and streamlined 
in 2006. This was necessary to ensure repayment of advances 
systematically for canceled or postponed travel in accordance with 
Senate Travel Regulations, as well as to provide functionality 
consistent with the release of the advance module in Web FMIS version 
11. The new process eliminates the need to create zero dollar vouchers, 
allows the Disbursing Office to completely handle the cancellations in 
FAMIS, and allows administrative managers to simply void their advance 
documents.
                disbursing office information technology

                Financial Management Information System

    The Disbursing Office Information Technology (IT) Department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Information System (FMIS) which is used by 140 
Senate accounting locations (i.e., 100 Senator's offices, 20 
committees, 20 leadership and support offices, the Office of the 
Secretary of the Senate, the Office of the Sergeant at Arms, the Senate 
Committee on Rules and Administration Audit section, and the Disbursing 
office). Responsibilities include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's Disaster Recovery activities.
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2006 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Systems staff, and contracts with 
BearingPoint.
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management, and database administration; and regular batch processing. 
BearingPoint, under contract with the SAA, is responsible for 
operational support, and under contract with the Secretary, for 
application development. The Disbursing office is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work cooperatively.
    Highlights of the year include:
  --Implementation of two releases of Web FMIS, including integration 
        of the travel advance functionality of the FATS;
  --Implementation of a release of SAVI that reduced the number of 
        pages of a standard Travel Expense Summary Report from 3 to 2;
  --Implementation of a release of Checkwriter;
  --Implementation of two sets of changes to ADPICS and FAMIS;
  --Testing of a major upgrade to the underlying database, from DB2v7 
        to DB2v8;
  --Testing of a new mainframe computer;
  --Support of the Senate Committee on Rules and Administration's post 
        payment audit of a statistically valid sample of vouchers of 
        $100 or less;
  --Installing new PCs throughout the Disbursing Office;
  --Coordinating and participating in the FMIS portion of a disaster 
        recovery exercise for the Alternate Computing Facility; and
  --Conducting monthly classes and seminars on Web FMIS.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that begins on the following page.

                       Supporting Current Systems

    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Disbursements and 
Front Office Sections, and the Senate Committee on Rules and 
Administration Audit staff. The activities associated with this 
responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of questions; and meet with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for database access optimization;
  --Security--maintaining user rights for all ADPICS, FAMIS, and Web 
        FMIS users;
  --System administration--design, test and make entries to tables that 
        are intrinsic to the system;
  --Support of accounting activities--perform functional testing of the 
        cyclic accounting system activities such as rollover, the 
        process by which tables for the new fiscal year are created, 
        and archiving and purging for the current year tables data for 
        lapsed fiscal years;
  --Support the Senate Committee on Rules and Administration post 
        payment voucher audit process; and
  --Training--provide functional training to all Senate FMIS users.
    Under the supervision of the IT Group, the contractor created tools 
to determine the sample size, to enable selecting the sample from the 
universe of vouchers of $100 and less, and to determine the acceptable 
number of discrepancies given the sample size and the desired 
confidence interval. Both audits conducted in 2006 resulted in a 
favorable finding of zero discrepancies. The audit conducted in April 
2006 for the six-month period ending March 31, 2006, covered 26,162 
vouchers and the audit conducted in October 2006 for the six-month 
period ending September 30, 2006, covered 27,994 vouchers.

                                                                         SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
             Subsystem                             Functionality                                Source                                 Primary Users                       Implementation
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)..................  General ledger..........................  Off-the-shelf federal system............  Disbursing Office.......................  October 1998
                                     Vendor file
                                     Administrative functions
                                     Security functions
ADPICS (Mainframe).................  Preparation of requisition, purchase      Off-the-shelf federal system............  Sergeant at Arms........................  October 1998
                                      order, voucher from purchase order, and                                            Disbursing Office
                                      direct voucher documents.                                                          Secretary of the Senate
                                     Electronic document review functions
                                     Administrative functions
Checkwriter (Client-server)........  Prints checks and check registers as      Off-the-shelf state government system     Disbursing Office.......................  October 1998
                                      well as ACH (Automated Clearing House)    purchased from and adapted to Senate's
                                      direct deposit transmission payments.     requirements.
Web FMIS (Intranet)................  Preparation of voucher, travel advance,   Custom software developed by contractor.  All Senators' offices...................  October 1999--Client Server
                                      voucher from advance documents, credit                                             All Committee offices                     August 2004--Intranet
                                      documents and simple commitment and                                                All leadership & support offices
                                      obligation documents.                                                              Secretary of the Senate
                                     Entry of detailed budget                                                            Sergeant at Arms
                                     Reporting functions (described below)                                               Disbursing Office
                                     Electronic document submission and
                                      review functions.
                                     Administrative functions
FATS (PC-based)....................  Tracks travel advances and petty cash     Developed by SAA Technology Services....  Disbursing Office.......................  Spring 1983
                                      advances (available to Committees only).
                                     Tracks election cycle information
                                     We are in the process of integrating
                                      FATS functionality into Web FMIS. The
                                      December 2006 Web FMIS release
                                      integrated the travel advance and petty
                                      cash advance functionality of FATS.
Post Payment Voucher Audit (PC-      Selects a random sample of vouchers for   Excel spreadsheet developed.............  Senate Committee on Rules and             Spring 2003
 based).                              the Senate Committee on Rules and                                                   Administration And Disbursing Office.
                                      Administration to use in conducting a
                                      post payment audit. Sanctioning of
                                      these documents was delegated to the
                                      Financial Clerk.
SAVI (Intranet)....................  As currently implemented, provides self-  Off the shelf system purchased..........  Senate employees........................  Pilot--Spring 2002
                                      service access (via the Senate's                                                                                             Senate-wide--July 2002
                                      intranet) to payment information for
                                      employees receiving reimbursements.
                                     Administrative functions
Online ESR (Intranet)..............  A component of SAVI through which Senate  Custom software developed by contractor.  Senate employees........................  April 2003
                                      employees can create online Travel/Non-
                                      Travel Expense Summary Reports and
                                      submit them electronically to their
                                      Administrative Manager/Chief Clerk for
                                      processing.
Secretary's Report (Mainframe        Produces the Report of the Secretary of   Custom software developed by contractor.  Disbursing Office.......................  Spring 1999
 extracts, crystal reports, and       the Senate.
 client-server ``tool box'').
Ledger Statements (Mainframe         Produces monthly reports from FAMIS that  Developed by SAA Technology Serv-  ices.  Disbursing Office.......................  Winter 1999
 database extracts, and crystal       are sent to all Senate ``accounting                                                Senate Accounting Locations
 reports).                            locations''.
Web FMIS Reports (mainframe          Produces a large number of reports from   Custom software developed by contractor.  Senate Accounting Locations.............  October 1999--Client Server
 database extracts, crystal           Web FMIS, FAMIS and ADPICS data at                                                                                           April 2005--Intranet
 reports, and Intranet).              summary and detailed levels. Data is
                                      updated as an overnight process and can
                                      be updated through an online process by
                                      accounting locations.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                     Testing Infrastructure Changes

    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew. During 2005 the SAA implemented two major upgrades 
to the FMIS infrastructure--upgrading the database software, DB2, from 
version 7 to version 8, and installing a new mainframe computer.
    For each upgrade, the Disbursing office tests all FMIS subsystems 
in a testing environment and verifies all FMIS subsystems in the 
production environment after the implementation. The change is 
implemented and production validation is done by the IT section.
    The DB2 upgrade required three such testing and validation periods 
during the spring and summer of 2006 for operating system changes that 
were pre-requisites of the DB2 upgrade, DB2 v8 in ``compatibility 
mode'' and DB2v8 in new features mode. The new mainframe computer 
required one validation activity. The SAA installed a new mainframe at 
the ACF and later at the Primary Computing Facility in the Postal 
Square Building (PCF).

              Managing and Testing New System Development

    During 2006, the FMIS team supervised development, performed 
extensive integration system testing, and implemented changes to FMIS 
subsystems. For each, implementation and production verification was 
done over a weekend in order to minimize system down time to users. 
Upgrades to the following systems were done during 2006: Web FMIS; SAVI 
and Online ESR; Checkwriter; and ADPICS and FAMIS (for the SAA Finance 
staff).
    The items selected for development and implementation are based on 
user requests, suggestions from the SAA technical staff, the 
contractor, and the Disbursing office IT section. The office meets 
regularly with users. During May and June the office met weekly with 
the Web FMIS users group in order to review the new page designs and 
functionality that were implemented in December 2006. Additionally, the 
office met with the ADPICS/FAMIS users group on a monthly basis.

                                Web FMIS

    Over the last three years the office has revamped Web FMIS, 
creating a ``zero-client'' application that can be accessed via an 
intranet browser, an important milestone in providing critical systems 
in a disaster situation. This began in August 2004 with the 
implementation of Web FMIS r9.0 for pilot offices. By the end of April 
2005, all Web FMIS users were using the intranet version of Web FMIS. A 
total of five upgrades to Web FMIS were implemented in 2005. During 
2006, the office implemented two releases:
  --Web FMIS r10.3.--Implemented in January 2006, updated the 
        technology for and provided more functionality on the Inbox 
        pages and the travel reimbursement mileage rate maintenance 
        page. Additional functionality was added to the Documents/
        Create page and the Budget page, and bugs were fixed.
  --Web FMIS r 11.--Implemented in December 2006, included a rewritten 
        Document Create page that eliminated pop-ups so that the system 
        is not impacted by pop-up blockers; made technical changes to 
        support future functionality such as attaching scanned invoices 
        and creating vouchers via importing data from vendors; and 
        provided more payment information. Additionally, the travel 
        advance and cash advance tracking functionality of the 
        standalone FATS system were integrated into Web FMIS. The 
        system edits performed when a travel advance document is 
        submitted electronically indicate whether the office has 
        sufficient funds for the travel advance, based on the total of 
        all outstanding advances allowed for that office and whether 
        the traveler can be given another advance, based on the total 
        number of outstanding advances allowed for that individual. The 
        system supports the underlying rules associated with travel 
        advances that were issued by the Senate Committee on Rules and 
        Administration in December 2006.
    During 2006, the office continued to work with the contractor to 
define the requirements for additional functionality required for the 
Web FMIS releases planned for 2007:
  --Web FMIS r12.--Planned for Summer 2007, will add the ability to 
        ``import'' invoice data from an outside vendor in order to 
        create a voucher with minimal retyping. (This process is 
        similar to the ``import'' process by which data from an online 
        ESR, created via SAVI, is used to create a travel voucher).
  --Web FMIS r13.--Planned for Winter 2007, will be a pilot of 
        paperless voucher processing, which requires adding electronic 
        signature and documentation imaging functionality.
    Senate Automated Vendor Inquiry and Online ESR.--SAVI enables 
Senate staff to check the status of reimbursements, whether via check 
or direct deposit referencing an online ESR. The Online ESR function 
enables Senate staff to create expense summary reports, both travel and 
non-travel. These documents can be imported into Web FMIS, reducing the 
data entry tasks for voucher preparation. The SAVI system was upgraded 
once in 2006. Release 4.0, implemented in December 2006, reduced the 
number of pages of an average Travel ESR from 3 to 2. The reformatted 
Travel ESR collapses any sections in which there are no expenses and 
has a condensed signature block.
    Checkwriter.--The Disbursing office makes payments via direct 
deposit and check using the Checkwriter software. Release 6.0, 
implemented in December 2006, contains a rewritten security component.
    ADPICS and FAMIS.--The Sergeant at Arms finance staff are the 
primary users of ADPICS. ADPICS is a mainframe system that provides 
integrated procurement, receiving and voucher preparation functions 
that are not included in Web FMIS. The SAA finance staff requested a 
number of changes that would support more efficient use of ADPICS. 
These changes were implemented in the following two releases during 
2006:
  --March 2006.--Changes were made to twenty-five ADPICS and FAMIS 
        screens. The most important of these affected the master vendor 
        table and enables storing the vendor's DUNS and TINS numbers at 
        the vendor suffix level. This allows the Disbursing Office to 
        continue to use the same vendor number when a company changes 
        names. This helps the SAA finance staff query data by vendor 
        number. Other changes ranged from adding fields on specific 
        screens, modifying the titles of function keys that provide 
        direct links to other screens so that they show the screen 
        number instead of a short screen name, modification of query 
        results, modification of calculations, and providing the 
        ability to link directly from FAMIS to ADPICS; and
  --October 2006.--Changes were made to twelve ADPICS screens. Many of 
        these changes facilitated ``round-trip'' linking from one 
        screen to another and then back to the original. Others enabled 
        seeing more records on a list by specifying a starting point or 
        expanding the number of pages displayed.
Planning
    The Disbursing Office IT group performs two main planning 
activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
Schedule Coordination
    In 2006, this group continued to hold two types of meetings among 
the Disbursing office, SAA and the contractor to coordinate schedules 
and activities. These are:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings); and
  --Technical meeting--a weekly meeting among the Disbursing Office 
        staff (IT and functional), SAA Technical Services staff, and 
        the contractor to discuss the active projects, including 
        scheduling activities and resolving issues.
Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives formed the base for the Secretary of the 
Senate's request in 2002 for $5 million in multi-year funds for further 
work on the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location should an emergency 
        occur;
  --Web FMIS.--Respond to requests from the Senate's Accounting 
        Locations for additional functionality in Web FMIS;
  --Payroll System.--Respond to requests from the Senate's Accounting 
        Locations for online real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 and includes developing the task 
orders with contractors overseeing their work and reviewing invoices. 
In 2006, three new task orders were executed: Web FMIS FATS 
enhancement; Imaging and signature design and electronic invoicing 
enhancement continuation; and Service year 2007 extended operational 
support.
    In addition, work continued under two task orders executed in prior 
years: Web FMIS r10; SAA finance system and reporting enhancements; and 
Service year 2006 extended operational support (which covers activities 
from September 2005 to August 2006).
Administering the Disbursing Office's Local Area Network (LAN)
    The Disbursing office administers its own Local Area Network (LAN), 
which is separate from the LAN for the rest of the Secretary's Office. 
Our LAN Administrator's activities included: Office-wide LAN 
Maintenance and Upgrade; and Projects for the Payroll and Benefits 
Section.
            Office-wide LAN maintenance and upgrade
    The Disbursing Office maintained the existing workstations with 
appropriate upgrades including: Installing new PCs for the staff; 
Installing new servers for the Disbursing office LAN; and Implementing 
the Web-based version of FedLine, the software through which direct 
deposit payments are sent to the Federal Reserve.
            Projects for Payroll and Employee Benefits Sections
    The Disbursing Office continued to support the Payroll/Benefits 
Imaging system, developed by SAA staff, which captures and indexes 
payroll documents turned in at the front counter electronically. This 
is a critical system for Payroll and Employee Benefits sections.
Coordinating the Disbursing Office(s Disaster Recovery Activities
    In the fall, the Sergeant at Arms technical staff conducted a 
disaster recovery test of the Senate's computing facilities, including 
FMIS functions. The test involved switching the Senate's network from 
accessing systems at the PCF to the ACF and powering down the PCF. The 
SAA's primary purpose was to test the technical process of switching to 
the ACF, although due to work constraints, only a limited amount of 
time was available for functional testing. In essence, FMIS systems and 
data would be ``failed-over'' to the ACF, made available for testing 
for the functional testing window, and then the systems would be 
``failed back'' to the PCF, but that the data would not be ``failed 
back''. Thus, any changes made while testing at the ACF would not be 
reflected in production data.
    The Disbursing Office staff set minimal goals of accessing all 
critical FMIS subsystems. While the Disbursing Office IT staff 
coordinated activities, the actual testing was done by Disbursing 
Office functional and technical staff, the contractor, and SAA 
technical staff. Disbursing IT staff and the contractor tested ADPICS/
FAMIS, Web FMIS, SAVI, and Checkwriter. Disbursing payroll staff and 
SAA technical staff tested the payroll system.
    Within the limited scope of the test, the Disbursing Office 
successfully tested all the critical components of FMIS, with the 
exception of (a) printing requisition, purchase order and voucher 
documents from ADPICS for SAA finance (b) critical batch processes 
which were not tested (e.g. taking a a single document from data entry 
in Web FMIS through payment in FAMIS). The Disbursing Office has 
requested that the SAA conduct disaster recovery tests twice a year and 
that additional system components be available to test at each 
successive test.
Disbursing Office COOP Activities
    The Disbursing Office has had a Continuation of Operations Plan 
(COOP) since 2001. This document addresses issues beyond the scope of 
disaster recovery. Normal maintenance is performed on this document to 
ensure that it remains up-to-date and viable. In addition to the 
success of disaster recovery testing in December, Disbursing has also 
completed the setup and pre-positioning of essential equipment and 
supplies.
                         administrative offices
                    1. conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This includes: deacidification of 
paper and prints, phased conservation for books and documents, 
collection surveys, exhibits, and matting and framing for the Senate 
leadership.
    Over the past year, the Office of Conservation and Preservation has 
embossed 335 books and matted and framed 551 items for Senate 
leadership, as well as matting and framing six items for the 55th 
Inaugural ceremonies. For more than 25 years, the office has bound a 
copy of Washington's Farewell Address for the annual ceremony. Last 
year, the office rebound in leather and added 96 new pages to the 
Farewell Address sign-in book for Senators who read the address and 
fabricated a new box to house the book. In 2006, a volume was bound and 
read by Senator Ken Salazar.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needed conservation or repair. In 2006 conservation 
treatments were completed for 99 volumes of a 7,000 volume collection 
of House Hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,750 volumes.
    The office assisted the Senate Library with 608 books sent to the 
Library Binding section of the Government Printing Office (GPO) for 
binding. Additionally, the Office of Conservation and Preservation 
worked with the Senate Library to create four exhibits located in the 
Senate Russell building basement corridor. This office also completed 
the restoration of 55 volumes of House hearings for the Senate Library 
that had water and mold damage. These books were rebound with new end 
sheets and new covers using the old spines when possible.
    The Office of Conservation and Preservation continues to assist 
Senate offices with conservation and preservation of documents, books, 
and various other items. For example, the office continues to monitor 
the temperature and humidity in the Senate Library storage areas, the 
vault and warehouse for preservation and conservation purposes.
                               2. curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The office collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the office educates the public about the Senate and its 
collections.
Collections: Commissions, Acquisitions, and Management
    A painting of Senator Bob Dole for the Senate Leadership Portrait 
Collection was officially unveiled in the Old Senate Chamber on July 
25, 2006 and a mural depicting the authors of the Connecticut 
Compromise was unveiled on September 12, 2006 in the Senate Reception 
Room. Other important commissioned works in progress include leadership 
portraits of Senators Robert C. Byrd, Tom Daschle, and Trent Lott; all 
three are scheduled to be completed in 2008.
    Three hundred sixty-two objects were accessioned into the Senate 
Collection, including: 126 Senate Chamber Gallery passes, dating from 
1890 to the present; tickets for various joint sessions of Congress 
held in 2006; ephemera related to nominations, new Congresses, laying 
in state ceremonies, and portrait unveilings; china used in the Senate 
Restaurant in the 1920s and 1930s; and historic prints and photographs 
of the Capitol and its interior, including a circa 1890 stereoview of 
the Senate Chamber, a rare 1827 wood engraving of the west front of the 
Capitol, and an 1872 cartoon by Thomas Nast.
    The Senate Commission on Art approved the acquisition of a 
monumental, Civil War-era painting (recently discovered in New York 
State) of Henry Clay in the U.S. Senate. This painting is a rare 
depiction of the historic Old Senate Chamber. Additionally, it serves 
as a group portrait memorializing Senator Clay and twelve of his 19th 
century Senate colleagues. The painting will require extensive 
conservation.
    As part of an ongoing effort to locate and recover historic objects 
associated with the Senate, a historic Russell Building partner desk, 
built by George Cobb, was located. It was recently returned to the 
Senate from the Lyndon Baines Johnson Library and Museum.
    Forty-four new foreign gifts were reported to the Select Committee 
on Ethics and transferred to the Curator's Office. They were catalogued 
and are maintained by the office in accordance with the Foreign Gifts 
and Decorations Act. Appropriate disposition of 27 foreign gifts was 
completed following established procedures.
    Preparations continued for new curatorial storage spaces in the CVC 
and the SSF. The office worked with the SAA staff to select a vendor to 
provide specialized preservation storage equipment for the two Curator 
storage rooms in the CVC. Installation of the equipment is planned for 
late 2007. Preparations are nearing completion for the storage room in 
the SSF, with specialized climate control and security. Objects will be 
moved into the space in the spring of 2007.
    Along with the expansion of curatorial storage spaces, improved 
monitoring plans were developed to track the environmental conditions 
in these spaces. Consistency in temperature and relative humidity will 
be monitored through a single electronic system that collects data from 
all collection storage areas, as well as some of the historic spaces in 
the Capitol where collections are on display. After careful review by a 
committee representing the Curator's Office, Senate Security, 
Secretary's Information Systems, and Senate IT, a system was selected 
earlier this year and installation should take place this spring. 
Temporary monitors were installed in the new SSF Curator room and have 
greatly aided in evaluating and adjusting the environmental systems.
    Monitoring for biological agents harmful to collections was 
addressed through the development of an Integrated Pest Management Plan 
(IPM). The office has initiated IPM monitoring in its current 
collection storage spaces.
    The Curator's office completed its project to photograph the 102 
historic Senate Chamber desks (which includes the 100 on the Senate 
floor and 2 desks currently in storage). One set of transparencies will 
be stored off-site for emergency purposes, while a second working set 
will be used for the web, image requests, and future publications. The 
project was completed ahead of schedule.
    The Curator's staff began a comprehensive and detailed survey of 
the Senate Chamber chairs. Twenty-seven chairs (seat and chair frames) 
were examined during Senate recesses to determine past occupants and to 
identify changes in Senate Cabinet Shop construction over the years. It 
is hoped that this study will enable the identification and 
preservation of important chairs that still remain in the Senate, and 
also educate Curator's staff so that timely and informed decisions can 
be made on chairs that might come up for sale or donation.
    In keeping with established procedures, all Senate Collection 
objects on display were inventoried, noting any changes in location. In 
addition, as directed by S. Res. 178 (108th Congress, 1st sess.), the 
office submitted inventories of the art and historic furnishings in the 
Senate to the Senate Committee on Rules and Administration. The 
inventories, submitted every six months, are compiled by the Curator's 
office with assistance from the SAA and the AOC Senate Superintendent.
Conservation and Restoration
    A total of 12 objects received conservation treatment in 2006, 
including 9 paintings and 3 decorative art objects.
    Several conservation projects were carried out to prepare both fine 
and decorative art objects for loan. In February 2006, a fine art 
services company was contracted to remove a monumental painting, The 
Battle of Chapultepec, by James Walker, from display at the former 
Marine Corps Historical Museum in Washington, D.C., where it had been 
on loan since 1982. The company disassembled the frame and constructed 
four crates to transport the painting and frame to the Thomas Gilcrease 
Institute of American History and Art in Tulsa, Oklahoma, where it is 
now on loan. The Gilcrease Museum provides an excellent venue for 
continued public display of the painting within the context of the 
history of the southwest region of the country.
    Two large paintings displayed in the Senate wing received 
conservation treatment in situ during the August 2006 recess: The First 
Reading of the Emancipation Proclamation by President Lincoln by 
Francis Bicknell Carpenter, and Daniel Webster by James Henry Wright. 
The AOC assisted with both projects by providing scaffolding in the 
stairwells for access to the paintings by the conservators.
    Also during the August recess, conservators installed the oil on 
canvas painting depicting the authors of the Connecticut Compromise by 
Bradley Stevens on the upper west wall of the Senate Reception Room.
    The office contracted a report for a condition assessment and 
treatment options for the Senate's historic 19th century Cornelius & 
Baker armorial chandelier, and worked with staff at the Smithsonian 
Institution to study its finishes. Also, staff conducted research into 
the electrification of gasoliers in the Capitol; all in an effort to 
provide an informed use and treatment recommendation for the chandelier 
to the Commission on Art.
    The Curator's staff participated in training sessions for the USCP 
regarding the care and protection of art in the Capitol, and continued 
to educate the housekeeping personnel on maintenance issues related to 
the fine and decorative art collections.
Historic Preservation
    The Curator's office worked with the AOC and the SAA to review, 
comment, plan, and document Senate-side construction projects that 
involve or affect historic resources. Construction and conservation 
efforts that required considerable review and assistance included: the 
Brumidi Corridor mural conservation; egress modifications; skylight 
repair of Senate grand stairwells; S-127 mural conservation; wireless 
antenna installation; Senate Chamber bench refinishing and re-
upholstering. The office continued to refine communication procedures 
with those organizations that undertake building projects, as well as 
the Senate community. As a result of this effort, schedule coordination 
between the trade shops, the Curator, and the occupants has improved, 
and the art and architectural objects in project areas are better 
protected. In addition, the office worked to increase services by 
facilitating projects for Capitol offices.
    One of the most ambitious preservation undertakings by the office 
is the restoration and rehabilitation of the Senate Reception Room. 
Anticipated to be a joint venture with the AOC, the project will 
highlight the significant elements of the room through restoration and 
interpretation. An advisory board was impaneled by the Commission on 
Art to provide counsel with this prominent project and the advisory 
board held its first meeting.
    The Curator's office continued to provide research services 
regarding architectural history, and to disseminate important 
discoveries for the benefit of the Senate. During the past year, the 
office increased knowledge and holdings pertaining to room histories, 
architectural features, and historic images. Research projects 
included: international Minton tile repair and replacement; original 
doors in the Brumidi Corridors; and compiling searchable annual reports 
from the Secretary of the Senate, the SAA, and the AOC. Another new 
initiative, with the assistance of the SAA Photographic Studio, was to 
visually document the leadership suites and committee rooms in the 
Capitol during the 109th Congress.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the USCP, the Old Senate Chamber was 
closed to visitors after September 11, 2001. However, during eight 
Senate recesses the historic room is open to Capitol Guide and staff-
led tours. Twenty-four requests were received from current Members of 
Congress for after-hours access to the Old Senate Chamber. Twenty-one 
requests were received by current Members of Congress for admittance to 
the Old Supreme Court Chamber after-hours.
    In order to enhance existing documentation and to provide an 
important resource for future planning, the office continued to work 
closely with the AOC and a contractor to oversee the creation of 
accurate, existing condition drawings of the Old Senate Chamber and the 
Old Supreme Court Chamber that meet the Historic American Building 
Survey standard. No such detailed drawings exist for these historic 
chambers, or any space within the Capitol, yet this is important 
historical and archival documentation. Currently, the Old Senate 
Chamber drawings are undergoing final edits and the Old Supreme Court 
Chamber is being measured.
Loans To and From the Collection
    A total of 58 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership and officials in 
the Capitol. The staff added loans of one object, returned two 
paintings at the expiration of their loan periods to their respective 
owners, and renewed loan agreements for 32 other objects.
    The Secretary's china was distributed and returned four times in 
2006. It was used for events such as a dinner for the retiring Senators 
of the 109th Congress, and a luncheon and dinner for new Senators. The 
official Senate china was inventoried and used at 24 receptions for 
distinguished guests.
Publications and Exhibitions
    The Curator's office published the United States Senate Catalogue 
of Graphic Art. This 500-page book features the Senate's collection of 
more than 900 historic engravings and lithographs and includes 2 full-
length essays and almost 40 short essays discussing selected prints. 
The volume is the first comprehensive publication of the Senate's 
historic print collection, which represents a 30-year effort to 
document graphically the 19th and early 20th century history of the 
Senate, the Capitol, and American political history. The diverse 
illustrations range for inauguration ceremonies and impeachment trials 
to senatorial portraits and political cartoons. Represented in the 
Senate's graphic art collection are some of the most notable artists 
who worked in the printmaking medium: Augustus Kollner, Rembrandt Peal, 
Alexander Hay Ritchie, Thomas Nast, and Joseph Keppler. The Senate 
Curator and Associate Senate Historian co-authored the publication, a 
companion volume to the United States Senate Catalogue of Fine Art, 
published in 2003. The Curator's staff worked closely with the 
Government Printing Office (GPO) on the design and printing of the 
publication.
    The office completed and posted three major interactive exhibits on 
the Senate Web site: Isaac Bassett: A Senate Memoir; The Senate Chamber 
Desks; and Take the Puck Challenge! All three exhibits were developed 
in conjunction with the Secretary's Webmaster and a contractor. Isaac 
Bassett features selections from the historic Isaac Bassett manuscript 
collection, and is illustrated by images from the Senate's collection 
of art and historical objects. It uses Bassett's own words to 
illustrate life in the 19th century Senate as only the doorkeeper could 
have described it. His unique position as a trusted, long-time employee 
of the Senate and close confidant of many Senators make the stories he 
included in his memoir both engaging and enlightening. The Web site 
features actual images of Bassett's handwritten notes and an 
interactive time line.
    The Senate Chamber Desks Web site chronicles the history of these 
historic furnishings. Viewers are able to see where their Senators sit, 
learn specific information about each desk (including biographical 
information on Senators who occupied each desk, and conservation and 
restoration records), and read stories related to the history of the 
desks.
    Take the Puck Challenge! features quizzes, games, and puzzles to 
introduce viewers to the political cartoons of the 19th century 
satirical magazine Puck. It is part of a larger Web site that features 
all of the Senate's Puck cartoons.
    Another interactive Web exhibit, Advise and Consent: The Drawings 
of Lily Spandorf, recently went live. Advise and Consent explores the 
work of Lily Spandorf, an artist sent to sketch the filming of the Otto 
Preminger movie of the same name, filmed in and around the Capitol in 
1962. Ms. Spandorf's sketches are now owned by the Senate.
    As part of an ongoing program to provide more information about the 
Capitol and its spaces, the office developed a brochure for S-238, the 
Strom Thurmond Room, and posted several brochures on the Senate Web 
site, including: The U.S. Senate Leadership Portrait Collection; The 
U.S. Senate Foreign Relations Committee; and The Vice Presidential Bust 
Collection. The office also added to the Senate Web site's fine art 
pages by publishing the biographical and subject information from the 
United States Senate Catalogue of Fine Art for 160 works of art.
    In May 2006, at the request of the Senate Committee on Rules and 
Administration, six historic photographs of the Capitol were enlarged, 
framed, and installed in the basement of the Senate Russell Building in 
order to enhance the space. The Office of Senate Curator also continued 
to be a significant contributor to Unum, the Secretary of the Senate's 
newsletter.
    The office continued to develop an oral history program related to 
the Senate's art and historical collections. Several artists were 
interviewed related to their work on recently commissioned portraits. 
It is anticipated that a Web site on the first phase of this 
educational project will be posted this year.
Policies and Procedures
    The Senate Curatorial Advisory Board met in February, 2006. The 
board reviewed the Battle of Chapultepec loan; the Connecticut 
Compromise mural; the Senator Bob Dole portrait; the Cornelius and 
Baker historic chandelier; as well as new acquisitions. The historic 
structures report for the Senate east vestibule, adjacent stairwell, 
and Small Senate Rotunda was presented, and the restoration of these 
historic spaces was discussed. The board continued to provide 
invaluable assistance to the Senate on curatorial and preservation 
matters throughout the year. Composed of respected scholars and 
curators, this 12-member board was established to provide expert advice 
to the Commission on Art regarding the Senate's art and historic 
collections and preservation program, and to assist in the acquisition 
and review of new objects for the collection.
    In 2006 the Senate passed legislation (S. Res. 629) establishing a 
procedure for affixing and removing permanent and semi-permanent 
artwork in the Senate wing of the Capitol and in the Senate Office 
Buildings. The new regulations require the Commission on Art to review 
any such proposals to add such permanent or semi-permanent art, and the 
Senate to give its formal approval before any such proposals may be 
adopted.
    Building on the historic mirror survey completed in 2005, the 
office developed a management policy and procedures for the collection, 
as well as care and maintenance plans. This program will ensure that 
the Senate's impressive collection of nearly 100 ornate mirrors in the 
Capitol receives the treatment necessary to preserve them for future 
generations.
Collaborations, Educational Programs, and Events
    The much anticipated nine-hour documentary on the Capitol and 
Congress developed by C-SPAN aired in July. Providing a detailed 
history of the building and institution, the Curator's office and the 
Historical Office worked closely with C-SPAN over a two-year period on 
various aspects of the historical content, filming, and interviews.
    The office continued to assist CVC staff on several initiatives for 
the new Visitor Center. These include the interactive programs for the 
exhibition area and the development of a plan for artwork in the CVC.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical groups and art museums.
Office Administration
    The SSF was completed in late 2005. The office worked for several 
years with the SAA staff to develop plans for space within the 
warehouse. While the museum-quality space will be finalized this 
spring, other storage space assigned to the Curator was occupied in 
January, 2006. The office transferred several historic furnishings and 
other Senate-related objects, exhibit and art shipping materials, and 
publications to the completed storage area. As part of that task, 
material was re-inventoried, and new tracking numbers were assigned.
    With the assistance of the Office of Education and Training, the 
staff continued work on developing a three-year strategic plan for the 
Office of Senate Curator. This will be an important document for the 
office as it moves forward with its many conservation, preservation, 
and education initiatives.
Automation
    The office continued to work on developing an organization plan and 
procedures for all types of files and media collected and maintained by 
the Curator's office. Paper and electronic files have increased 
substantially in the last ten years and maintaining systematic 
organization of these various documents is imperative. The results will 
greatly improve response time to information requests, search 
capabilities for researchers, and the safety of significant reference 
materials.
Objectives for 2007
    Preparations to move Senate collections into the new curatorial 
storage spaces will be a major initiative in 2007. Once outstanding 
issues related to control of the environment are addressed at the SSF, 
the office will move more than 75 historic objects, including 
furniture, rugs, paintings, and a chandelier, to the museum-quality 
space. In association with the AOC and SAA, the office will also 
develop a Disaster Recovery Plan for this storage space, to mitigate 
the potential affect of disasters upon collection objects.
    The office will oversee installation of collection storage 
equipment for the two storage spaces in the CVC in the fall of 2007. 
Museum-quality storage equipment has been ordered to house collection 
objects in these new spaces, in accordance with a recently completed 
Collection Storage Plan. Objects in need of archival re-housing will be 
identified and prioritized as part of the preparations for a collection 
move that will take place in 2008.
    Proposals for an environmental monitoring system that will 
encompass all collection storage spaces will be assessed and reviewed 
by the Senate Curator's office with the assistance of other Senate 
offices. It is intended that environmental monitors will be purchased 
and installed in phases starting later this spring.
    Conservation and preservation continue to be a priority. Projects 
in 2007 will include conservation treatment to restore the historic 
frame and painting, Henry Clay in the U.S. Senate, by Phineas Staunton. 
Other conservation projects include: the monumental painting, The 
Battle of Lake Erie, by William Henry Powell, displayed in the east 
grand stairway of the Senate wing; the portrait of John Adams by 
Eliphalet Frazer Andrews; and the frame for the painting, Sergeants 
Jasper and Newton Rescuing American Prisoners from the British, by John 
Blake White.
    The office will continue its efforts to locate and recover 
significant historic Senate pieces. It will also embark on developing a 
plan to highlight the Russell Building furniture in preparation for the 
100th anniversary of these historic pieces in 2009.
    The microfiche of the Senate collection files will be sent off-site 
to the National Archives for contingency in case of a disaster, along 
with transparencies documenting several historic photographic albums, 
the Senate desks, and the more than 900 historic prints in the Senate 
collection.
    In 2007 the Office of Senate Curator will complete a reorganization 
of the Senate art Web site to provide easier, more intuitive access to 
the Senate's art, historical collections, and online exhibits and 
publications. This task will be undertaken in coordination with the 
Secretary's Webmaster and Senate Library staff, and will be an 
important first step in creating and organizing the Senate's Web 
content according to standardized metadata.
    Also related to the Web site, the office will work with the 
Historical office and staff of the Senate Page School to develop a Web 
exhibit for high school students on the history and art of the Senate. 
The conservation process for the newly acquired Henry Clay painting 
will be documented for use on the Senate art Web site as part of the 
office's education initiatives. Additionally, staff will update The 
Senate Chamber Desks Web site to reflect the 110th Congress, and will 
add additional historical facts about the desks.
    The office will review its public education programs with an eye 
toward leveraging office assets to greater effectiveness, and 
developing a long-range strategic plan for the program. Several 
publications will be reprinted, and the office will continue to enlarge 
its offering of brochures on historic rooms by producing one on the 
Democratic leader's suite in the Capitol.
    The Office of Senate Curator will continue to administer the 
current commissioned leadership portraits of Senators Byrd, Daschle, 
and Lott, and advance efforts to commission leadership portraits of 
Senators Frist and Stevens.
    Historic preservation activities will increase as the office takes 
a more active role in the Capitol's building projects and maintenance. 
The office will work to promote its preservation services for Senate 
offices, including providing architectural histories and facilitating 
projects. The office will also implement a preservation inspection 
program for the Senate side of the Capitol in order to ensure the 
immediate repair and continued protection of the Senate's architectural 
resources. Finally, with the AOC, adopting a preservation policy and 
appointing an historic preservation officer, the Curator's role in 
building project review will expand and become more formalized. The 
office will work with the AOC's historic preservation officer to define 
a review process and to ensure the highest preservation standards are 
applied to all Capitol projects.
    Responding to the critical conservation priorities identified for 
the Senate's historic mirror collection, the Curator's office will 
develop and contract a multi-phased conservation project. This work 
will include full conservation of at least three mirrors and on-site 
consolidation of two mirrors, and will establish procedures and 
standards for a mirror conservation program. Similarly, the office will 
embark on a comprehensive maintenance program for all Senate 
collections under the purview of the Office of Senate Curator. Such a 
program will help safeguard the objects for future generations.
    Additionally, the Senate Curatorial Advisory Board and Senate 
Reception Room Advisory Board will meet, review, and report on 
projects. The Senate Curator's COOP will be re-evaluated, tabletop 
exercises conducted, and the COOP document updated.
               3. joint office of education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington D.C. and the states. There are three branches within the 
office. The Technical Training branch is responsible for providing 
technical training support for approved software packages and equipment 
used in either Washington, D.C. or the state offices. This branch 
provides instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training; computer-based training; and 
informal training and support services. The Professional Training 
branch provides courses for all Senate staff in areas including: 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health and wellness issues. This branch also coordinates 
an annual Health Fair for all Senate employees and plans three blood 
drives every year.
Training Classes
    The Joint Office of Education and Training offered 658 classes in 
2006, drawing 6,007 participants. This office's registration desk 
handled over 32,000 e-mail and phone requests for training and 
documentation.
    Of the above total, in the Technical Training area 273 classes were 
held with a total attendance of 1,226 students. An additional 410 staff 
received coaching in 160 sessions on various software packages and 
other computer related issues. In the Professional Development area 385 
classes were held with a total attendance of 4,781 students.
    The Office of Education and Training is available to work with 
teams on issues related to team performance, communication, or conflict 
resolution. During 2006, over 55 requests for special training and team 
building were met.
    In the Health Promotion area, 2,628 staff participated in Health 
Promotion activities throughout the year. These activities included: 
lung function and kidney screenings, blood drives, the Health and 
Fitness Day and seminars on health related topics.
State Training
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2006, 
two sessions of this program were attended by 63 state staff. This 
office also conducted the State Directors Forum, which was attended by 
25 state administrative managers and directors. In addition, this 
office has implemented the ``Virtual Classroom'' which is an internet-
based training library of 3,000+ courses. To date, 392 state office and 
D.C. staff have accessed a total of 903 different lessons using this 
training option. Furthermore, the Professional Training branch offered 
22 Video Teleconferencing classes, which were attended by 323 state 
staff.
                    4. chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), Senate offices became 
subject to the requirements, responsibilities and obligations of 11 
employment laws. The SCCE is charged with the legal defense of Senate 
offices in employment law cases at both the administrative and court 
levels. Also, on a day-to-day basis, the SCCE provides legal advice to 
Senate offices about their obligations under employment laws. 
Accordingly, each of the 180 offices of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation;
  --Mediations to Resolve Lawsuits;
  --Court-Ordered Alternative Dispute Resolutions;
  --Union Drives, Negotiations, and Unfair Labor Practice Charges;
  --Occupational Safety and Health Act (OSHA)/Americans With Disability 
        Act (ADA) Compliance;
  --Layoffs and Office Closings In Compliance With the Law;
  --Management Training Regarding Legal Responsibilities; and
  --Preventive Legal Advice.
Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE defends each of the 180 employing offices of the Senate in 
all court actions, hearings, proceedings, investigations, and 
negotiations relating to labor and employment laws. The SCCE handles 
cases filed in the District of Columbia and cases filed in any of the 
50 states.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued.
    In 2006, the SCCE inspected 184 Senate offices to ensure compliance 
with the ADA and OSHA.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws, thereby reducing 
their liability.
    In 2006, the SCCE gave 71 legal seminars to Senate offices. Among 
the topics covered were:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Employment Laws You Must Know When Managing a Senate Office;
  --Avoiding Legal Landmines in Your Office;
  --Understanding Sexual Harassment in the Workplace;
  --A Manager's Guide to Preventing and Addressing Sexual Harassment in 
        the Workplace;
  --Keys to Hiring: Reference Checks, Background Checks, and Testing 
        for Illegal Drug Use;
  --Hiring the Right Employee: Advertising and Interviewing;
  --Your Office's Obligation to Give Military Leave;
  --Administering the Student Loan Repayment Program;
  --The Basic Pilot Program for Employment Eligibility Confirmation;
  --Diversity Awareness: The Legal Perspective;
  --Americans with Disabilities Act of 1990;
  --Legal Pitfalls in Evaluating, Disciplining and Terminating 
        Employees;
  --A Manager's Guide to Complying with the Family and Medical Leave 
        Act (FMLA).
    In addition, at the request of several Member offices, the SCCE 
developed and gave two new seminars: (1) How to Interview Academy 
Candidates: Appropriate and Inappropriate Questions, and (2) How to 
Interview Applicants for the Page Program: Appropriate and 
Inappropriate Questions.
Preventive Legal Advice
    The SCCE meets with Members, chiefs of staff, administrative 
directors, administrative managers, staff directors, chief clerks and 
counsels at their request to provide legal advice. The purposes are to 
ensure compliance with the law, prevent litigation and minimize 
liability in the event of litigation. For example, on a daily basis, 
the SCCE advises Senate offices on matters such as disciplining or 
terminating employees in compliance with the law, handling and 
investigating sexual harassment complaints, accommodating the disabled, 
determining wage law requirements, meeting FMLA requirements, and 
management's rights and obligations under union laws and OSHA.
Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices to ensure 
that their employee handbooks and office policies, supervisors' 
manuals, job descriptions, interviewing guidelines, and performance 
evaluation forms comply with the law.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2006, the SCCE handled one union drive and assisted in 
negotiations with another union.
                          5. senate gift shop
    The U.S. Senate Gift Shop was established under the administrative 
direction and supervision of the Secretary of the Senate in October, 
1992, (United States Code, Title 2, Chapter 4). Since its 
establishment, the Senate Gift Shop has continued to provide service 
and products that maintain the integrity of the Senate while increasing 
the public's awareness of its history. The Gift Shop serves Senators, 
their spouses, staffs, constituents, and the many visitors to the U.S. 
Capitol complex.
    The products available include a wide range of fine gift items, 
collectables, and souvenirs created exclusively for the U.S. Senate. 
The services available include special ordering of personalized 
products and hard-to-find items, custom framing including red-lines and 
shadow boxes, gold embossing on leather, etching on glass and crystal, 
engraving on a variety of materials, and shipping.
    Additionally, the Gift Shop produces and distributes educational 
materials to tourists and constituents visiting the Capitol and Senate 
Office Buildings.
Facilities
    In addition to the three physical locations, the Gift Shop has 
developed an online presence on Webster. The site currently offers a 
limited selection of products that can be purchased by phone, e-mail, 
or by printing and faxing the order form provided online. Long-term 
plans are to further develop the Web site to include a greater 
selection of merchandise, eventually adding an e-commerce component to 
facilitate online transactions. Along with offering over-the-counter, 
walk-in sales and limited intranet services, the Gift Shop 
Administrative Office provides mail order service via the phone or fax, 
and special order and catalogue sales.
    The Gift Shop also maintains two warehouse facilities. While the 
bulk of the Gift Shop's stock is held in the SSF, a portion of the Gift 
Shop's overstock is maintained in the Hart Building. This space also 
accommodates the Gift Shop's receiving, shipping and engraving 
sections.
    Operational procedures for the SSF include having most, if not all, 
Gift Shop product delivered, received, and stored at this location 
until the need for transfer to the Hart, Dirksen, and/or Capitol 
Building locations. Although the overall management of the SSF is 
through the SAA, the Director of the Gift Shop has responsibility for 
the operation and oversight of the interior spaces assigned for Gift 
Shop use. Storing inventory in this centralized, climate-controlled 
facility provides protection for the Gift Shop's valuable inventory in 
terms of physical security as well as improved shelf life for 
perishable and non-perishable items alike.
Sales Activity
    Sales recorded for fiscal year 2006 were $1,619,739.94. Cost of 
goods sold during this same period were $1,101,734.48, accounting for a 
gross sales profit of $518,005.46.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2006, the balance in the revolving fund was 
$2,105,118.02. The inventory purchased for resale was valued at 
$2,551,847.08.
Accomplishments in Fiscal Year 2006
            Official Congressional Holiday Ornaments
    The year 2006 marked the beginning of the Gift Shop's fourth 
consecutive four-year ornament series. Each ornament in the 2006-2009 
series of unique collectables will be an image celebrating the day-to-
day activities taking place on the Capitol grounds. The four images are 
based on original oil paintings commissioned by the Gift Shop.
    Sales of the 2006 holiday ornament exceeded 30,000 ornaments, of 
which more than 7,000 were personalized with engravings designed, 
proofed, and etched by Gift Shop staff.
            Constantino Brumidi Product
    There were several new products developed this past year depicting 
Brumidi's art in the Capitol. These include two different sets of 
placemats, one of game birds and the other of song birds, and coasters 
depicting Brumidi floral designs. Three glass vases of different sizes 
and shapes were created. Each contain distinctly different bird images 
deeply etched into the glass, and each can be personalized. A gift set 
of gourmet candy and high quality paper cocktail napkins was created. 
The napkins feature four different images of Constantino Brumidi's 
``Birds of the Capitol'' which are located in the Capitol's Senate side 
corridors.
            Christopher Radko ornament
    The Gift Shop designed and created a new and exclusive Holiday 
Ornament with the Christopher Radko Company depicting a full three 
dimensional likeness of the Capitol building. The ornament shows the 
Capitol as it might look in early evening after a light snow has 
covered the building and its surrounding landscape features.
Projects and New Initiatives for 2007
            History of the Capitol
    The Gift Shop will purchase for resale the book History of the 
Capitol, (H. Doc. 108-240) by Glenn Brown. GPO expects to release 
History of the Capitol later this year, and the Gift Shop plans to 
purchase a large quantity to ensure availability to its customers for 
an extended period of time. The book will be sold in both Gift Shop 
locations and on the intranet Web site. The book will also be available 
via phone and mail order.
            Congressional Plates
    The Official Congressional Plates for the 108th, 109th, and 110th 
Congresses continue to be sold. The 111th plate, the final of the 
series, has been approved for production.
            Pickard China
    The Gift Shop is working with the Pickard Corporation to recreate a 
round porcelain box originally developed by Tiffany and Company more 
than twelve years ago and subsequently discontinued by Tiffany. The 
round box contains a series of four images on its perimeter depicting 
the early meeting places of Congress. The lid depicts a more recent 
image of the Capitol similar to how it appears today. With Tiffany's 
permission, the original designs and colors will be replicated on a 
white porcelain box.
            Intranet/Webster
    The Gift Shop anticipates a very exciting yet busy and challenging 
year for the Gift Shop as it continues to develops its presence on 
Webster. Primary considerations include Web site policy, design, and 
layout, content and additional products to be featured. It is the Gift 
Shop's intention to eventually incorporate links to the offices of the 
Historical Office, Curator, and Senate Library so that visitors to the 
Web site will have ready access to additional educational information.
                          6. historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,895 former and current 
Senators. It edits for publication historically significant transcripts 
and minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with key Senate staff. The photo 
historian maintains a collection of approximately 40,000 still pictures 
that includes photographs and illustrations of Senate committees and 
most former Senators. The office develops and maintains all historical 
material on the Senate Web site.
Editorial Projects
            200 Notable Days: Senate Stories, 1787-2002
    GPO issued 200 Notable Days: Senate Stories, 1787-2002 in October 
2006. This 225-page clothbound volume presents 200 brief stories, which 
provide a colorful and textured outline of the Senate's historical 
development through more than two centuries. Historian David McCullough 
pronounced the work to be ``deftly and engagingly done'' and noted that 
as the author clearly enjoyed himself ``in this wonderful chronicle, so 
consequently does the reader.''
            The New Members' Guide to Traditions of the United States 
                    Senate
    In support of the November 2006 new members' orientation program, 
the Historical Office prepared a 32-page booklet designed to serve as a 
guide to the Senate's distinguishing customs and rituals. Following a 
``cradle-to-grave'' theme, the document begins with ``orientation 
programs'' and ``oath taking,'' and concludes with ``end-of-session 
valedictories'' and ``funerals and memorial services.'' Among the 29 
topics included are ``Maiden Speeches,'' ``Seersucker Thursday,'' ``the 
Candy Desk,'' ``the Golden Gavel Award,'' and ``Washington's Farewell 
Address.'' Copies are available through the Senate Office of Printing 
and Document Services.
            Administrative History of the Senate
    Throughout 2006, the assistant historian continued the research and 
writing for this historical account of the Senate's administrative 
evolution. This study traces the development of the Offices of the 
Secretary of the Senate and Sergeant at Arms, considers 19th and 20th 
century reform efforts that resulted in the reorganization and 
professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified. Specifically, 
during the past year the assistant historian completed drafts of the 
first (1789-1814) and third (1836-1861) chapters, as well as portions 
of chapters two (1814-1836) and four (1861-1877).
            ``The Idea of the Senate''
    For more than two centuries, Senators, journalists, scholars, and 
other first-hand observers have attempted to describe the uniqueness of 
the Senate, emphasizing the body's fundamental strengths, as well as 
areas for possible reform. From James Madison in 1787 to Lyndon Johnson 
biographer Robert Caro in 2002, sharp-eyed analysts have left memorable 
accounts that can help modern Senators better understand the Senate in 
its historical context. Pulitzer Prize-winning journalist Allen Drury's 
1943 comment about the Senate of his day--``There is a vast area of 
casual ignorance concerning this lively and appealing body''--retains a 
ring of truth for modern times. The ``Idea of the Senate'' project, 
completed during this year, identifies 30 major statements by 
knowledgeable observers. Each of the brief chapters includes an 
extended quotation and an essay that places the quotation in historical 
context. This work will be published during 2007.
            Rules of the United States Senate, Since 1789
    In 1980, Senate Parliamentarian Emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, our goal is to show 
how--and why--the Senate's current rules have evolved from earlier 
versions. This work, to be completed during 2007, will contain eight 
narrative chapters outlining key debates and reasons for significant 
changes. Appendices will include the original text of all standing 
rules and all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-2007
    Since 1989, the assistant historian has added many new biographical 
sketches, expanded bibliography entries, and revised and updated most 
of the online database's nearly 2,000 Senate and vice-presidential 
entries. An updated print edition, covering the years 1774-2005, was 
published early in 2006. The assistant historian continues to oversee 
all editing and updating of existing information for the online version 
of the Biographical Directory (http://bioguide.congress.gov) to allow 
for expanded search capabilities, maintain accuracy, and incorporate 
new information and scholarship.
Oral History Program
    The Historical Office conducts a series of oral history interviews, 
which provide personal recollections of various Senate careers. This 
year, roundtable interviews were conducted with veteran Capitol 
telephone operators, Joan Sartori, Ellen Kramer, Martha Fletcher, and 
Barbara Loughery. Interviews were also completed with John D. Lane, who 
served in the early 1950s as administrative assistant to Senator Brien 
McMahon (D-CT). Several other interviews with Senate staff are in 
progress. The complete transcripts of 22 interviews have also been 
posted on the Senate's Web site.
Member Services
            Members' Records Management and Disposition Assistance
    The Senate archivist assisted Members' offices with planning for 
the preservation of their permanently valuable records, emphasizing the 
importance of managing electronic records and transferring valuable 
records to a home-state repository. In addition, the office provided 
special assistance to offices closing at the end of the 109th Congress. 
This included identifying appropriate repositories for those members 
who had not already selected one, working with staff to ensure 
appropriate selection and preservation of historical documentation 
including electronic records, and advising members on access 
restrictions.
    The archivist revised and published the Records Management Handbook 
for United States Senators and Their Archival Repositories and the 
Checklist for Closing a Senator's Office. The archivist continued to 
work with staff from all repositories receiving senatorial collections 
to ensure adequacy of documentation and the transfer of appropriate 
records with adequate finding aids. The archivist provided briefing 
materials to transition offices and met with staff. The archivist 
conducted a seminar on records management for Senate offices and 
participated in the Senate Services Fair sponsored by the Office of 
Education and Training. The archivist organized a day-long meeting in 
conjunction with the Society of American Archivists' annual meeting for 
Congressional Papers Roundtable members that covered selection, 
arrangement, and description of congressional papers; new web-based 
sources for political historical research; and contemporary Senate 
electronic record-keeping systems and related preservation issues.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each committee with staff briefings, 
record surveys, guidance on preservation of information in electronic 
systems, and instructions for the transfer of permanently valuable 
records to the National Archives' Center for Legislative Archives. The 
office oversaw the transfer to the Archives of 350 accessions of Senate 
records. The archivist revised and published the U.S. Senate Records: 
Guidelines for Committee Staff. The archivist and assistant archivist 
responded to approximately 400 requests for loans of records back to 
committees. The archival assistant continued to provide processing aid 
to committees and administrative offices in need of basic help with 
noncurrent files. The archival assistant produced committee archiving 
reports in Access database format covering records' transfers for the 
past Congress. The archivist will use these reports in 2007 to provide 
committees with suggestions to promote timely transfers.
Photographic Collections
    The photo historian supported publication of 200 Notable Days: 
Senate Stories, 1787-2002 by obtaining uniquely engaging illustrations 
from her collections and from photo archives throughout the nation. The 
office continued to provide timely photographic reference service, 
while cataloging, digitizing, rehousing, and expanding the office's 
40,000-item image collection. The photo historian also maintained the 
Office's COOP and vital electronic records. As a contribution to the 
office's educational outreach efforts, the photo historian added to the 
online photographic exhibits for the Senate Web site a feature entitled 
The Senate Through the Ages.
Educational Outreach
            ``Senate Historical Minutes''
    The Senate historian continued a 10-year series of ``Senate 
Historical Minutes,'' begun in 1997 at the request of the Senate 
Democratic Leader. In 2006, the historian prepared and delivered a 
``Senate Historical Minute'' at 17 Senate Democratic Conference weekly 
meetings. These 400-word Minutes were designed to enlighten members 
about significant events and personalities associated with the Senate's 
institutional development. More than 200 Minutes are available as a 
feature on the Senate Web site. An illustrated compilation was recently 
published as 200 Notable Days: Senate Stories, 1787-2002.
            Public Inquiries
    Much of the Historical Office's correspondence with the general 
public takes place through the Senate's Web site, which has become an 
indispensable source for information about the institution. Historical 
Office staff maintain and frequently update the Web site with timely 
reference and historical information. In 2006, the office responded to 
an estimated 1,500 inquiries from the general public, the press, 
students, family genealogists, congressional staffers, and academics, 
through the public e-mail address provided on the Senate Web site. The 
diverse nature of their questions reflects varying levels of interest 
in Senate operations, institutional history, and former members. In 
coordination with the Senate Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, Senate committees, women Senators, Senate floor leadership, and 
the U.S. Constitution. Office staff also participated in seminars and 
briefings for specially scheduled groups.
            C-SPAN Documentary on the Capitol
    Over the past two years, the Historical Office, in conjunction with 
the Office of the Curator, assisted C-SPAN with source material and on-
camera interviews for its nine-hour television documentary ``The 
Capitol''. C-SPAN launched this series in late May and repeated it 
throughout the year.
            Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets twice a year to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its Senate-
related membership includes appointees of the majority and minority 
leaders; the Secretary of the Senate, who served as committee vice 
chair during the 109th Congress; and the Senate historian. The 
Historical office provided support services for the Committee's June 
and December meetings.
            Capitol Visitor Center Exhibition Content Committee
    Staff historians completed their assignments in drafting text for 
displays in the 17,000-square-foot exhibition gallery of the CVC. 
During 2006, the office continued to assist Donna Lawrence Productions 
and Cortina Productions with background material for visitor 
orientation films and interactive visual displays.
                           7. human resources
    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that not only 
fulfill the legal requirements of the workplace but which complement 
the organization's strategic goals and values.
    This includes recruiting and staffing; providing guidance and 
advice to managers and staff; training; performance management; job 
analysis; compensation planning, design, and administration; leave 
administration; records management; maintaining the employee handbooks 
and manuals; internal grievance procedures; employee relations and 
services; and organizational planning and development.
    The Human Resources office administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, parking allocations, and the Summer 
Intern Program that offers college students the opportunity to gain 
valuable skills and experience in a variety of Senate support offices.
Recruitment and Retention of Staff
    Human Resources has the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates and 
assisting with all phases of the hiring process. Human Resources is now 
coordinating with the SAA Human Resources Department to post all SAA 
and Secretary vacancies on the Senate intranet so that the larger 
Senate community may access the posting from their own offices. 
Additionally, an ``Employment'' link on Webster will be fully activated 
in the next few months, highlighting SAA, Secretary and Employment 
Bulletin vacancies and application processes.
Outreach
    Comprehensive resource manuals for the Senate's Elder Care Fair 
have been created and are being distributed throughout the Senate and 
have been requested by specific offices, committees, and/or 
departments. It was originally intended that the Elder Care Fair would 
be beneficial to Senate staff every two years, starting with the first 
one in 2005. Since the groundwork has been laid, the fair can be held 
more frequently, and hosting the event will rotate among the human 
resource offices of the Secretary, the SAA, the AOC, and the House. The 
next fair will be held later this year.
Training
    In conjunction with the SCCE, Human Resources continues to develop 
and provide training for department heads and staff. Training topics 
include Sexual Harassment, Interviewing Skills, Conducting Background 
Checks, and Providing Feedback to Employees and Goal Setting.
Interns and Fellows
    Human Resources manages the Secretary's internship program and the 
coordination of the Heinz Fellowship program. From advertising, 
conducting needs analyses, communicating, screening, placing and 
following up with all interns, HR keeps a close connection with these 
program participants in an effort to make the internship most 
beneficial to them and the organization.
Combined Federal Campaign
    Human Resources has taken an active role in the Combined Federal 
Campaign (CFC) for the Senate community at-large. The office serves as 
co-director of the program for the Senate, participating in kick off 
meetings, identifying key workers in each office, and disseminating and 
collecting necessary information and paperwork.
                         8. information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the SAA, GPO, and 
outside vendors on technical issues and joint projects. The department 
provides computer-related support for all local area network (LAN) 
servers within the Office of the Secretary. Information Systems staff 
provide direct application support for all software installed on 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.
Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Secretary's office. 
Emphasis is placed on the creation and transfer of electronic 
legislative files to outside departments and agencies, meeting 
Disbursing Office financial responsibilities to the member offices, and 
office mandated and statutory obligations.
Staffing and Functionality
    Information Systems staff functionality was expanded by moving the 
IT structure from a local LAN support structure to an enterprise IT 
support process. Improved diagnostic practices were adopted to expand 
support across all departments. Several departments, namely Disbursing, 
Chief Counsel for Employment, Office of Public Records, Page School, 
Senate Security, Stationery and Gift Shop previously employed dedicated 
information technology (IT) staff resident within the offices. 
Information Systems personnel continue to provide multi-tiered 
escalated hardware and software support for these offices.
    For information security reasons, departments have implemented 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of interdepartmental 
networking. Information System staff actively participate in all new 
project design and implementation within the Secretary of the Senate 
operations.
Fiscal Year 2006 Summary of Improvements to the Secretary's Local Area 
        Networks
    Adopted improved network monitoring standards and implemented 
active e-mail spam controls for the Secretary of the Senate staff.
    Established an automated server to schedule and deploy software 
updates on all staff workstations during non-business hours of 
operation.
    Replaced 237 staff workstations (95 percent) and upgraded software 
applications across all departments.
    Installed Video Teleconferencing (VTC) hardware and incorporated 
VTC as an alternative COOP communications tool.
    Upgraded and replaced all handheld mobile devices (Blackberry) for 
essential staff.
    Provided network support for the Webster Hall and Alternate Chamber 
COOP Exercise.
    Finalized implementation of new point of sale and accounting system 
for the Stationery Room.
    Completed Senate Wireless network access verification testing for 
staff access in Hart, Russell, and Dirksen locations.
    Completed office staff occupancy, network access, and provided 
environmental tools at the SSF.
Active Directory and Message Infrastructure Project (ADMA)
    All SecurID and Passfaces users have remote Web portal to Senate 
Web services.
    Access to Web-based services is available from all public and 
private internet locations
    Staff members can now retrieve Web mail from any home or state 
office workstation.
    Leveraged technologies included continuation of Groove 
Collaboration Project, and integrated Voice Over IP (VoIP) solution 
during COOP events.
    Clearly, the implementation of ADMA for the Secretary involved 
numerous resources on the part of both the SAA and the Secretary's 
offices. The importance of this single project provides the ``base'' 
for all future IT related projects in the coming years.
Legislative Operation Upgrades
    Upgraded Daily Digest LIS software application.
    Installed and updated a third off-site legislative COOP laptop kit.
                     9. interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
25th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences include the following: 
NATO Parliamentary Assembly, Mexico-United States Interparliamentary 
Group, Canada-United States Interparliamentary Group, British-American 
Interparliamentary Group, United States-Russia Interparliamentary 
Group, and United States-China Interparliamentary Group.
    In May, the 46th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in South Carolina. Arrangements for 
this successful event were handled by the IPS staff.
    All foreign travel authorized by the Majority and Minority Leaders 
is arranged by the IPS staff. In addition to delegation trips, IPS 
provided assistance to individual Senators and staff traveling 
overseas. Senators and staff authorized by committees for foreign 
travel call upon this office for assistance with passports, visas, 
travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tem, IPS staff assist staff 
members of Senators and committees in completing the required reports.
    Interparliamentary Services maintains regular contact with the 
Department of State and foreign embassy officials. Official foreign 
visitors are frequently received in this office and assistance is given 
to individuals as well as to groups by the IPS staff. The staff 
continues to work closely with other offices of the Secretary of the 
Senate and the SAA in arranging programs for foreign visitors. In 
addition, IPS is frequently consulted by individual Senators' offices 
on a broad range of protocol questions. Occasional questions come from 
state officials or the general public regarding Congressional protocol.
    On behalf of the Majority and Minority Leaders, the staff arranges 
receptions in the Senate for Heads of State, Heads of Government, Heads 
of Parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign visitors under authority of Public 
Law 100-71 are maintained in the Office of Interparliamentary Services.
    Planning is underway for the 46th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group and the British American Parliamentary Group 
meetings which will be held in the United States in 2007. Advance work, 
including site inspection, will be undertaken for the Canada-U.S. 
Interparliamentary Group to be held in the United States in 2008. 
Preparations are also underway for the spring and fall sessions of the 
NATO Parliamentary Assembly.
                              10. library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; and a wide array of online systems. 
The library also authors content for three Web sites--LIS.gov, 
Senate.gov, and Webster.
Notable Achievements
    Information inquiries increased 90 percent.
    LIS training provided to 343 Senate staff.
    Acquired digital databases containing 313,730 congressional 
documents.
    Published first bibliography on Senate.gov using XML.
    Committee hearing (from 1889) cataloging project completed.
    Treaty and executive report (from 1857) cataloging project 
completed.
    Shelved 26,000 volumes at the Senate Support Facility.
    Acquired catalog and Web servers to support library system upgrade.
    Environmental control systems installed to safeguard document 
collections.
Information Services
    The foundations of Senate Library services are authoritative 
legislative record keeping, prompt resolution of traditional requests, 
and customized research instruction. The library is significantly 
expanding the use of Web technology to meet the Senate's ever-
increasing demand for current, accurate, and relevant information. The 
Library's efforts include establishing workflow and publication 
policies, and leading the Senate.gov Content Team toward improving site 
structure and meta data standards. The library's commitment to improve 
services resulted in a 90 percent inquiry increase, the third 
consecutive year of double-digit increases.

                                         INFORMATION SERVICES INQUIRIES
----------------------------------------------------------------------------------------------------------------
                                                                                                       Increase
                                                                                                      from Prior
                              Year                               Traditional      Web        Total       Year
                                                                                                       (percent)
----------------------------------------------------------------------------------------------------------------
2006...........................................................       31,032   1,596,772   1,627,804          90
2005...........................................................       33,080     823,076     856,156          35
2004...........................................................       33,750     602,236     635,986          61
2003...........................................................       46,234     348,198     394,432     ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Baseline.

            Legislative Record Keeping
    The library guarantees daily accuracy of more than 100 Senate 
business-related lists on three Web sites--Senate.gov, LIS.gov, and 
Webster. Legislative records published by the Library are in high 
demand because of their usability and quick access. Almost 1.6 million 
visitors to Library-produced Web resources underscore the need for 
these materials. The three most popular legislative publications--Hot 
Bills List, Appropriations Legislation, and Action on Cloture--garnered 
456,151 Web visitors in 2006.

                              HOT BILLS, APPROPRIATIONS, AND CLOTURE WEB INQUIRIES
----------------------------------------------------------------------------------------------------------------
                           Publication                            Senate.gov      LIS       Webster      Total
----------------------------------------------------------------------------------------------------------------
Hot Bills (Active Legislation)..................................     372,857      17,096       8,796     398,749
Appropriations Legislation (fiscal year 1987-present)...........      43,795       6,293       3,545      53,633
Cloture Motion Activity (1985-present)..........................       1,299       1,256       1,214       3,769
                                                                 -----------------------------------------------
    Total Web Inquiries.........................................  ..........  ..........  ..........     456,151
----------------------------------------------------------------------------------------------------------------

    Since accepting responsibility to author Senate.gov content in 
2002, library staff have dedicated themselves to mastering Web 
technology best practices. Efforts have resulted in the conversion of 
many existing print and Web publications into XML format. This 
versatile format is a universal standard for efficiently storing and 
retrieving data. The great advantage of XML is that both print and Web 
products can be easily generated from a single data source.
            Senator Biography Database
    Several offices under the Secretary of the Senate share publishing 
responsibility for up-to-the-day information on Senate.gov. When new 
Senate records are set, such as for the longest-serving Senator or when 
a Senator has cast more than 10,000 votes, those accomplishments are 
immediately published on the site. To support these requirements, the 
library conducted a review of software products to construct a 
biographical database.
    As part of this effort, the library has created a prototype 
database designed to eliminate redundant data entry, improve workflow, 
and reduce the potential for error. Key elements about the 1,895 
individuals who have served as Senators since 1789--member name, state, 
party, and dates of service, for example--can be stored and managed in 
the database. These standardized elements are retrievable as needed.
            Committee Hearings
    The library's retrospective Senate hearing project was completed on 
December 28--an achievement that took 13 years of effort. This 
significant accomplishment provides Senate staff with bibliographic 
access to the library's collection of 36,300 hearings dating from 1889. 
The library collection is regarded as the most complete in existence, 
surpassing those of the Library of Congress and National Archives.
    A second hearing project involves creating catalog records for 
Senate hearings announced in the Congressional Record Daily Digest. 
This project bridges the three- to six-month period between the hearing 
announcement and the official publication of the hearing. For the first 
time, Senate staff have a reliable source--the library catalog--to 
locate hearing information for all hearings, including unpublished 
hearings. Since the project began in May 2005, 1,098 unpublished 
hearing records have been created.
            Floor Schedule
    The library is responsible for posting the Floor Schedule on 
Senate.gov after each Senate meeting adjourns. The schedule provides 
convene and adjourn times, program highlights, and links to roll call 
votes and daily calendars. Floor Schedule production was improved this 
year by establishing an XML template that standardizes the format.
            Digital Congressional Document Collection
    The library acquired two congressional document databases and the 
full-text searchable collections provide Senate-wide access to 313,730 
reports and documents. The databases contain the U.S. Congressional 
Serial Set, Senate Journal, House Journal, Senate Executive Journal, 
and American State Papers. An added benefit of these databases is that 
customized research collections can be created by Senate staff from 
their desktop. For example, one customized collection groups early 
editions of the Secretary of the Senate Report (1823-1903).

                        DIGITAL COLLECTION USAGE
------------------------------------------------------------------------
                       Title (coverage)                         Searches
------------------------------------------------------------------------
American State Papers (1789-1838)............................        588
Congressional Research Service Reports (1916-present)........        400
Senate and House Committee Prints (1830-present).............        400
U.S. Congressional Serial Set (1817-1906)....................      1,729
                                                              ----------
    Total Digital Collection Searches........................      3,117
------------------------------------------------------------------------

            Treaty Documents and Executive Reports
    More than 1,565 treaties and 1,016 executive reports, from 1857 to 
the present, were cataloged during a 5-year project. This project 
provides bibliographic access to the entire Senate executive document 
collection through the library's catalog. The international scholarly 
community will also benefit from these unique bibliographic records 
because in many instances the only known copies are in the Senate 
collection.
            Traditional Information Requests
    Traditional requests--by telephone, e-mail, or in-person--are fewer 
than Web-based inquiries; however they dominate daily library activity. 
Often working under strict deadlines, the eight-person team personally 
responds to a monthly average of 2,586 staff inquiries. Each request is 
handled in a timely, confidential, and nonpartisan manner. Research 
requests vary widely, including legislative, legal, economic, and 
historical topics. The knowledge gained from this frontline experience 
provides the basis from which the librarians create Web products.

                 INFORMATION SERVICE SUPPORT ACTIVITIES
------------------------------------------------------------------------
                           Category                              Total
------------------------------------------------------------------------
Document Deliveries..........................................      3,290
Circulation:
    Item Loans...............................................      2,941
    New Accounts.............................................        333
                                                              ----------
      Total Accounts.........................................      2,745
                                                              ==========
Microform Center:
    Titles Used..............................................        245
    Pages Printed............................................      4,479
Photocopies..................................................    101,297
------------------------------------------------------------------------

            Customized Research Instruction and Professional Outreach
    The library conducted 46 LIS Savvy classes for 343 staff. This 
important responsibility utilizes the library's expertise in 
legislative procedure and database research. During this second year of 
the library's LIS training program, additional classes for advanced 
search techniques are in development. The library is also collaborating 
with the Office of Education and Training to design a self-paced, 
online LIS course.
    During 2006, 175 staff attended Services of the Senate Library 
seminars, the Senate Services Fair, Senate Page School tours, state 
staff orientations, and the annual National Library Week reception and 
book talk. Visitors from graduate schools, professional organizations, 
and federal libraries totaled 188.
Technical Services
            Acquisitions
    As a participant in GPO's Federal Depository Library Program 
(FDLP), the library receives selected categories of legislative, 
executive, and judicial branch publications. The library received 
10,655 government publications in 2006, 9,907 of those through the 
FDLP. In response to the trend of issuing government documents in 
electronic format, 20,400 links were added to the library catalog. The 
links provide Senate staff desktop access to the full-text of each 
document.

                              ACQUISITIONS
------------------------------------------------------------------------
                           Category                              Total
------------------------------------------------------------------------
Congressional Documents......................................      7,322
Executive Branch Publications................................      3,333
Books........................................................        889
                                                              ----------
    Total Acquisitions.......................................     11,544
------------------------------------------------------------------------

    A major project is the ongoing title-by-title evaluation of 
executive branch publications. During the project's sixth year, 1,219 
items were withdrawn from the collection, 642 of which were donated to 
requesting federal libraries. The project's final phase will improve 
organization and access by integrating the retained documents into the 
book collection. Toward this end, 602 documents were reclassified and 
merged into the larger primary collection.
    The library significantly expanded its microform periodical 
coverage through the acquisition of surplus materials from Washington-
area libraries. New titles include: Los Angeles Times, 1978-2005; New 
England Journal of Medicine, 1984-1998; The New York Times, 1926-1961; 
The Progressive, 1984-2004; and USA Today, 1993-2005.
            Catalog
    The library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 177,940 
bibliographic items. During 2006, 13,303 items were added to the 
catalog, including 8,132 new titles--a 57 percent increase over 2005--
and 6,154 items were withdrawn. A total of 32,592 maintenance 
transactions contributed to the catalog's content, currency, and record 
integrity.
    Senate staff searched the library catalog on 4,742 occasions (+21 
percent), viewing 6,514 catalog pages (+12 percent). The catalog is 
updated nightly to ensure that Senate staff will retrieve accurate and 
current information on library holdings. Visual appeal and utility were 
enhanced with the addition of 280 book jacket images for new titles.
    A related, ongoing project involves cataloging the Senate 
Historical Office's 3,000-volume book collection. Records for 820 
titles were added to the library catalog, bringing the total number of 
Historical Office titles to 1,426. They will be able to efficiently 
identify and locate volumes in their collection through the library 
catalog.
            Name Authorities Cooperative Program (NACO)
    NACO, an international cataloging authority located at the Library 
of Congress, manages personal name and subject control for the library 
community. As one of 457 participants, the library contributed 616 
personal names and congressional terms. That exceptional number 
underscores the very special nature of the Senate's collections and 
skills of the library's catalogers.
            Library System Servers
    The library acquired three servers that will provide a platform for 
the fiscal year 2007 catalog upgrade. New capabilities will shorten 
data transfer time and increase catalog availability, enhance record 
processing, and provide for dynamic delivery of catalog content to the 
Web.
Collection Maintenance
            Senate Support Facility
    The library's off-site collection includes legislative publications 
dating from the early 1800s. These 26,000 volumes are an archive of the 
Senate's primary source documents. In early 2006 the collection was 
transferred to the new SSF; organization and shelving were completed by 
August.
            Environmental Controls
    Air handling and water detection systems were installed in the 
Russell Building book stacks. These environmental controls improve 
storage conditions for the Senate's historic collections. With the new 
equipment, the site meets strict archival standards for both 
temperature and humidity levels. Newly installed detection devices will 
alert staff to any water-related issues.
    Sensors to remotely monitor environmental conditions were installed 
in the library's book stacks within the SSF. If relative humidity and 
temperature levels exceed preset thresholds, staff will receive an e-
mail alert. These improvements mark the first time in the library's 
history that all collections are housed in controlled environments.
            Preservation and Binding
    A collection survey to examine the physical condition of the 
38,815-volume book collection was completed in August 2006. The survey 
concluded that the collection is in excellent condition. However, 580 
volumes (1.5 percent) will require minor repair and 32 volumes will be 
evaluated for major repair or replacement.
    Library collections include every printed legislative document 
since the First Congress. In order to ensure that this collection 
remains comprehensive, materials are prepared for binding at GPO. 
During the year, 608 volumes containing hearings, committee prints, 
bills and resolutions, Congressional Records, and other materials were 
bound.
Administrative
            Budget
    Budget savings in 2006 totaled $1,575; and, after a decade of 
budget monitoring, savings total $75,813.86. This continual review of 
purchases eliminates materials not meeting the Senate's current 
information needs. This oversight is also critical in offsetting cost 
increases for core materials and for acquiring new materials. The goal 
is to provide the highest level using the latest technologies and best 
resources in the most cost-effective manner.
            Continuity of Operations Plan (COOP)
    Several Library initiatives this year will further enable the 
Office of the Secretary to provide information services to the Senate 
from off-site. Projects include housing core documents at the SSF and 
training staff to remotely access the Senate network from a Senate-
issued laptop. Additionally, the library established a Digital 
Congressional Research Collection containing fully searchable 
congressional documents dating from the First Congress. These databases 
can be remotely accessed, and support immediate digital delivery of 
information.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter has been produced by 
Senate Library staff since October 1997. It serves as an historical 
record of accomplishments, events, and personnel in the Offices of the 
Secretary of the Senate. The newsletter is distributed throughout the 
Senate, and to former staff and Senators.
    The four 2006 issues highlighted several significant events 
including three major publications issued through Secretary's office, 
200 Notable Days: Senate Stories, 1787-2002, United States Senate 
Graphic Arts Catalog, and Biographical Directory of the United States 
Senate, 1789-2005.
Major Library Goals for 2007
    Redesign the library's Webster site.
    Create a Web-based Senate index for Senate.gov and the library's 
Webster site.
    Acquire software for a senator's biographical database.
    Develop online LIS training resources for Senate staff.
    Upgrade the integrated library system.
    Install new OCLC cataloging software.
    Survey U.S. Congressional Serial Set volumes in the Senate Support 
Facility.
    Survey book, House hearing, and microform collections in the 
Russell Building.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2006--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         42         87        142         24        293         18         46        375        985
February.............................................         25         27        165        112        241         25         63        113        746
March................................................         20         65        269        386        307         21        134        226      1,408
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         87        179        576        522        841         64        243        714      3,139
                                                      ==================================================================================================
April................................................         21         55        208        270        311         17         62        239      1,162
May..................................................         25         86        184  .........        310         20         86        334      1,020
June.................................................         13         87        161         43        220         23         56         72        662
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         59        228        553        313        841         60        204        645      2,844
                                                      ==================================================================================================
July.................................................         20        119        174         42        276         19         52        173        855
August...............................................         27         75         67        171        272         14         54        196        849
September............................................         41         70         61  .........        273         15         68        212        699
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................         88        264        302        213        821         48        174        581      2,403
                                                      ==================================================================================================
October..............................................         38         92        300         13        352         14         58        705      1,534
November.............................................         60         52        214         41        262         16         36        195        816
December.............................................         15         74        117        169        233         19         33        163        808
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................        113        218        631        223        847         49        127      1,063      3,158
                                                      --------------------------------------------------------------------------------------------------
      2006 Total.....................................        347        889      2,062      1,271      3,350        221        748      3,003     11,544
      2005 Total.....................................        346        880      2,337      1,251      2,926        252        884      3,458     11,988
                                                      ==================================================================================================
Percent Change.......................................       0.29       1.02     -11.77       1.60      14.49     -12.30     -15.38     -13.16      -3.70
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2006--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Bibliographic Records Cataloged
                                                          S.    ------------------------------------------------------------------------------
                                                       Hearing                    Government Documents           Congressional Publications      Total
                                                       Numbers             -------------------------------------------------------------------  Records
                                                       Added to    Books                                                              Docs./   Cataloged
                                                         LIS                  Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                                                                                     Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.............................................         20         70         10          1          16        349         10        117        573
February............................................         26         50          1          2           9        312          5        100        479
March...............................................         32        249          4         15          49        561         14        284      1,176
                                                     ---------------------------------------------------------------------------------------------------
      1st Quarter...................................         78        369         15         18          74      1,222         29        501      2,228
                                                     ===================================================================================================
April...............................................         30         38         11          4          21        418          1         83        576
May.................................................         19        246          5         51           5        461         36          5        809
June................................................          7        116          3          1  ..........        391          7         46        564
                                                     ---------------------------------------------------------------------------------------------------
      2nd Quarter...................................         56        400         19         56          26      1,270         44        134      1,949
                                                     ===================================================================================================
July................................................         45        168          4  .........          12        618          5         11        818
August..............................................         53        116          3          1          11        333          5  .........        469
September...........................................          8        225         14          6          24        558          7         21        855
                                                     ---------------------------------------------------------------------------------------------------
      3rd Quarter...................................        106        509         21          7          47      1,509         17         32      2,142
                                                     ===================================================================================================
October.............................................         33         59  .........  .........  ..........        485          4         18        566
November............................................         21         92         10  .........          11        578          1          5        697
December............................................         24         70          5         15          13        442          3          2        550
                                                     ---------------------------------------------------------------------------------------------------
      4th Quarter...................................         78        221         15         15          24      1,505          8         25      1,813
                                                     ---------------------------------------------------------------------------------------------------
      2006 Total....................................        318      1,499         70         96         171      5,506         98        692      8,132
      2005 Total....................................      1,088        500         85         57         131      3,379         39        988      5,179
                                                     ===================================================================================================
Percent Change......................................     -70.77     199.80     -17.65      68.42       30.53      62.95     151.28     -29.96      57.02
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2006--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                     Volumes  Materials  Facsimiles   Center Pages      Pages
                                                     Loaned   Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January...........................................       240        354        100           184         7,079
February..........................................       223        312         79           224        13,615
March.............................................       195        409        109            67         9,304
                                                   -------------------------------------------------------------
      1st Quarter.................................       658      1,075        288           475        29,998
                                                   =============================================================
April.............................................       247        256         70           471        11,194
May...............................................       279        319         71           436        12,232
June..............................................       313        340        100           778        12,804
                                                   -------------------------------------------------------------
      2nd Quarter.................................       839        915        241         1,685        36,230
                                                   =============================================================
July..............................................       249        211         69         1,312         6,315
August............................................       185        203         65           162         6,488
September.........................................       398        283         71           190         9,178
                                                   -------------------------------------------------------------
      3rd Quarter.................................       832        697        205         1,664        21,981
                                                   =============================================================
October...........................................       235        203         76           320         6,213
November..........................................       260        208         34           268         3,014
December..........................................       117        192         34            67         3,861
                                                   -------------------------------------------------------------
      4th Quarter.................................       612        603        144           655        13,088
                                                   -------------------------------------------------------------
      2006 Total..................................     2,941      3,290        878         4,479       101,297
      2005 Total..................................     2,752      4,015      1,001         4,406       113,335
                                                   =============================================================
Percent Change....................................      6.87     -18.06     -12.29          1.66        -10.62
----------------------------------------------------------------------------------------------------------------

                         11. senate page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Continue to work toward accreditation by the Middle States 
Commission on Secondary Schools. The process will be ongoing until 
December 31, 2008.
    Conducted closing ceremonies for two page classes on June 9, 2006, 
and January 26, 2007, the last day of school for each semester.
    Completed orientation and course scheduling for the Spring 2006 and 
Fall 2006 pages. Needs of incoming students determined the semester 
schedules.
    Provided extended educational experiences including twenty-three 
field trips, six guest speakers, writing and speaking contests, musical 
instruments and vocal opportunities, and foreign language study with 
the aid of tutors of five languages. Summer pages participated in eight 
field trips to educational sites and listened to two guest speakers as 
an extension of the page experience. National tests were administered 
for qualification in scholarship programs.
    Collected items for gift packages and then assembled and shipped to 
military personnel in Afghanistan and Iraq as part of the community 
service project embraced by pages and staff since 2002. Pages included 
letters of support to the troops. Several recipients of gift packages 
wrote letters to Pages expressing appreciation.
    Purchased updated materials and equipment. These included eighteen 
new workstations for students and staff. Math, science, and U.S. 
history texts were purchased as well as academic support software. The 
science lab was modified, updated, and safety compliant storage units 
for chemicals were purchased.
    Reviewed and updated the evacuation plan and COOP. Pages and staff 
continue to practice evacuating to primary and secondary sites.
    Participated in escape hood training (pages and staff). Staff was 
recertified in CPR/AED procedures.
    Trained tutors and substitute teachers in evacuation procedures.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, Latin, Japanese, Chinese, and Russian.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.
  --The community service project will continue.
  --Preparation for the accreditation visit will be made and all 
        necessary reports completed.
                   12. printing and document services
    The Office of Printing and Document Services (OPDS) serves as the 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with Title 44, U.S. Code as it relates 
to Senate documents, hearings, committee prints and other official 
publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and miscellaneous publications for 
printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.
            Printing Services
    During fiscal year 2006, the OPDS prepared 4,320 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Since the requisitioning done 
by the OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this office's cost accounting duties, OPDS is 
able to review and assure accurate GPO invoicing as well as play an 
active role in helping to provide the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices such as 
the Curator, Historian, Disbursing Office, Legislative Clerk, Senate 
Library as well as the U.S. Botanic Garden, USCP and the AOC. These 
tasks include providing guidance for design, paper selection, print 
specifications, monitoring print quality and distribution. Last year's 
major printing projects included the Report of the Secretary of the 
Senate; and numerous publications prepared by the Senate Historian's 
office including 200 Notable Days in Senate History, and the New Member 
Guide to Traditions of the U.S. Senate. Current major projects for the 
office include A Botanic Garden for the Nation, the Annual Report of 
the Architect of the Capitol, and A History of the U.S. Senate Budget 
Committee.
            Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. The OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate. The OPDS 
utilizes a program developed in conjunction with the SAA Computer 
Division that provides more billing accuracy and greater information 
gathering capacity; and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for commercial reporting 
companies to bill the Senate for transcription services. During 2006, 
OPDS provided commercial reporting companies and corresponding Senate 
committees a total of 934 billing verifications of Senate hearings and 
business meetings. Over 66,000 transcribed pages were processed at a 
total billing cost of over $433,000.
    The office continued processing all file transfers between 
committees and reporting companies electronically, ensuring efficiency 
and accuracy. Department staff continues training to apply today's 
expanding digital technology to improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                       2004            2005            2006       Percent change
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             787             949             934         -01.6
Average per Committee...........................            41.4            49.9            49.2         -01.6
Total Transcribed Pages.........................          56,262          66,597          66,158          -0.007
Average Pages/Committee.........................           2,961           3,505           3,482          -0.007
Transcribed Pages Cost..........................        $366,904        $426,815        $433,742          +1.016
Average Cost/Committee..........................         $19,311         $22,463         $22,829          +1.016
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within the OPDS is staffed by 
experienced GPO detailees that provide Senate committees and the 
Secretary of the Senate's Office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease, or eliminate, additional 
overtime costs associated with the preparation of hearings.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed 14,902 distinct legislative items during the 
109th Congress, including Senate and House bills, resolutions, 
committee and conference reports, executive documents, and public laws.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2004            2005            2006
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          26,885          34,787          24,881
    For the Senate..............................................          12,642          16,393          12,362
    For the House...............................................          14,243          18,394          12,519
Total Copies Printed & Distributed..............................         882,314       1,049,463         780,302
    To the Senate...............................................         227,192         295,366         210,084
    To the House................................................         331,165         397,327         326,648
    To the Executive Branch and the Public......................         323,957         356,770         243,570
Total Production Costs..........................................     $17,543,644     $16,014,706     $13,115,660
    Senate Costs................................................      $7,961,741      $6,640,823      $5,006,708
    House Costs.................................................      $9,026,893      $8,933,244      $7,784,653
    Other Costs.................................................        $555,010        $440,639        $324,299
----------------------------------------------------------------------------------------------------------------

    Accessing legislative documents through the Web has become 
increasingly popular. Before Senate legislation can be posted online, 
it must be received in the Senate through the OPDS. Improved database 
reports allow the office to report receipt of all legislative bills and 
resolutions received in the Senate which can then be made available 
online and accessed by other Web sites, such as LIS and Thomas, used by 
Congressional staff and the public.
            Customer Service
    The primary responsibility of the OPDS is to provide services to 
the Senate. However, the office also has a responsibility to the 
general public, the press, and other government agencies. Requests for 
legislative material are received at the walk-in counter, through the 
mail, by fax, and electronically. During 2006, online ordering of 
legislative documents increased 20 percent over the previous year. The 
Legislative Hot List Link, where Members and staff can confirm arrival 
of printed copies of the most sought after legislative documents 
continued to be popular. The site is updated several times daily each 
time new documents arrive from GPO to the Document Room. In addition, 
the office handled thousands of phone calls pertaining to the Senate's 
official printing, document requests and legislative questions. 
Recorded messages, fax, and e-mail operate around the clock and are 
processed as they are received, as are mail requests. The office 
stresses prompt, courteous customer service while providing accurate 
answers to Senate and public requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                           Congress/    Public      FAX      On-line    Counter
                           Year                             session      mail     request    request    request
----------------------------------------------------------------------------------------------------------------
2003.....................................................    108/1st      1,469      2,596        735     53,040
2004.....................................................    108/2nd      1,137      2,229        564     36,780
2005.....................................................    109/1st      1,369      2,326      1,464     40,105
2006.....................................................    109/2nd      1,048      1,633      1,751     26,640
----------------------------------------------------------------------------------------------------------------

            On-Demand Publication
    The office produces additional copies of legislation as needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees, that provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports. 
On-demand publication allows the department to cut the quantities of 
documents printed directly from GPO and reduces waste. The DocuTech is 
networked with GPO, allowing print files to be sent back and forth 
electronically. This allows the OPDS to print necessary legislation for 
the Senate floor, and other offices, in the event of a GPO COOP 
situation. During 2006, the DocuTech Center produced 683 tasks for a 
total of 752,174 printed pages; this represents a 29 percent increase 
in the number of jobs over the previous year.
            Accomplishments & Future Goals
    OPDS developed new database reports on serial set publications for 
the Senate Library and inventory tracking of materials housed in the 
SSF were developed. Electronic proofing procedures, implemented in 
early 2006, were very well received by Senate offices. Proofs of over 
three hundred new and revised print jobs were routed electronically for 
customer approval improving turn around time and efficiency.
    The office's goals include working with GPO on their Future Digital 
and Microcomp Replacement Systems to improve efficiency and help answer 
the evolving needs of the Senate, as well as developing online ordering 
of stationery products for Senate offices. The Office of Printing and 
Document Services continues to seek new ways to use technology to 
assist Members and staff with added services and improved access to 
information.
                      13. office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October, 2005, through September, 2006, the 
Public Records office staff assisted more than 2,400 individuals 
seeking information from reports filed with the office. This figure 
does not include assistance provided by telephone, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995 (LDA). A total of 140,000 photocopies were sold 
in the period. In addition, the office works closely with the Federal 
Election Commission, the Senate Select Committee on Ethics and the 
Clerk of the U.S. House of Representatives concerning the filing 
requirements of the aforementioned Acts and Senate rules.
Fiscal Year 2006 Accomplishments
    The office modified its lobbying e-filing program to allow Adobe 
electronic forms generated by the Clerk of the House to be filed with 
the Secretary.
Plans for Fiscal Year 2006
    The Public Records office intends to upgrade its lobbying e-filing 
program to conform with the change to IBM forms made by the Clerk of 
the House so that both systems are complementary.
Automation Activities
    During fiscal year 2006, the Senate Office of Public Records 
developed the capacity to be able to accept Clerk-generated electronic 
LDA forms. The office also upgraded its automation of the public 
financial disclosure system.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports. 
Filings totaled 4,364 documents containing 298,639 pages.
Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2006, 6,554 registrants represented 21,468 
clients and employed 35,844 individuals who met the statutory 
definition of ``lobbyist.'' The total number of individual lobbyists 
disclosed on 2006 registrations and reports was 13,595. The total 
number of lobbying registrations and reports processed was 46,835.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2006. The reports were available to the public and press by Wednesday, 
June 14th. Copies were provided to the Select Committee on Ethics and 
appropriate State officials. A total of 3,029 reports and amendments 
was filed containing 19,419 pages. There were 424 requests to review or 
receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received 803 reports during 
fiscal year 2006.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 623.
                          14. senate security
    The Office of Senate Security (OSS) was established under the 
Secretary of the Senate by Senate Resolution 243 (100th Congress, 1st 
Session). The office is responsible for the administration of 
classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate. This report covers the period from January 1, 2006 through 
December 31, 2006.
Personnel Security
    Five hundred sixty-two Senate employees held one or more security 
clearances at the end of 2006. This number does not include clearances 
for employees of the Architect of the Capitol nor does it include 
clearances for Congressional Fellows assigned to Senate offices. OSS 
also processes these clearances.
    OSS processed 2,273 personnel security actions, a 3.7 percent 
decrease from 2005. One hundred-seven investigations for new security 
clearances were initiated last year, and 39 security clearances were 
transferred from other agencies. Senate regulations, as well as some 
Executive Branch regulations, require that individuals granted Top 
Secret security clearances be reinvestigated at least every five years. 
Staff holding Secret security clearances are reinvestigated every ten 
years. During the past 12 months, reinvestigations were initiated on 81 
Senate employees. OSS processed 152 routine terminations of security 
clearances during the reporting period and transmitted 364 outgoing 
visit requests. The remainder of the personnel security actions 
consisted of updating access authorizations and compartments.
    Overall, the average time required to process a Senate employee for 
a security clearance has decreased from 332 days to 309 days. The 
average time for investigations has decreased by 7.4 percent relative 
to 2005. This is the first decrease since 2002 when the average time 
was 167 days. The increase for 2002 to 2003 was 66.7 percent, 2003 to 
2004 was 25.6 percent, and 2004 to 2005 was 27.7 percent. The overall 
increase from 2002 to 2006 was 85 percent. The average time for an 
initial investigation conducted and adjudicated by DOD is 277 days from 
the date that OSS requests the investigation until the letter from DOD 
granting the clearance is received in Senate Security. The average time 
for DOD initial investigations decreased 9.2 percent. The periodic re-
investigation process averages 335 days, a decrease of 13 percent 
relative to 2005. The average time for an initial investigation 
conducted by the FBI and adjudicated by DOD is 289 days while the 
periodic re-investigation process averages 387 days. The FBI 
investigation with DOD adjudication times represents an increase of 
12.9 percent and a decrease of 13.4 percent respectively.
    One hundred ninety-nine records checks were conducted at the 
request of the FBI and Customs and Immigration. One record check was 
performed on behalf of Customs and Immigration. The remaining checks 
were performed for the FBI. This represents a 16.7 percent decrease in 
records checks completed by OSS.
Security Awareness
    OSS conducted or hosted 63 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 5 
percent increase from 2005.
Document Control
    OSS received or generated 2,488 classified documents consisting of 
76,409 pages during calendar year 2006. This is a 10.9 percent decrease 
in the number of documents received or generated in 2005. Additionally, 
48,276 pages from 2,233 classified documents no longer required for the 
conduct of official Senate business were destroyed. This represents a 
45.3 percent decrease in destruction from 2005. OSS transferred 906 
documents consisting of 23,742 pages to Senate offices or external 
agencies, up 29.4 percent from 2005. These figures do not include 
classified documents received directly by the Appropriations Committee, 
Armed Services Committee, Foreign Relations Committee, and Select 
Committee on Intelligence, in accordance with agreements between OSS 
and those Committees. Overall, Senate Security completed 5,627 document 
transactions and handled over 148,427 pages of classified material in 
2006, a decrease of 25.7 percent.
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.
Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,173 occasions 
by a total of 7,854 people during 2006. Use of OSS conference 
facilities increased 27.6 percent over 2005 levels. Eight hundred 
thirty-six meetings, briefings, or hearings were conducted in OSS' 
three conference rooms. Of those, seven were ``All Senators'' briefings 
and five were hearings. OSS also provided to Senators and staff secure 
telephones, secure computers, secure facsimile machine, and secure 
areas for reading and production of classified material on 337 
occasions in 2006.
Projects and Accomplishments
    The Office of Senate Security hosted the first annual Technical 
Exposition for the Office of the Director of National Intelligence in 
April 2006. Classified and unclassified exhibits representing the 
technical and scientific accomplishments of the U.S. Intelligence 
Community were shown to members of the U.S. Senate and the U.S. House 
of Representatives, as well as cleared staff from throughout the 
Legislative Branch. OSS personnel provided assistance with security, 
site preparation, and escorting during the three months leading up to 
the Expo. The office and DNI are planning another Expo in April 2007.
    The Office of Senate Security is preparing to move to the Capitol 
Visitors Center expansion space when it is ready for occupancy. OSS has 
been coordinating with internal offices and other U.S. Government 
agencies to ensure the space will be appropriate for the storage, 
processing and discussion of classified material. OSS is developing 
plans and procedures for use of the new space and for moving the 
Senate's classified holdings to the new space in a secure and efficient 
manner.
                          15. stationery room
    The mission of the Keeper of the Stationery is to:
  --Sell stationery items for use by Senate offices and other 
        authorized legislative organizations.
  --Select a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items.
  --Purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules.
  --Maintain individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate.
  --Render monthly expense statements.
  --Ensure receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process.
  --Make payments to all vendors of record for supplies and services in 
        a timely manner and certify receipt of all supplies and 
        services.
  --Provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2006            2005
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $4,945,381      $5,247,163
Sales Transactions......................          45,471          60,247
Purchase Orders Issued..................           6,795           8,611
Vouchers Processed......................           8,313           9,206
Office Deliveries.......................           6,085              NA
Number of Items Delivered...............         156,172              NA
Number of Items Sold....................         608,104              NA
                                         ===============================
Mass Transit Media Sold.................          86,483          75,607
    $20.00..............................          72,388          64,527
    $10.00..............................           4,510           3,923
    $5.00...............................           9,585           7,157
                                         ===============================
Full Time Employees (FTE)...............              13              13
------------------------------------------------------------------------

Fiscal Year 2006 Highlights and Projects
            Flag Purchase Modernization Project
    During fiscal year 2005, with the assistance of the Office of the 
AOC and the SAA, the Stationery Room began to offer Member offices the 
option of purchasing flags which had been flown over the Capitol, but 
were not date or occasion specific. Approximately thirty-seven percent 
of all flag requests by constituents were only to obtain a flag flown 
over the Capitol. If flags could be flown in advance, significant wait 
times could be reduced. In addition, the SAA's Printing, Graphics and 
Direct Mail Division created artwork for a generic customizable flag 
certificate, along with a CD template that could be used in the 
customization process should a Member office choose. All flags which 
have been pre-flown come with a Certificate of Authenticity signed by 
the Architect, certifying each flag has been flown over the United 
States Capitol. Over the course of fiscal year 2006, interested Member 
offices were incorporated into the pre-flown Flag program. Eighty-six 
Member offices participate in the program. This program has been well 
received by the Senate community, with positive feedback from all 
levels.
            Senate Support Facility
    Fiscal year 2006 saw the migration and consolidation of the 
Stationery Room's multiple storage locations into one central site. 
With the transfer of materials from the old facilities in February 2006 
to the new SSF, product chain of custody is now maintained. The 
Stationery Room is looking at ways to use the facility to its maximum 
advantage and envision this as a major distribution outlet for all 
products by building a stock replenishment process and improving upon 
distributed services.
            Product Review Committee
    During fiscal year 2006, the Stationery Room developed a means to 
garner a better understanding of the needs of the Senate community. The 
Stationery Room created a Product Review Committee representing Member 
and committee offices to provide opinion, assessment, evaluation and 
feedback on products needed by the end users. While the committee is 
just underway, it has become an invaluable communication tool.
            Computer Modernization
    The Stationery Room completed acceptance testing on its new 
Microsoft Retail Point of Sale base applications along with the Great 
Plains/Business Dynamics accounting system in August 2006. This project 
was completed on time and under budget. The initial phase of the 
applications being completed, the Stationery Room staff will look to 
enhance the base system and take advantage of the various reporting 
capabilities. Part of the additional enhancements will include the 
feasibility of providing an e-commerce solution to the Senate community 
for order processing and fulfillment.
            Store Merchandising and Relocation Project
    During the last quarter of fiscal year 2006, the Stationery Room 
staff initiated a project for the sales area of the store. After 
completing a space utilization review of the store facilities, the 
Stationery Room concluded that it needed to reduce shelf quantities on 
some products, while increasing quantities on others. Shelving was re-
aligned to properly display products in a more convenient customer-
oriented manner with like product groupings given high priority.
                           16. web technology
    The Office of Web Technology is responsible for Web sites that fall 
under the purview of the Secretary of the Senate, including: the Senate 
Web site, www.senate.gov (except individual Senator and Committee 
pages); the Secretary's Web site on Webster; an intranet site currently 
used for file-sharing by Secretary staff only; and a LegBranch Web 
server housing Web sites and project materials which can be accessed by 
staff at other Legislative Branch agencies.
The Senate Web site--http://www. Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The United States Senate Web site celebrated its eleven year 
anniversary in 2006, as the first U.S. Senate home page on the World 
Wide Web was announced October 20, 1995 on the Senate floor. From the 
Senate homepage members of the public could easily find the homepages 
for their own Senators. As the Web grew, so did the content and mission 
of Senate.gov. The pages of information became catalogs and databases, 
but the mission to provide the public with accurate and timely 
information remained constant. There were more than 70 million visitors 
to the Senate Web site in 2006--twenty million more than in 2005.
    The Senate Web site content is maintained by over 30 contributors 
from 7 departments of the Secretary's Office and 3 departments of the 
Sergeant at Arms. Content Team Leaders meet regularly to share ideas 
and coordinate the posting of new content.
Major Additions to the Site in 2006
    A redesigned graphical interface--Highlights of the redesign are 
the ``Find Your Senators'' and site-wide search boxes in the top right 
corner of every page. For the first time the Senate Web site has a 
site-wide search that uses the Google search features so familiar to 
our visitors. The new site received favorable reviews from U.S. News 
and Word Report.
    A new interactive exhibit on Isaac Bassett--Isaac Bassett served 
the Senate from his appointment as a page in 1831 until his death in 
1895, when he was assistant doorkeeper. Bassett witnessed some of the 
most turbulent and exciting times in the institution's history and he 
captured his observations in copious notes which have been donated to 
the Senate. An Isaac Bassett interactive exhibit has been created that 
allows the visitor to choose an event, via a timeline or subject 
listing, and to read a transcript of Bassett's notes about the event. 
An image of the handwritten note is also available when viewing the 
transcript.
    A new interactive exhibit on the Senate Chamber Desks--There are 
100 desks on the Senate Floor and each one has a history. The content 
relative to each desk includes a textual description, list of former 
occupants, digitized images of the desk and the carvings (Senators 
carve their names in their desks when they leave the Senate), and notes 
on the desk's condition and restoration. A Web-based interactive 
presentation has been created to display this rich information about 
the Senate desks.
    Cloture and veto tables for the Library.
    The Fine Arts Catalogue on the Web--images and text from the 
Catalogue have been published on the Senate site.
    Senator Bob Dole's portrait unveiling--the video and transcript of 
the portrait unveiling event are posted for viewing.
    Homepage feature articles published on the following topics: the 
10th anniversary of the Senate Web site and the launching of the new 
Web site design; the Congressional Biographical Directory Online; the 
launching of the Senate Chamber Desks site; We the People: Celebrating 
the American Constitution; and the publication of the United States 
Catalogue of Graphic Arts.
    A multimedia exhibit on the drawings of Lily Spandorf--During the 
1962 Washington filming of the movie ``Advise and Consent'', freelance 
artist Lily Spandorf was sent by the Washington Star to make a few pen 
and ink illustrations of the production. Ms. Spandorf created a total 
of 68 pen and ink and two gauche (watercolor) drawings, all of which 
are now in the U.S. Senate Collection. A Flash multimedia presentation 
of Spandorf's work has been created for the Web site, associating her 
drawings with movie clips from the specific scene the drawing depicts.
Planned Additions to the Site in 2007
    A reorganized Art section--with the addition of the Fine Arts and 
Graphic Arts images the Art section of the site has grown considerably 
and needs to be indexed.
    A project to better organize content on www.senate.gov. The Web 
team is reviewing items for possible reorganization of information on 
the site.
Accomplishments of the Office of Web Technology in 2006
    Upgraded Documentum CMS to 5.25 from 4.3. Encountered error which 
was determined to be a software bug by Documentum who advised upgrading 
to 5.3. Developed Statement of Work, requested proposals and contracted 
with RWD Technologies to review current upgrade status and assist with 
upgrade to version 5.3.
    Helped develop requirements for a taxonomy being built by Senate 
Librarians to organize information about Senators.
    The Web Content Assistant analyzed Google search terms each month 
and identified the need for additional Virtual Reference Desk (VRD) 
subject terms. New VRD pages were built. The VRD serves as an index to 
the site.
    Created production standards for the VRD. The standards include how 
the index will appear (in this case it is subject oriented) and what 
types of links to include.
    Established a system for assigning Google Keywords by analyzing the 
most common words people type in the search box each month, determining 
the items on the site that are most relevant to their search, and 
providing links to those items on the site.
    Designed the layout for the Spandorf exhibit. Organized all 
pictures, loaded them into CMS, and edited accompanying text.
    The Web Content Assistant audited the Senate.gov Web pages 
regularly, updating and correcting links; verifying content; and 
reviewing individual page designs throughout Senate.gov.
    The Assistant Webmaster worked with the SAA to develop and 
implement a solution for all Senate offices to use the Google search 
feature on their own Websites, based on the same techniques developed 
for Senate.gov, including allowing Senate offices to order their search 
results by date, instead of just relevance.
    Developed and implemented an XML-based solution for the Stationery 
room to export catalog data from their internal system and have it 
displayed on their Web site on Webster. Provided documentation and 
training for the office to continue to update the information 
themselves.
    Established and refined workflow and approval procedures for 
various postings including the feature article postings.
    Created documentation on how to use the CMS to post PDFs, new 
portraits, tables, feature bios, feature articles, and how to update 
current postings. Documented all the changes that need to occur to the 
site at the change of a Congress.
    The Web Content Assistant worked with the all the content providers 
to expand the style guide. This included how footnotes should appear on 
the Web as well as the standards for Senators' names and the creation 
of tables.
    The Assistant Webmaster developed increasingly complex tables that 
are shared across several Web sites (www.senate.gov, the Webster/Senate 
Library site, and www.congress.gov) to deliver the most relevant 
information to the intended audiences. The Xtags application was 
implemented on the new version of Webster to maintain previously 
developed projects.
    Teamed with CRS to organize monthly meetings of the LegBranch 
Webmasters Group. Hosted the meeting on Web 2.0. Recruited speakers 
from Democratic Policy Committee and Republican Policy Committee who 
spoke about the use of Podcasts, RSS, WML, wireless communications, and 
other Web 2.0 features by their respective constituencies.
Senate.gov Usage Statistics
    In 2006 over 6 million visitors a month accessed the Senate Web 
site. Twenty-eight percent of them entered through the main Senate home 
page while the majority came to the site via a bookmarked page or to a 
specific page from a search engine. Statistics on individual page 
activity show increases in many areas of the main Senate site.

------------------------------------------------------------------------
                                                              2005-2006
        Title of Web Page          2005 Visits/ 2006 Visits/   Percent
                                      Month        Month       Increase
------------------------------------------------------------------------
Entire Site......................    4,512,000    6,081,000           35
Senate Home Page.................    1,388,500    1,685,000           21
------------------------------------------------------------------------

    Reviewing statistics on web page usage help the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2006
----------------------------------------------------------------------------------------------------------------
                                                                   2005 Visits/    2006 Visits/
                            Top Pages                                  Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Roll Call Votes.................................................          38,504          63,099             +64
Active Legislation..............................................          22,582          30,053             +33
Senate Leadership...............................................          21,371          19,278             -10
Bills & Resolutions.............................................          15,513          18,155             +17
Committee Hearings Scheduled....................................          19,019          15,901             -16
Calendars & Schedules...........................................          13,077          15,574             +19
2005 Schedule...................................................          14,477          13,033             -10
Senate Organization Chart.......................................          13,203          12,438              -6
Nominations.....................................................          14,241          11,815             -17
----------------------------------------------------------------------------------------------------------------


                                 PAGES WITH LARGEST PERCENT INCREASES IN VIEWERS
----------------------------------------------------------------------------------------------------------------
                                                                   2005 Visits/    2006 Visits/
                         2005 Top Pages                                Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Statistics & Lists..............................................           9,334          15,981             +71
Virtual Reference Desk..........................................           8,285          13,568             +64
Roll Call Votes.................................................          38,504          63,099             +64
State Information...............................................          11,414          15,988             +40
Active Legislation..............................................          22,582          30,053             +33
----------------------------------------------------------------------------------------------------------------

    Visitors are interested in legislative matters with Roll Call Vote 
Tallies, the Active Legislation table, and the Bill and Resolutions 
section being particularly popular.
    Based on their popularity in 2005, links to Statistics and Lists 
and the VRD were added to the home page when the site was redesigned in 
2006, further increasing their popularity by 71 percent and 64 percent 
respectively.
Webster--http://webster/secretary
    About 2,300 visitors a month access the Secretary's Web site on 
Webster, the Senate Intranet, and statistics continue to show that the 
vast majority of visitors (87 percent) go directly to the Disbursing 
office section. This section contains information on Employee Benefits 
(insurance, retirement, payroll, etc.) and provides access to the many 
forms employees need to obtain or modify these benefits. Other popular 
items include the Senate Library Web site, the Stationery Room 
Catalogue, Office of Printing and Document Services Document Order and 
Print Order Forms, and the Web page that lists all Secretary of the 
Senate services.
              legislative information system (lis) project
    The LIS is a mandated system (Section 8 of the 1997 Legislative 
Branch Appropriations Act, 2 U.S.C. 123e) that provides desktop access 
to the content and status of legislative information and supporting 
documents. The 1997 Legislative Branch Appropriations Act (2 U.S.C. 
181) also established a program for providing the widest possible 
exchange of information among legislative branch agencies. The long-
range goal of the LIS Project is to provide a ``comprehensive Senate 
Legislative Information System'' to capture, store, manage, and 
distribute Senate documents. Several components of the LIS have been 
implemented, and the project is currently focused on a Senate-wide 
implementation and transition to a standard system for the authoring 
and exchange of legislative documents that will greatly enhance the 
availability and re-use of legislative documents within the Senate and 
with other legislative branch agencies. The LIS Project office manages 
the project.
Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the LIS in January 2000, the LIS 
Project Office shifted its focus to the data standards program and 
established the LIS Augmentation Project (LISAP). The over-arching goal 
of the LISAP is to provide a Senate-wide implementation and transition 
to XML for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC) and the 
Office of the Enrolling Clerk. The XML authoring application is called 
LEXA, an acronym for the Legislative Editing in XML Application. LEXA 
replaces the DOS-based XyWrite software used by drafters to embed 
locator codes into legislative documents for printing. The XML codes 
inserted by LEXA provide more information about the document and can be 
used for printing, searching and displaying a document. LEXA features 
many automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project Office has worked very 
closely with the SLC and the Enrolling Clerk to create an application 
that meets the needs for legislative drafting.
LISAP: 2006
    Throughout 2006 additional features and fixes were added to LEXA, 
enabling the SLC to use the application for more and more of their 
drafting requests. Ninety-five percent of introduced bills produced in 
the SLC were drafted in XML. Some of the new functionality added to 
LEXA in the last year included the following:
  --Ability to create and print several additional styles.
  --A one-click feature to reintroduce one type of document as another 
        type of document, for example, taking the language from a bill 
        and creating an amendment.
  --Ability to specify and print all document stages.
  --A feature to enter a prescribed 3- or 4-letter abbreviation into a 
        document and have it resolve to a long name or phrase.
  --Ability to create amendments to appropriations bills.
  --Ability to create motions.
    LEXA developers also worked with the Office of the Enrolling Clerk 
to add engrossing and enrolling features and to provide for the exact 
formatting and printing requirements for documents created by that 
office. Several hours of training were provided to the staff, and the 
Enrolling Clerks began working in LEXA at the beginning of the 110th 
Congress. With the addition of the documents produced by the Office of 
the Enrolling Clerk, all stages of a measure can be produced in XML.
    Support for LEXA users remains an important priority. The LIS 
Project office provides support for LEXA via the LEXA HelpLine and LEXA 
Web site. The HelpLine is provided through a single phone number that 
rings on all the phones in the office, and the Web site is located on a 
server accessible by the legislative branch. The Web site, http://
legbranch.senate.gov/lis/lexa, is used to distribute updates of the 
application to GPO and provides access to release notes, the reference 
manual, and other user aids. The 2004 Legislative Branch Appropriations 
Act directed GPO to provide support for LEXA much as the office has for 
XyWrite. GPO continues to work toward augmenting the support provided 
by the LIS Project Office. Senate staff members in the LIS Project 
Office do development and provide support for LEXA.
    GPO maintains the software module that converts a Senate XML 
document to locator for printing through Microcomp, and in 2006, the 
module was expanded to also print House XML documents. GPO is also 
nearing completion of a tool to create and print tables. This software 
will be used by both the House and Senate, providing another module 
that is common to both applications. The House and Senate software 
development groups continue to work closely with GPO and the Library of 
Congress to reach agreement on technical authoring issues and 
standards, thereby eliminating the need for additional processing when 
documents are exchanged.
    The LEXA Reference Manual was updated by the LIS office in early 
2006, and a 2007 update is underway. The manual provides screen shots 
and step-by-step instructions for all LEXA features. The Office also 
trained new SLC staff and the Enrolling Clerks on LEXA and provided 
several demonstrations on new LEXA features throughout the year.
    The LIS Project Office, the SLC, and the SAA's Systems Development 
Services group have worked together for the past several years to 
implement a document management system (DMS) in the SLC. One obstacle 
has been the need for the SLC to continue to use XyWrite for certain 
documents. XyWrite is DOS-based software that does not work well in a 
Windows or database environment. In 2006, the team identified and 
purchased DMS software that will work with both LEXA and XyWrite 
documents. The Systems Development Services group is working with the 
SLC systems integrator to implement the software, and the LIS Project 
office will assist in the integration with LEXA. The DMS will provide a 
powerful tracking, management, and delivery tool for the SLC.
LISAP: 2007
    The LIS Project office will continue to work with the House, GPO, 
and the Library of Congress on projects and issues that impact the 
legislative process and data standards for exchange. These groups are 
currently participating in two projects with GPO--one to define 
requirements for replacing the Microcomp composition software and 
another to improve the content submission and exchange processes.
    The Office of the Enrolling Clerk will use LEXA to produce 
engrossed and enrolled bills in XML. The LIS Project office will 
continue to work with the SLC and the Office of the Enrolling Clerk to 
refine and enhance LEXA so that more and more of the documents produced 
by those offices will be done in XML. Once all of the documents can be 
produced in XML using LEXA, those offices will be able to stop using 
XyWrite. Since XyWrite is not compatible with other Windows software, 
moving away from it will allow the offices to use more modern 
technologies for all functions. Other Senate offices that do drafting 
with XyWrite may begin using LEXA, including the Committee on 
Appropriations.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and re-verified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

    Senator Landrieu. Thank you very much. And, I do have a few 
questions. And, what we're going to try to do is to finish this 
portion of the hearing in about 10 or 15 minutes, and then go 
on to the Library of Congress. We may have votes called, but 
we're going to try to complete the hearing before 11 o'clock, 
if we can.

                             PRIMARY GOALS

    Let me ask you, Madam Secretary, what are your three 
primary goals in your tenure? I'm sure you've had some time now 
to think about the three things that you would like to 
accomplish as your personal goals, on what you can leave, or 
contribute during your time. Just list them for the 
subcommittee if you would.
    Ms. Erickson. First of all, I'd like to build on the strong 
leadership of my predecessor, Emily Reynolds. But three things 
that immediately come to mind, I want to continue to push more 
information to the web, as I mentioned in my statement. I'd 
like our Stationery Room to offer e-commerce options to Senate 
offices. I think that Senate office administrators could find 
that it would be beneficial to them to be able to purchase 
office supplies online from our Stationery Room.
    In addition, I'd like to revamp our Secretary's website to 
push more information onto Webster to make it easier for the 
Senate community to access and understand the services that we 
provide.
    Second of all, my predecessor spent a great deal of time 
working on continuity of operations planning. And, that's 
something that I want to build on, not only continuity of 
operations planning, but continuity of Government planning. I 
hope we never become complacent in our preparations, and that 
we will always be ready in a minute's notice to support the 
Chamber under any circumstance.
    It also relates to our Senate Disbursing Office. We 
practice at least once a year with the Sergeant at Arms from a 
remote location, making sure that we can process our payroll 
and vouchers for Senate offices. And, that's something that I'd 
really like to step up, to do more than once a year.
    And my third goal is to implement the paperless voucher 
system, another program that I think would be extremely popular 
for office administrators. My understanding is that the project 
is at a critical stage. We're working with our oversight 
committee, the Rules and Administration Committee, to work out 
issues related to electronic signatures.
    Those are my three goals.
    Senator Landrieu. Well, let me encourage you along all 
three goals that you've outlined, and particularly the second 
one. Having gone through, of course the recent and still very 
harsh experience of Hurricane Katrina, having to watch 
governments, to maintain their integrity in very desperate 
circumstances, and having had the experience of 9/11. It is a 
very, very important aspect of your work, to be able to 
maintain the functions of this Senate under any and all 
circumstances. And, I would imagine that the bulk of that work 
falls on your shoulders, the responsibility along with, of 
course, whatever, the military and the Capitol Police could 
bring to bear to that situation. So, I want to thank you.

                        SENATE EMPLOYMENT STUDY

    Let me ask just about the Senate employment study. Are you 
in the process of such a study? Our employees are working long 
hours and weekends. Have we completed our pay study, which was 
authorized by this subcommittee? Can you give us some detail 
about the outcome of that study?
    Ms. Erickson. I'd be happy to do so.
    Your subcommittee appropriated, I believe, $80,000 for the 
Office of the Secretary to complete a pay study. We 
competitively bid the project to a contractor who conducted a 
survey. It's my understanding 81 Senate offices participated in 
the payroll survey. They were asked such questions related to 
not only the rate of pay for employees and their benefits, but 
also to the organizational structure of their respective 
office.
    The results were compiled, analyzed, and a report was 
distributed to every Member office, and committee in June of 
last year. This past January, we provided a follow-up report to 
Senate offices that provided a comparison of Senate and House 
salaries. It was warmly received by the Senate community, 
particularly the offices of new Members who were in the process 
of hiring staff. And, I'd be happy to provide you with a 
written copy of the report if you'd like additional details of 
the study.
    [The information follows:]

                            SALARY COMPARISON FOR SIMILAR POSITIONS IN THE U.S. SENATE AND THE U.S. HOUSE OF REPRESENTATIVES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Number of                                              25th         50th         75th
                Position                        Chamber         Positions     Minimum      Average      Maximum     Percentile   Percentile   Percentile
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chief of Staff.........................  Senate..............           84     $114,000     $151,767     $160,659     $147,000     $157,150     $160,659
Chief of Staff.........................  House...............          125      $87,000     $129,736     $160,000     $116,000     $130,000     $148,500
Legislative Director...................  Senate..............           77      $85,000     $116,952     $160,659     $102,186     $120,000     $127,830
Legislative Director...................  House...............          100      $42,000      $76,490     $120,000      $67,000      $77,750      $85,000
Counsel................................  Senate..............           61      $42,000      $95,210     $155,000      $75,500      $95,000     $110,865
Counsel................................  House...............            7      $62,400      $83,771     $130,000      $65,000      $80,000      $89,000
Director of Special Projects and/or      Senate..............           51      $24,000      $52,995     $103,000      $37,324      $49,825      $65,000
 Grants.
Grants and Projects Coordinator........  House...............           18      $22,000      $48,949      $67,000      $37,250      $54,500      $60,837
Legislative Assistant..................  Senate..............          406      $34,000      $66,789     $150,000      $52,000      $65,000      $77,580
Legislative Aide.......................  House...............          164      $28,000      $43,433      $76,500      $36,000      $41,000      $50,000
Legislative Correspondent..............  Senate..............          348      $20,000      $32,802      $75,000      $29,000      $32,000      $36,000
Legislative Correspondent..............  House...............           71      $25,000      $31,807      $43,000      $29,000      $31,000      $34,000
Communications Director................  Senate..............           69      $52,000      $95,050     $160,659      $82,752      $94,620     $104,500
Press Secretary/Communications Director  House...............           87      $32,000      $58,756     $125,000      $45,000      $55,000      $68,250
 \1\.
Press Secretary........................  Senate..............           80      $40,000      $66,027     $110,784      $54,000      $63,000      $76,169
Press Secretary/Communications Director  House...............           87      $32,000      $58,756     $125,000      $45,000      $55,000      $68,250
 \1\.
Executive Assistant....................  Senate..............           58      $29,000      $68,060     $121,000      $50,259      $68,750      $81,625
Executive Assistant....................  House...............           30      $15,000      $51,257     $107,000      $39,000      $48,750      $63,875
Scheduler (Washington, D.C.)...........  Senate..............           74      $28,500      $63,634     $128,000      $50,000      $59,698      $75,000
Scheduler (Washington, D.C.)...........  House...............           46      $24,000      $48,394      $99,000      $37,875      $46,350      $55,625
Systems Administrator..................  Senate..............           77      $24,000      $60,955     $105,000      $50,000      $60,000      $75,420
Systems Administrator..................  House...............           11      $20,000      $39,898      $62,000      $31,000      $40,000      $45,500
Administrative Director/Office Manager.  Senate..............           68      $31,500      $78,266     $149,700      $67,006      $78,000      $89,500
Office Manager.........................  House...............           39      $21,000      $52,922     $107,200      $36,000      $50,000      $64,000
Receptionist/Staff Assistant \2\.......  Senate..............          325      $10,712      $29,664      $72,000      $25,860      $28,000      $31,027
Staff Assistant (Washington, D.C.).....  House...............           86      $18,000      $29,872      $71,000      $25,000      $28,000      $30,000
Staff Assistant (District).............  House...............           77      $16,006      $30,883      $79,966      $25,000      $28,500      $33,000
Constituent Services Representative/     Senate..............          398      $21,000      $38,631      $84,821      $31,000      $36,204      $44,092
 Caseworker.
Constituent Services Representative/     House...............          231      $13,500      $40,814     $115,000      $31,000      $40,000      $46,500
 Caseworker.
State Director.........................  Senate..............           75      $60,000     $104,748     $160,659      $90,000     $103,500     $116,248
District Director......................  House...............           72      $39,200      $78,526     $150,000      $63,000      $77,841      $91,000
Field Representative...................  Senate..............          340      $19,000      $50,742     $104,000      $41,000      $49,100      $60,000
Field Representative...................  House...............          100      $25,000      $46,508      $75,000      $37,125      $45,000      $55,000
State Scheduler........................  Senate..............           48      $28,500      $49,886      $89,000      $38,000      $46,500      $61,217
District Scheduler.....................  House...............           34      $28,000      $46,366      $80,000      $33,000      $43,500      $61,065
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The House study did not distinguish between Communications Director and Press Secretary. House data for these positions reflect the combined Press
  Secretary/Communications Director position.
\2\ The Senate study did not distinguish between Staff Assistants in Washington, D.C. and State offices, while the House study did make this
  distinction.
81 offices participated in the Senate study and 141 offices participated in the House study.
 
Sources:
2006 U.S. Senate Employment, Compensation, Hiring and Benefits Study, Office of the Secretary of the Senate (June 28, 2006).
2006 House Compensation Study: Guide for the 110th Congress, Chief Administrative Office, U.S. House of Representatives (November 13, 2006).

    The 2006 U.S. Senate Employment, Compensation, Hiring and 
Benefits Study--June 28, 2006 is available on the web at: 
http://webster.senate.gov/library/catalogs/PDF/
senate_compensation_report_FINAL_7-26-06.pdf

    Senator Landrieu. Okay, I would. And we won't go into the 
details now, but I'm going to review it to see what we can do 
to make sure that our workforce remains competitive.

                   STUDENT LOAN REIMBURSEMENT PROGRAM

    And, one other question, then I'll turn it over, the 
student loan reimbursement program is something that's just 
recently come to my attention. I understand that there's a 
program that works in a way that allows staffers--I'm not sure 
if it's just for Members' offices, or for anyone in the 
Senate--to see a reduction in student loans to help some of the 
young, I would imagine, younger employees coming in. Can you 
give me an update about that program and if it's based on need? 
Or is it distributed equally to the States based on population, 
or just request?
    Ms. Erickson. It's a program run through our Senate 
Disbursing Office, and I believe the funding is based on 2 
percent of the administrative and clerical portion of the 
Member's account, 2 percent of the account of all others. I'd 
be happy to have Chris Doby follow-up with you on details of 
that. It's my understanding that 96 percent of our 140 Senate 
accounting locations, which includes Senate offices, 
committees, Secretary of the Senate, and Sergeant at Arms 
offices participate in the program. We have approximately 1,100 
employees that are participating in the program. In 
conversations that I've had with Senate office administrators, 
they tell me that it's been an important tool for not only 
attracting staff, but also retaining staff in their offices.
    Senator Landrieu. Thank you.
    Senator Allard.
    Senator Allard. Again, Nancy, I'd like to congratulate you 
on your position.
    Coming to the office, what do you view, at this point, your 
greatest challenges to be?
    Ms. Erickson. I would say maintaining a high level of 
customer service. And, I would say, speaking from someone who 
worked in a Senate office for 16 years and 2 years in a 
Sergeant at Arms office, I think it's easy to take for granted 
the services that Secretary of the Senate, and for that matter, 
the Sergeant at Arms provides. And the staff, for the most 
part, works quietly behind the scenes, but their work is 
critical, for, in----
    Senator Allard. Is there any particular area you can think 
of that we need to work on?
    Ms. Erickson. Not an area, I don't see any glaring 
problems, Senator. I think our biggest challenge is just 
maintaining and meeting the high demands that the Senate 
community should justifiably expect from us.
    Senator Allard. I think technology changes would be the 
challenge.
    Ms. Erickson. Right. And continuing to move information, as 
I said, that's one of my priorities, to move more and more 
information to the web.

                                WEBSTER

    Senator Allard. Now, Webster, that's the intranet. Is that 
completely blocked off from the Internet or do people outside 
the Senate have access to Webster?
    Ms. Erickson. Yes, Webster is an internal site.
    Senator Allard. So it's completely walled off?
    Ms. Erickson. Right.
    Senator Allard. Okay.

                            MERIT INCREASES

    You mentioned in your testimony, you wanted some funding 
for merit increases. How do you go about determining whether 
somebody qualifies for a merit increase? Do you have a set 
protocol that you use?
    Ms. Erickson. We do. Our human resource director oversees 
that merit program and works closely with our department 
directors. There are rigorous goals that people have to meet in 
order to be eligible for a merit increase. But, it's something 
that we like to have to reward people who, in our opinion, have 
gone above and beyond what is expected of them to help the 
Senate community.
    Senator Allard. Are you having to use merit increases to 
get qualified people into the job? Do you see what I'm saying? 
The standard base pay may not be quite enough----
    Ms. Erickson. Right.
    Senator Allard [continuing]. So they say, ``Well, you're 
here 6 months, we'll be able to provide some substantial merit-
based ----''
    Ms. Erickson. Exactly. Well, it is an important recruiting 
tool, and an incentive for people that know that that may be 
available if they exceed expectations. So, it has been an 
important tool to not only attract, but to retain talented 
staff who have many options--particularly, Senator, people in 
the technology field which is very competitive in the private 
sector, and so that's been an important tool for us to keep 
quality people.
    Senator Allard. When you use the merit system, do you use 
more than just longevity as the standard?
    Ms. Erickson. Correct, exactly.
    Senator Allard. Okay, and how often are you having to use 
the merit pay? Do most employees qualify, or 10 percent, or 20 
percent?
    Ms. Erickson. I don't have that data with me, Senator. I'd 
be happy to provide that to you in writing.
    Senator Allard. I think that would be of interest.
    Ms. Erickson. I'd be happy to do that.
    Senator Allard. Okay, very good.
    [The information follows:]
                              United States Senate,
                                   Office of the Secretary,
                                      Washington, DC, May 23, 2007.
The Honorable Wayne Allard,
Ranking Member, Appropriations Subcommittee on the Legislative Branch, 
        United States Senate, Washington, D.C. 20510.
    Dear Senator Allard: Thank you for the courtesies you extended to 
me during my testimony before your Subcommittee earlier this month. I 
appreciated the opportunity to discuss the work of the Secretary's 
office and our plans for the upcoming year. You had requested 
additional information regarding the merit program employed by the 
Office of the Secretary, and I hope the information provided below 
adequately addresses any questions you may have.
    In September 1997, the office developed and implemented an Employee 
Feedback and Development Plan (EFDP), which is a formal merit review 
program. Each staff member is provided annually with specific 
performance objectives on which their performance will be evaluated 
throughout the year. Staff members are evaluated on factors such as 
quality of work, initiative, resourcefulness, dependability, 
reliability, and communication skills. In addition, managers are 
evaluated on their leadership skills, decision making, and ability to 
plan, schedule and budget the needs of their departments. To facilitate 
communication between managers and their staff, managers are encouraged 
to meet with each staff member quarterly to discuss progress, specific 
projects and any issues that may impede the employee's progress 
throughout the year.
    Our Human Resources Office administers the program and works 
closely with me and my executive staff to determine our annual merit 
budget, which usually ranges from three to five percent of our overall 
salary budget. All staff are evaluated in September each year with the 
potential for a performance-based merit increase awarded in October. 
Increases range from zero to the maximum percent the Secretary 
approves, and they are based on the employee's performance as 
documented in the EFDP by the employee's manager.
    As is the case with other employee-centered programs offered by the 
Office and the Secretary the goal of the EFDP is to develop, motivate 
and retain the highest caliber professional staff to serve the needs of 
the Senate.
    I will be happy to provide you with any other information you may 
need about this merit review program.
                                            Nancy Erickson,
                                           Secretary of the Senate.

                             CROSSTRAINING

    Senator Allard. I was pleased to see you worked on 
crosstraining. I think that's efficient--somebody's absent, 
have somebody else step in and carry on their responsibilities. 
So, I want to compliment you on focusing on crosstraining.
    Ms. Erickson. I appreciate that.
    Senator Allard. You obviously want to have your experts in 
various areas, but if for some reason or other they can't make 
it to work, you have people who can fill in.
    Ms. Erickson. Exactly. And, you'll notice that at the 
rostrum in the Senate Chamber, the faces change periodically 
for that very purpose, to make sure that people understand, can 
step in and do someone else's duty.
    Senator Allard. Very good.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you. That finalizes the questions 
that I have. I just want to state for the record that I'd like 
to focus some of my attention, Madam Secretary, on the quality 
of the Capitol tours, and talk with you about that, and about 
the access to Senate recordings through web-based technologies. 
And, I want to continue to pursue that. To make sure that our 
pay and payroll are adequately supporting a first-class 
professional staff for the Senate. Your plans in terms of 
disaster preparedness and emergency preparedness are extremely, 
extremely important.
    And, then as we open this new Capitol Visitor Center, as I 
said before, despite all the problems that we've had which have 
been well publicized, it really is an extraordinary space, that 
I think is going to be a great gift to the American people.
    And, we want to make sure that the statues and artwork 
reflect the true contributions of all Americans, even those who 
contributed a great deal in the early part of our country, 
women and minority Americans that weren't, by virtue of their 
sex or gender, even able to run for an office here. But, they 
nonetheless, contributed greatly to the work of this Capitol 
and what this Capitol represents. So, I'm looking forward to 
working with you and others.
    And, if that is--Senator Allard, do you have anything else?
    Senator Allard. I don't.
    Senator Landrieu. Okay. Thank you very much.
    Ms. Erickson. Thank you very much.
                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY JO ANN JENKINS, CHIEF OPERATING OFFICER

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Dr. Billington, if you will come forward.
    Thank you Dr. Billington, and welcome. We are very pleased 
to have you here this morning and recognize your 20th year as 
the Librarian of Congress. Your budget request is $652 million, 
which is an increase, roughly, of about $100 million, or 19 
percent, above the current year. Your request includes $45 
million for the construction of a new logistics facility at 
Fort Meade. Of course you know, the Architect of the Capitol 
(AOC) did not include this among his many priorities, so we 
want to hear some testimony from you about why you believe this 
is a high priority.
    There are several other large items in your request, such 
as $21 million to restore funding for the National Digital 
Information Infrastructure Preservation Program and $19 million 
for the first of four installments of the Digital Talking Book 
Program, which I know has support from members of the visually 
impaired community throughout the country. This is a very 
important, significant investment in the future of audio book 
programs. We want to make sure we use our resources wisely, and 
take advantage of the absolute best technology available.
    As I've said in previous hearings, and it bears repeating 
today, I think the subcommittee is going to really struggle 
with reaching some of these requests. And, I don't want to 
mislead you in any way, however, we do want to give you an 
opportunity, obviously, to state your best case and to ask you 
questions about it. And, please don't interpret that these 
comments in any way indicate that this Chair doesn't support 
the great work that you do. But we have budget constraints that 
we're under and we just need to really focus on some of these 
extra requests.
    Senator Allard.
    Senator Allard. I don't have any comment. I'd like to hear 
Dr. Billington's testimony.
    Senator Landrieu. Thank you.
    Dr. Billington.

                   OPENING STATEMENT OF THE LIBRARIAN

    Dr. Billington. We have a fuller submission for the record, 
but I appreciate the opportunity to present briefly the Library 
of Congress' 2008 budget request, and to thank the Congress for 
creating and sustaining the largest and most wide-ranging 
collection of knowledge in human history, a great record of 
American creativity and a distinct world leadership role for 
education on the Internet.
    The Library's request includes four critical priorities. 
The first--and the largest part of our increase, nearly one-
half--is simply to sustain current services by funding 
mandatory pay raises and unavoidable price level increases.
    We're currently doing a very great deal more work than 15 
years ago, before we began superimposing the digital on the 
analog universe, but with 640 fewer full-time employees. If 
mandated pay raises are not fully funded, we will almost 
certainly have to cut back on some services.

                     LOGISTICS CENTER AT FORT MEADE

    Because of the life, safety, and environmental conditions 
of our present Landover center, we are forced, once again, to 
request funding for a logistics center at Fort Meade--but at a 
reduced level, that is $12.2 million less than was submitted 
through the Architect of the Capitol's budget last year.

                         DIGITAL TALKING BOOKS

    There's a special importance to the next two priorities, 
which are key elements in the digital transformation of the 
Library. After 10 years of planning and research, we must 
launch, this year, our 4-year initiative to modernize access to 
reading for the blind and physically handicapped.
    Blind people read, on average, 35 books a year--many more 
than sighted people. They depend heavily on the Library of 
Congress' unique collection, particularly of talking books, 
which is equivalent in size to a mid-sized public library. And 
it is made available free of charge through local libraries all 
over America. But it needs long-discussed, new digital players 
that can replace cassette-type players which are nearing 
obsolescence, and also a new mechanism for distribution--flash 
memory cartridges.

                              ACQUISITIONS

    Finally, there is an urgent need to shore up the first and 
most basic need of any library, which is acquisitions. This is 
particularly true for the National Library, which is--in many 
ways--the strategic information reserve of the United States. 
It's a treasure chest of material not preserved anywhere else, 
at a time when more and more of our economic competitiveness, 
our basic security, and our civic health depend on accurate 
information.
    We need a $2 million increase in our basic book budget, 
which has been steadily eroded in purchasing power.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                               RESCISSION

    We must have the minimal funds needed to sustain our 
congressionally mandated role of leading a national program by 
forming a network of private and public partners to set 
national standards for preserving the exploding world of 
material available only in highly perishable digital form, and 
begin sorting out and preserving what's most important.
    Congress was farsighted in the year 2000, appropriating 
$100 million in no-year funding to create the National Digital 
Information Infrastructure and Preservation Program, known as 
NDIIPP, and requiring that $75 million of the Federal 
appropriation be matched by partners. The NDIIPP Program is the 
most sweeping strategic change that this Library has undertaken 
in its entire 207-year history. For the first time ever, we are 
transforming the way we collect and preserve content, and 
sharing stewardship responsibility and cost with trusted 
partners. Without significant restoration of the funds that 
were rescinded this year, we will be unable to continue to 
build the network at a time when networks are the way of 
working for the future. If we let this initiative end now, we 
will not be able to resurrect it later.
    Forty-seven million dollars--nearly one-half of the 
original $100 million appropriation--was rescinded, and an 
additional $37 million was lost in matching funds promised from 
more than 50 network partners. Faced with the prospect of the 
$84 million overall loss for this program, we have carefully 
scrubbed our request for restoration down to the bare essential 
of $21.5 million.
    The loss of the NDIIPP funds would have long-term 
consequences for the Library's ability to preserve materials of 
importance for our economy and security, as well as the record 
of our culture, which is increasingly recorded now, only in 
digital form.
    We need this program to serve the growing information needs 
of the Congress, and to keep us from drifting toward a slippery 
slope, in which the Library would become just a museum of the 
book on Capitol Hill, rather than the backbone of a dynamic 
network for preserving and making useful for our Nation, new 
digital as well as traditional analog material.

                         WORKING WITH PARTNERS

    Louisiana has been a major focus of NDIIPP partners who 
have worked with archivists and librarians across the country 
to identify hundreds of websites documenting aspects of the 
Katrina tragedy. These websites, as preserved, will give us all 
information needed to better understand this tragedy, and to 
improve our country's response to future natural disasters.
    In emergencies such as Katrina, we provided information to 
Congress and salvage training in the affected region. This very 
week, when we heard that the Georgetown branch of the D.C. 
Public Library was ablaze, our preservation staff responded 
immediately, helping locate freezers in which to store books 
until they can be treated, providing guidance on next steps to 
save the collections.

                          PREPARED STATEMENTS

    We deeply appreciate, Madam Chairman, the support that 
Congress has given the Library over the years--for preserving 
and making accessible our massive written and printed 
collections, as well as our unequaled audiovisual collections, 
which are now acquiring their permanent preservation center 
with the capacity to store 25 years' more accumulation at 
nearby Culpeper, Virginia, thanks to funding from the Packard 
Humanities Institute, the largest private donation, by far, 
ever made to the Library of Congress. We need to do the same 
for digital material together with our private and public 
network of partners.
    I'm prepared to answer your questions.
    Senator Landrieu. Thank you, Dr. Billington.
    [The statements follow:]
               Prepared Statement of James H. Billington
    Madam Chairwoman, Senator Allard, and other members of the 
Subcommittee: I appreciate the opportunity to appear before you today 
to discuss the past accomplishments and future goals of the Library of 
Congress in the context of our fiscal year 2008 budget request. I ask 
for your continued support to ensure that the Library maintains its 
prestigious place as the world's largest repository of human knowledge 
and the main research arm of the United States Congress.
    With all the distinction that this institution has achieved in the 
print world, it now faces the unprecedented challenge of sustaining its 
leadership amidst the revolutionary changes of the digital world. 
Information-seekers have many ways of finding what they need, but they 
are often overwhelmed or misled by the profusion of unfiltered and 
sometimes inaccurate information on the Internet. The Library of 
Congress is redefining its role in this new environment.
    The budget request we have submitted to you includes the following 
basic assumptions:
  --There is no change in the Library's historic mission of acquiring, 
        preserving, and making its materials accessible and useful to 
        the Congress and the nation. But the amount of information and 
        the explosion in the number of creators are driving the 
        greatest revolution in the generation and communication of 
        knowledge since the advent of the printing press. The Library 
        must seamlessly blend new digital materials into the 
        traditional artifactual collections so that knowledge and 
        information can be objectively and comprehensively provided by 
        a fully integrated library.
  --The Library of Congress must continue to build comprehensive, 
        world-wide collections in all formats so that Members of 
        Congress, scholars, school students, and the American people 
        will have access to valid, high-quality information for their 
        work, their research, and their civic participation.
  --The Library must actively seek new and innovative ways to 
        recognize, highlight, and celebrate the knowledge and 
        creativity that the Congress has charged us to preserve for 
        more than 200 years.
  --A comprehensive institutional workforce transformation will be 
        required for staff to continue providing the highest levels of 
        service to the Congress and to the public. The Library has 
        developed an agency-wide framework for program assessment of 
        every division and support office. Congressional support has 
        already enabled us to reengineer copyright functions and to 
        create a state of the art National Audiovisual Conservation 
        Center. We are developing new roles for key staff to become 
        objective ``knowledge navigators'' who can make knowledge 
        useful from both the artifactual and the digital world.
                      the library and its programs
    The Library of Congress is the world's largest repository of human 
knowledge and the main research arm of the United States Congress. It 
directly serves not only the Congress, but the entire nation with the 
most important commodity of our time: information. The Library's 
diverse programs sustain its responsibility to foster a free and 
informed society by building, preserving, and providing resources for 
human creativity, wisdom and achievement. Through these programs, the 
Library strives to place its resources at the fingertips of our elected 
representatives, the American people, and the world for their mutual 
prosperity, enlightenment, and inspiration.
    The Library of Congress collections are made up of approximately 
135 million artifactual items in more than 470 languages including: 32 
million books (among them more than 5,000 printed before the year 
1500); 14 million photographs and other visual items; 5.3 million maps; 
2.8 million audio materials; 981,000 films, television, and video 
items; 5.5 million pieces of music; 59.5 million manuscripts; and 
hundreds of thousands of scientific and government documents.
    Under the Library's four major appropriations, the Library funds 
the following major services:
Library of Congress, S&E
    Acquisitions.--The Library staff adds more than 13,000 items to the 
collections every day. The Library collects not only regularly 
published materials, but also reports that have limited distribution, 
international ephemera that illuminate other cultures and socio-
political movements, and special collections that have been carefully 
assessed and selected by our curators. The collections, and the 
information they contain provide important support for the many 
services the Library provides to the Congress and the nation.
    Cataloging.--The Library produces bibliographic records and related 
products and develops policy and standards for libraries and 
bibliographic utilities in all fifty states, the District of Columbia, 
and territories--cataloging more than 345,000 books and serials in 
fiscal year 2006--services that save America's libraries millions of 
dollars annually (the money it would cost them if they had to catalog 
the books and other materials themselves).
    Research and Reference.--The Library responds to, at no cost to 
users, nearly one million information requests a year from across the 
nation, including more than 500,000 in-person requests in the 20 
reading rooms open to the public in Washington, D.C. In addition, the 
Library responds to some 56,000 interlibrary loan requests from across 
the nation and more than 25,000 requests for book loans from the 
Congress each year.
    Online Access Services.--The Library is at the forefront of 
providing comprehensive online digital access services, the conversion 
of analog materials into digital form, Web archiving, the provision of 
the Library's web based digital library services, and education 
outreach services that encourage use of the Library's online primary 
sources. The Library's online presence during 2006 resulted in 5 
billion hits. There are now more than 22 million digital items 
represented on the Library's web sites, including materials digitized 
from the collections and exhibitions, program activities, and 
interpretive information. Over half of these digital items reside in 
the Library's virtual historical collections, American Memory. The 
Library's web site offers electronic versions of many resources of 
historical research and educational value that no other institution 
provides. In addition, the Library already has captured a total of 56 
terabytes of content from the Web, and this volume continues to grow 
significantly. This total represents more than 1 billion documents 
downloaded from the Web, the equivalent of digital text information 
from more than 55 million books (1 megabyte per book of text only).
    American Creativity.--The Library manages the largest, most varied, 
and most important archival collection of American creativity--
including motion pictures, sound recordings, maps, prints, photographs, 
manuscripts, music, and folklore covering a wide range of ethnic and 
geographic communities. The Library provides reference assistance to 
researchers and the general public, conducts field research, and 
promotes the preservation of American culture throughout the United 
States.
    Preservation.--The Library develops and manages a program to 
preserve the diverse materials and formats in the Library's 
collections. The program provides a full range of prospective and 
retrospective preservation treatment for hundreds of thousands of items 
a year, conducts research into new technologies, emphasizes prevention 
techniques including proper environmental storage and training for 
emergency situations, conserves and preserves materials, and reformats 
materials to more stable media. The Library plays a key role in 
developing national and international standards that support the work 
of federal, state, and local agencies in preserving the nation's 
cultural heritage.
    Reading Promotion and Outreach.--The Library promotes books, 
reading, and literacy through the Library's Center for the Book, its 
affiliated centers in fifty states and the District of Columbia, and 
nearly one hundred national organizational partners. The Library 
encourages knowledge and use of its collections through other outreach 
programs (cable TV, lectures, publications, conferences and symposia, 
exhibitions, poetry readings--all primarily supported by private 
funding) and through the Library's virtual presence on the Web. The 
Library also gives some 90,000 surplus books annually to qualified 
libraries and nonprofit educational institutions through its nationwide 
donation program.
    Digital Initiatives.--The Library oversees and coordinates cross-
institutional digital initiatives, including the National Digital 
Information Infrastructure and Preservation Program (NDIIPP). The 
vision of NDIIPP is to ensure access over time to a rich body of 
digital content through the establishment of a national network of 
committed partners, collaborating in a digital preservation 
architecture with defined roles and responsibilities.
    Law Library.--The Law Library program provides direct research 
service to the Congress in international and comparative law. It serves 
as the National Law Library. In addition to Members and Committee 
staffs of the Congress and the Congressional Research Service, the Law 
Library provides officers of the legislative branch, Justices of the 
Supreme Court and other judges, members of the Departments of State and 
Justice, and other federal agencies with bibliographic and 
informational services, background papers, comparative legal studies, 
legal interpretations, and translations. In support of this mission, 
the Law Library has amassed the largest collection of authoritative 
legal sources in the world, including more than 2.5 million volumes as 
well as almost 134,000 digital items. As its congressional priorities 
permit, the Law Library makes its collections and services available to 
a diverse community of users--the foreign diplomatic corps, 
international organizations, members of the bench and bar, educational 
institutions, non-governmental libraries, legal service organizations, 
and the general public--directly serving more than 100,000 users 
annually and offering information to the global public through its 
online services, including its Global Legal Information Network (GLIN).
Copyright Office, S&E
    The Copyright Office (CO) administers the U.S. copyright laws, 
provides copyright policy analysis to the Congress and executive branch 
agencies, actively promotes international protections for intellectual 
property created by U.S. citizens, and provides public information and 
education on copyright. In fiscal year 2006, the CO registered almost 
521,000 claims to copyright, accompanied by more than 825,000 deposit 
copies of work; transferred more than 1.1 million registered and non-
registered works to the Library, valued at more than $41.2 million; 
recorded 13,016 documents containing more than 350,000 titles; logged 
more than 31 million external electronic transactions to its web site; 
responded to nearly 339,000 in-person, telephone, and email requests 
for information; and collected $227 million in royalty fees and 
distributed more than $191 million in royalties to copyright owners. 
Registration fees and authorized reductions from royalty receipts fund 
almost half of the CO. Copies of works received through the copyright 
system form the core of the Library's immense Americana collections, 
which provide the primary record of American creativity.
    The Copyright Royalty Board (CRB), which is comprised of three 
Copyright Royalty Judges and their staff, administers the copyright 
statutory license and determines the rates and terms for the purpose of 
(a) distributing hundreds of millions of dollars in royalties that are 
collected under various compulsory license provisions of the copyright 
law, and (b) adjusting the royalty rates of these licensing provisions. 
The CO currently provides administrative support to the CRJs in budget 
preparation and human resource management.
Congressional Research Service, S&E
    The Congressional Research Service (CRS) assists all Members and 
committees of the Congress with its deliberations and legislative 
decisions by providing objective, authoritative, non-partisan, and 
confidential research and analysis. As a shared resource, serving the 
Congress exclusively, CRS experts work alongside the Congress 
throughout all stages of the legislative process and provide integrated 
and interdisciplinary analyses and insights in all areas of legislative 
activity. These services are provided by confidential individual policy 
consultations and memoranda; analytical reports; seminars; and a secure 
CRS web site available to the Congress. In 2006, CRS delivered more 
than 933,000 research responses and services.
Books for the Blind and Physically Handicapped, S&E
    The National Library for the Blind and Physically Handicapped (NLS/
BPH), manages a free national reading program for more than 794,000 
blind and physically handicapped people--circulating, at no cost to 
users, approximately 25 million items in fiscal year 2006. A 
cooperating network of 131 regional and sub-regional (local) libraries 
distribute the machines and library materials provided by the Library 
of Congress. The U.S. Postal Service receives an appropriation to 
support postage-free mail for magazines, books, and machines which are 
sent directly to readers. Reading materials (books and magazines) and 
playback machines are sent to a total readership of 794,000 comprising 
more than 500,000 audio and braille readers registered individually, in 
addition to more than 200,000 eligible individuals located in 32,000 
institutions.
             the library's fiscal year 2008 budget request
    As the Library's budget was submitted prior to the enactment of the 
fiscal year 2007 full-year continuing resolution, the fiscal year 2008 
request is based on the total fiscal year 2006 operating level. As a 
result, the fiscal year 2008 budget request is unique in that it 
includes (1) adjustments for fiscal year 2007 and fiscal year 2008 
mandatory pay and price level increases, (2) the resubmission of most 
fiscal year 2007 program increases, and (3) several new fiscal year 
2008 program increases. This request covers two years of costs needed 
to keep the Library on schedule with its programs.
    In fiscal year 2008, the Library requests a total budget of 
$703.339 million ($661.616 million in net appropriations and $41.723 
million in authority to use receipts), which is an increase of $99.716 
million above the fiscal year 2007 (2006) level. The total includes 
$43.9 million for the construction of the Library of Congress Fort 
Meade Logistics Center, proposed for transfer to the Architect of the 
Capitol. Funding also includes $45.947 million in mandatory pay and 
price level increases and $28.118 million in program increases 
(excluding the $43.9 million for the Logistics Center), offset by 
$18.249 million in non-recurring costs.
    The requested funding supports 4,244 full-time equivalents (FTEs), 
a net decrease of 58 FTEs below the current authorized level of 4,302.
    Fiscal year 2008 funding is allocated as follows:
  --Library of Congress, S&E ($467.452 million/2,888 FTEs), which 
        includes:
    --National Library ($324.294 million/2,259 FTEs);
        --National Library--Basic
        --Purchase of Library Materials (GENPAC)
        --Office of Strategic Initiatives
        --Cataloging Distribution Service
  --Law Library ($13.394 million/101 FTEs)
  --Management Support Services ($129.764 million/528 FTEs)
  --Copyright Office, S&E ($51.562 million/523 FTEs)
  --Congressional Research Service, S&E ($108.702 million/705 FTEs)
  --Books for the Blind and Physically Handicapped, S&E ($75.623 
        million/128 FTEs)
                    the library's funding priorities
Mandatory Pay and Price Level increases
    The Library is requesting an additional $45.947 million to maintain 
current services. This is the amount needed to support the 
annualization of the fiscal year 2006 pay raise, the fiscal year 2007 
pay raise and annualization in fiscal year 2008, the fiscal year 2008 
pay raise, within-grade increases, and unavoidable inflation and vendor 
price increases for the period fiscal year 2007-2008. These funds are 
needed simply to sustain current business operations and to prevent a 
reduction in staff that would severely affect the Library's ability to 
manage its programs in support of its mission and strategic objectives.
Unfunded Mandates
    The Library is requesting $2.005 million for one unfunded mandate: 
the Department of State (DOS) Capital Security Cost-Sharing Program.
    In fiscal year 2005, the DOS, mandated by the executive branch, 
began its 14-year program to finance the construction of approximately 
150 embassy compounds, requiring increasing contributions from all 
agencies with an overseas presence, including the Library. The 
Library's yearly assessment was $1.2 million in fiscal year 2005 and 
$2.4 million in fiscal year 2006-2007. The proposed increase for fiscal 
year 2008 is $2.005 million. If funding is not provided for the next 
phase of the program, the Library will have insufficient resources to 
operate its overseas offices. This would result in the curtailment--and 
in some cases, termination--of international acquisitions programs in 
areas that are of increasing importance to the nation (Brazil, Egypt, 
Kenya, India, Pakistan, and Indonesia).
Major Ongoing Projects
    The Library is requesting a net total of $1.771 million for three 
ongoing major projects that are either in their last year of 
development or on a time-sensitive schedule that must be maintained if 
the entire project is to succeed.
  --Acquisitions (GENPAC/Electronic Materials).--Advances in technology 
        have opened opportunities for the Library to acquire materials 
        from parts of the world about which, until recently, there had 
        been little access to primary sources. National interest, 
        especially with respect to security and trade, dictates that we 
        acquire emerging electronic publications and other difficult-
        to-find resources that document other cultures and nations. The 
        GENPAC appropriation, which funds the purchase of all-important 
        current collections materials, declined precipitously in its 
        purchasing power during the 1990s. Consistent with our previous 
        budget request for a multi-year, $4.2 million base increase to 
        the GENPAC budget, the Library is requesting the next 
        incremental adjustment of $2 million, which will bring the 
        total base adjustment up to $3.3 million. Funding is needed to 
        help keep pace with the greatly increased cost of serial and 
        electronic materials, that risks eroding the comprehensiveness 
        and value of the Library's collections.
  --National Audio-Visual Conservation Center (NAVCC), Culpeper, VA.--A 
        five-year plan for the completion of NAVCC was included in the 
        Library's fiscal year 2004 budget. Fiscal year 2008 represents 
        the fifth year in the Library's five-year cost model, which is 
        adjusted annually to align with shifts in the construction 
        schedule of the Packard Humanities Institute and the Library's 
        occupancy schedule. In 2007, construction will be completed; 
        the entire property transferred to the government; staff 
        relocations will begin; and digital preservation equipment and 
        systems will be purchased and integrated into the conservation 
        facility. Funding is needed in fiscal year 2008 to continue 
        purchasing equipment for the facility as well as for operations 
        support. The fiscal year 2008 total funding of $13.617 million 
        reflects a net decrease of $1.429 million and 5 FTEs from the 
        base.
  --Global Legal Information Network (GLIN).--The Law Library's GLIN is 
        a multinational, cooperative legal database with members of the 
        network representing countries in Africa, Asia, Europe, and the 
        Americas. In fiscal year 2003, the Congress provided the 
        Library with a five-year appropriation to implement the 
        technical upgrade, to digitize and incorporate retrospective 
        legal material, and to engage in targeted recruitment to expand 
        the diversity and number of nations contributing legal 
        materials to the GLIN database. All goals have been met. To 
        maintain this world-class legal information resource, the 
        Library requests that $1.2 million be added to the Law Library 
        base in fiscal year 2008. Funding is required to continue 
        operating GLIN and cover ongoing costs associated with software 
        licensing and upgrades, system hosting, technology refreshment, 
        content expansion, and membership recruitment.
    In addition, the Library's fiscal year 2008 budget did not include 
a request for the National Digital Information Infrastructure and 
Preservation Program (NDIIPP), as the budget was submitted prior to the 
rescission of $47 million as part of the fiscal year 2007 continuing 
resolution. The Library is seeking $21.5 million to partially restore 
funding for NDIIPP. The fiscal year 2007 rescission of $47 million 
endangers another $37 million in matching funds already committed by 
pending partners.
New Projects
    The Library is requesting $24.342 million for several new critical 
initiatives as follows:
  --Digital Talking Book Program.--A four-year, $76.4 million 
        initiative is needed to implement a revolutionary change from 
        analog to digital technology that has been projected and 
        planned since 1990. In brief, the change consists of replacing 
        cassette tape players with Digital Talking Book (DTB) players 
        and introducing a new medium (flash cartridges) for 
        distributing the DTBs. This request is critical, as the 
        technology currently used will be obsolete in a few years' 
        time. This change is also being demanded by the users of the 
        service. The new technology has been proposed after wide and 
        deep consultation with users and technology experts. In fiscal 
        year 2008, the Library is requesting $19.1 million, to remain 
        available in the NLS base until fiscal year 2011--the last year 
        of the implementation schedule. Funding is requested in both 
        annual ($14.454 million) and no-year funds ($4.646 million) in 
        fiscal year 2008, with the mix changing each succeeding fiscal 
        year, as appropriate.
  --Copyright Records Preservation.--A six-year, $6 million initiative 
        is needed to image digitally 70 million pages of pre-1978 
        public records that are deteriorating, jeopardizing the 
        mandatory preservation of, and access to, these unique records 
        of American creativity. In fiscal year 2008, the Library is 
        requesting the first $1 million--in offsetting collections 
        authority, which will permit the scanning of 10 million page 
        images.
  --Abraham Lincoln Bicentennial Exhibition.--The Library's Abraham 
        Lincoln Bicentennial Exhibition in 2009 will be a centerpiece 
        of the nationwide celebration to mark the bicentennial of 
        Lincoln's birth. The Library will draw on its unparalleled 
        Lincoln materials to focus on Lincoln's rise to national 
        prominence and the thinking and writing that underlie his 
        career. A total of $1.442 million will be needed for this 
        project in fiscal year 2008, and with multi-year (3-year) 
        authority. Fiscal year 2008 funding will support the design and 
        implementation of the exhibition and travel needed to visit 
        other venues and/or other institutions that will be lending 
        materials to the Library exhibition.
  --Escape Hoods.--A one-time cost of $1.189 million is needed to 
        purchase NIOSH-approved escape hoods for approximately 6,200 
        non-Library staff (researchers, contractors, and other visitors 
        to the Library) and 110 cabinets to store the hoods throughout 
        the Library. Procuring and providing escape hoods for 
        contractors and visitors is consistent with the policy set by 
        the USCP for the Capitol Hill complex.
  --Custodial Services.--A total of $517,000 in contract funds is 
        requested for custodial services support and includes funding 
        for six contract custodial quality control inspectors and 
        increased costs related to new space at Fort Meade (Modules 2-
        4). The Library's facilities on Capitol Hill comprises four 
        million square feet, with no independent inspectors monitoring 
        its custodial contract (industry standards reflect at least one 
        inspector per 500,000 square feet of facility). Based on 
        industry standards, the Library would require a total of eight 
        inspectors, though the Library is only requesting six. Library 
        space at Fort Meade will increase by 83,000 square feet between 
        fiscal year 2006-2008, increasing the base cost of the 
        custodial service contract.
  --Legislative Branch-Wide Payroll Formulation Software System.--The 
        Library is requesting a total of $500,000 to support a 
        legislative branch-wide pilot program to procure and implement 
        a payroll budget formulation software system that will allow a 
        name-by-name calculation of payroll costs using a standard 
        calculation methodology for all legislative branch agencies. 
        This request is the result of congressional guidance to the 
        Legislative Branch Financial Managers Council (LBFMC) to 
        develop a standard methodology for formulating payroll costs 
        within and across the legislative branch agencies. Since the 
        Library has one of the largest staffs in the legislative 
        branch, the LBFMC, with congressional approval, selected the 
        Library to pilot the system, with funding for all legislative 
        branch agencies to be requested in subsequent years--after 
        testing and implementation are finalized at the Library. 
        Consistent with guidance, the software and subsequent 
        formulation of payroll costs will be managed by each agency's 
        central budget office to ensure consistency within each agency.
  --Library-Wide Contracts Management Support.--Currently, the Office 
        of Contracts has a total working capacity of 22 FTEs (comprised 
        of in-house staff and contractors). Based on a GSA workload 
        analysis model that was applied to the Library's fiscal year 
        2005 contract actions, a total of 26 FTEs is needed to support 
        the Library's contract workload. Since 2001, the volume and 
        complexity of the Library's contracting workload have increased 
        significantly. The average annual dollar value of contract 
        actions administered per contract specialist increased from 
        $2.9 million in fiscal year 2001 to more than $13.8 million in 
        fiscal year 2005. That trend is expected to become more 
        pronounced in fiscal year 2007 and beyond. Funding of $318,000 
        is requested to support the salaries and benefits of an 
        additional three FTEs in the Office of Contracts for a total 
        working capacity of 25 FTEs. The three additional FTEs will be 
        absorbed within the Library's FTE base.
  --Workforce Transformation Project.--Renewal and development of the 
        Library's workforce are essential to retrain staff with the 
        necessary skills for the digital age, and to capture for the 
        future the vast knowledge of large numbers of experienced staff 
        who are near retirement. In fiscal year 2008, the Library will 
        begin a program to enhance digital competencies, leadership 
        skills, career development, recruitment, and other workforce 
        counseling and services. These activities are particularly 
        important for sustaining the Library's commitment to a diverse 
        workforce. Funding of $276,000 is requested to support these 
        initiatives.
Other Program Changes or Requests
    Library of Congress Fort Meade Logistics Center.--The Library is 
requesting $43.9 million, to be transferred to the Architect of the 
Capitol, for the construction of the Library of Congress Fort Meade 
Logistics Center. Current deplorable life safety and environmental 
conditions at the Landover Center are unacceptable and present 
extremely high risk to staff and collections. The proposed Logistics 
Center is a 162,000 square foot environmentally controlled facility 
supporting the day-to-day mission critical operating requirements of 
the Library. The new facility will consolidate storage and inventory 
and supply from multiple leased facilities and Library buildings on 
Capitol Hill and will also benefit from the synergy and centralized 
security of the Fort Meade master plan. Alternatives have been 
extensively evaluated, and all are more costly than the proposed 
construction--which will result in immediate savings of approximately 
$3 million per year after consolidation at Fort Meade.
    Digital Collections and Educational Curricula Program--In 2005, 
Congress created and passed the Library of Congress Digital Collections 
and Educational Curricula Act. Beginning in fiscal year 2006, the Act 
moved the administrative and programmatic ownership of the Adventure of 
the American Mind program (AAM) from the Educational and Research 
Consortium to the Library. Of the $6.016 million requested in fiscal 
year 2008 (fiscal year 2006-2007 enacted level adjusted for mandatory 
pay and price level increases), $2.006 million will fund administrative 
support costs, with the balance of $4.010 million supporting grant 
awards. In addition, the Library will begin developing standards-based, 
field-tested curricula, using a train-the-trainer model to create a 
network of partners from all parts of the country.
  architect of the capitol--library of congress buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC is 
requesting a fiscal year 2008 budget of $42.788 million to support life 
safety, deferred maintenance, and upgrades to the Library's buildings 
on Capitol Hill. The deferment of maintenance and upgrades require 
projects to be completed concurrently, often at higher costs. 
Deferments and delays have also created longer lists of projects. The 
cost increase is compounded by inflationary pressures and by the 
steadily growing risks in health, safety, and security to the Library's 
staff and collections. The cost of maintenance and upgrades will 
increase exponentially if the Library cannot stop, or at least slow 
down, the rate of deterioration of its buildings.
                proposed changes to legislative language
    The Library has proposed language to improve employment options 
elsewhere in the Federal Government for Library staff. The first 
provision confers competitive status to Library employees who have 
successfully completed their probationary period at the Library--the 
basic eligibility to be non-competitively selected to fill vacancies in 
the competitive service of the Federal Government. This will enable 
Library staff to apply for positions in the executive branch on an 
equal footing with ``career'' executive branch employees. A related 
provision would enhance the employability of Library employees 
displaced because of a Reduction-in-Force (RIF) or failure to accept a 
transfer to an alternative work location. This provision would give 
separated staff selection priority for competitive service positions, 
comparable to that enjoyed by separated employees from other federal 
agencies.
    The Library also proposes new appropriation language to address the 
requirement specified in the Cooperative Acquisitions Program Revolving 
Fund legislation (CAP), Public Law 105-55, that the revolving fund 
receive its own audit by March 31 following the end of each fiscal 
year. The Library requests that the March 31 audit requirement be 
rescinded and that the CAP be subject to the same audit requirement as 
the Library's other revolving funds.
                               conclusion
    We are deeply grateful for what Congress has already created and 
admirably sustained. New investments will enable us to continue 
providing the Congress with comprehensive nonpartisan research, and the 
nation with the wonderful learning resources that digital technology is 
delivering to schools, libraries and homes. Appropriations for today's 
Library will be investments in tomorrow's minds, in our future 
creativity, and in America's global leadership well into the 
information age.
    Thank you, Madam Chairwoman.
                                 ______
                                 
                      Open World Leadership Center
    Madam Chairwoman, Mr. Allard, and other Members of the 
Subcommittee, I appreciate the opportunity to submit testimony on the 
Open World Leadership Center's budget request for fiscal year 2008. The 
Center, whose board of trustees I chair, conducts the only exchange 
program in the U.S. legislative branch and has hosted 11,794 leaders 
from Russia, Ukraine, Georgia, Moldova, and other post-Soviet states to 
date. All of us at Open World are very grateful for the continued 
support in the legislative branch and for congressional participation 
in the program and on our governing board. We look forward to working 
with you on the future of Open World.
    Open World has a U.S. hosting network of hundreds of local 
nongovernmental and governmental organizations and more than six 
thousand volunteer host families, enabling us to continue to bring 
large numbers of emerging young post-Soviet leaders to the United 
States. Program participants come to discuss topical issues of mutual 
interest and benefit, such as ways of containing the avian flu, 
developing environmentally responsible public policy, and improving 
educational curricula in primary and secondary schools. They meet with 
Americans who share their interests and are often eager to partner with 
them on collaborative projects.
    The following statement by U.S. District Judge Stephen P. Friot of 
Oklahoma, who hosted five prominent Russian judges for Open World in 
2006, effectively captures the impact of this program on both U.S. 
hosts and foreign visitors: ``The opportunity to learn about the 
judicial system of the Russian Federation made hosting Open World 
delegates one of the most enriching professional experiences I have 
ever had. Russian and American judges face similar problems, and 
programs like Open World help us overcome them by providing the 
opportunity to learn with each other and from each other.''
    In 2006, after seven years of operation, Open World assessed its 
accomplishments and completed a new strategic plan under the leadership 
of former U.S. Ambassador to Russia James F. Collins, one of our 
longest-serving trustees. The plan envisions expanding the Open World 
Program to all the countries of Eurasia \1\ and the Baltic States by 
fiscal year 2011. Expansion programs are already under way in five new 
countries: Azerbaijan, Georgia, Moldova, Kyrgyzstan, and Tajikistan. 
One result of this expansion is that Open World will reach many more 
Muslims. Some 30 million Muslims live in the countries participating in 
Open World 2007, more than double the Open World 2006 figure of 14 
million.
---------------------------------------------------------------------------
    \1\ Eurasia here means Russia, Ukraine, Belarus, Moldova, Armenia, 
Georgia, Azerbaijan, Turkmenistan, Kazakhstan, Uzbekistan, Tajikistan, 
and Kyrgyzstan.
---------------------------------------------------------------------------
    The Center's budget request of $14.4 million for fiscal year 2008 
(Appendix A) reflects an increase of $0.54 million (4.0 percent) over 
fiscal year 2007 funding. This funding will enable the Center to 
continue its proven mission of hosting young leaders from Russia and 
Ukraine; conduct programs in our five new expansion countries, in 
accordance with recommendations from Members of Congress and directives 
from the Board of Trustees; and respond to any requests for small-
scale, preliminary expansion to additional countries made by the Board 
of Trustees in consultation with the Appropriations Committees.
                   program mission and strategic plan
    The Open World strategic plan, completed in 2006, adopted the 
following mission statement:

    To enhance understanding and capabilities for cooperation between 
the United States and the countries of Eurasia and the Baltic States by 
developing a network of leaders in the region who have gained 
significant, firsthand exposure to America's democratic, accountable 
government and its free-market system.

    In light of this mission, Open World will continue to bring 
emerging leaders from this region to the United States, while 
endeavoring to foster lasting ties and ongoing cooperation between Open 
World delegates and their American hosts and professional counterparts. 
The program seeks to nurture civic and political environments where 
civil society develops not only from the top down, but also from the 
ground up and the periphery in. This goal is furthered by developing a 
network of leaders who regularly communicate and collaborate with 
fellow citizens and American peers on concrete projects.
    The Open World strategic plan focuses on building and strengthening 
a network of American and foreign community leaders through both 
enhancing existing ties and forming new ones. It also stresses the 
importance of measuring progress quantitatively by numbers of 
partnerships, joint projects, and ripple effects, and by tracking how 
they grow and strengthen.
    Open World's core competency lies in identifying promising young 
leaders, matching them with capable and appropriate U.S. host 
organizations, and networking them with their American counterparts. 
Open World has developed close coordination with U.S. Embassies and 
various nominating organizations. Wherever possible, Open World tries 
to complement other U.S. government-funded programs as well as other 
initiatives in Open World countries that involve U.S. citizens.
    For example, Open World joined with the U.S.-Ukraine Foundation to 
help solidify relations between Omaha, Nebraska, and Artemivsk, 
Ukraine, which had previously been paired under a foundation program. 
In December 2006, community leaders in Omaha hosted a delegation of 
city administrators from Artemivsk, which applied to become a sister 
city of Omaha as a direct result of the visit. A delegation of Omaha 
city representatives (including university faculty and students) will 
make a return visit to Artemivsk in May 2007. Omahans have raised funds 
in the United States to help renovate an orphanage in Artemivsk this 
year; and for the first time, a group from the Omaha Ukrainian diaspora 
is visiting Artemivsk to build ties.
    West Jordan, Utah, the sister city of Votkinsk, Russia, provides 
another example of such an initiative. To help develop projects based 
on this sister-city tie, Open World made it possible for a 
competitively selected medical team from Votkinsk to visit West Jordan 
in September 2006 to learn more about U.S. emergency medical care and 
community health fairs. One month after returning to Votkinsk, the Open 
World delegates replicated a community health fair. They invited the 
mayor of West Jordan as well as a health team from Jordan Valley 
Hospital to take part in the event. More than 600 Votkinsk citizens 
attended this one-day event and learned about Utah's ties to Votkinsk. 
Sister Cities International's Utah state coordinator and veteran Open 
World host Jennifer Andelin had this to say after the trip: ``Open 
World is definitely a program that is positively impacting both Russia 
and Utah. I often refer to Open World as the `glue' that holds the 
Utah/Russia partnerships together.''
                     calendar year 2006 activities
    In 2006, Open World brought 1,142 Russians and 223 Ukrainians to 
the United States for high-level professional programs in 46 U.S. 
states and the District of Columbia. Out of these: 228 delegates 
studied rule of law; 279 delegates studied accountable governance; 216 
delegates studied women as leaders issues; and 345 delegates studied 
health, social issues, the environment, and education.
    The Open World 2006 programs for Russia and Ukraine focused on 
overarching themes like accountable governance and rule of law, as well 
as critical challenges that face both countries and America as well, 
such as AIDS prevention and emergency preparedness. For instance, a 
team of Russian avian flu experts came to meet with their counterparts 
at the Food and Drug Administration, the National Institutes of Health 
(NIH), and the Centers for Disease Control and Prevention, and spoke at 
the 2nd Bird Flu Summit in Washington, D.C. The trip initiated an 
ongoing dialogue between the NIH and Russian laboratories that will 
lead to cooperative projects as well as a formal cooperative 
partnership agreement to be signed in spring 2007. (On March 10, 2007, 
another Open World delegation of Russian infectious disease 
epidemiologists joined the State of North Carolina, the Scian 
Institute, and the National Peace Foundation in a ``Community 
Preparedness Planning Template Project'' partnership designed to help 
small and medium-sized communities in the United States and elsewhere 
develop emergency response plans to deal with pandemics.)
    In another example, four high-level government physicians from 
Russia involved in HIV/AIDS prevention, TB control, forensic medicine, 
and prison health care visited New Orleans in fall 2006 to learn about 
operations at counterpart agencies in Louisiana. The delegates toured 
and had briefings at the Orleans Parish Jail and the state penitentiary 
in St. Gabriel, took part in informative discussions with the state 
epidemiologist and the head of the state Tuberculosis Control Program, 
and visited the Jefferson Parish Forensic Center in Harvey. Staff of 
the Louisiana State University Health Science Center introduced the 
Russians to the center's medical training and research programs and 
juvenile justice program. The delegates praised the program for giving 
them the opportunity to interact with Louisiana professionals who 
``have the same positions and work . . . on the same problems'' as they 
do in Russia.
    Open World 2006 continued the rule of law program, which has 
benefited so much from the involvement of U.S. Supreme Court justices 
and many other prominent members of the American judiciary and has 
brought nearly 1,100 Russian and Ukrainian judges to the United States. 
A highlight of last year's program was an exchange for five Ukrainian 
judges hosted by U.S. District Judge David R. Herndon of East St. 
Louis, Illinois. Not only did the Ukrainians observe the workings of 
the U.S. legal system, they also discussed what they saw with key 
actors in the judicial process. Judge Herndon arranged for them to 
observe him conduct several sentencings, after which he held a Q-and-A 
session that included the counsel involved in the sentencing hearings. 
After observing a jury trial at the Madison County (Illinois) 
Courthouse, the visiting judges had a ``postmortem'' with members of 
the defense's legal team. The Ukrainians also participated in the 
quarterly administrative meeting for all Southern District of Illinois 
judges and court staff, giving them invaluable insights into judicial 
administration in the United States. And during a tour of the Federal 
Correctional Institution and Camp in Greenville, Illinois, the 
Ukrainians were able to ask questions not only of the warden but of 
inmates as well--something still not readily allowed for visitors to 
their own country.
    Open World 2006 also continued the focus on accountable local 
governance that had been added as a program theme in 2005. The Russians 
and Ukrainians who participated in these exchanges received practical 
advice from their American counterparts and onsite insights into how to 
make local government more open, responsive, and efficient. For 
example, several small-town mayors from Ukraine spent part of their 
Open World exchange visiting rural communities outside Lincoln, 
Nebraska, to see firsthand how these towns used public/private economic 
development projects to improve quality of life and retain population. 
Four Russian municipal executives hosted in Parker, Colorado, reviewed 
the town government's budget and operations with the mayor and two of 
his top staff, then sat in as the proposed 2007 budget was presented 
for first reading to the Parker Town Council. Delegates from the 
formerly closed nuclear city of Zheleznogorsk, Russia, met with the 
planning directors for their Tennessee sister communities of Alcoa, 
Maryville, and Blount County to brainstorm ways of making Zheleznogorsk 
more accessible for trade and travel. And in Springfield, Illinois, 
Ukrainian city officials interested in zoning issues met with the 
city's zoning administrator for an interactive session complete with 
maps and blueprints.
                         open world in america
    Open World delegates are hosted by a large and dedicated group of 
American citizens who live in cities, towns, and rural communities 
throughout the United States:
  --Since Open World's inception in 1999, more than 6,000 U.S. families 
        have hosted participants in 1,575-plus communities in all 50 
        states.
  --Open World's 2006 host families lived in 227 different 
        congressional districts.
    American hosts' generosity toward and enthusiasm for Open World are 
a mainstay of the program. In 2006, interested host communities' demand 
for Open World visitors was more than double Open World's actual number 
of program participants. U.S. hosting organizations were prepared to 
host more than 2,300 Russian participants, well above our funded 
hosting capacity of 1,150 Russian participants. Americans' enthusiasm 
for the Open World Program is reflected in their generous giving in 
2006 of an estimated $1.6 million worth of in-kind contributions in 
terms of free accommodations and meals.
    The blossoming relationship between Los Alamos, New Mexico, and the 
formerly closed nuclear research city of Sarov, Russia, offers other 
examples of the dedication of Open World's American hosts. In September 
2006, Open World brought four delegates from Sarov to Los Alamos. As a 
result of the trip, a videoconference site was organized using 
equipment donated to Sarov by citizens of Los Alamos. Videoconferences 
are being used both to organize a 2007 trip to Sarov by Los Alamos 
firefighters and police officers to discuss how to control wildfire (a 
major issue of concern in both communities), and to make plans for six 
children from Los Alamos to attend a summer camp outside Sarov.
    Open World delegates have impacted American communities by sharing 
ideas with their professional counterparts, university faculty and 
students, governors and state legislators, emergency response crews, 
and other American citizens in a variety of settings, including group 
discussions, Rotary Club breakfasts, and town hall meetings.
    One Rotarian, Wayne R. Oquin of Houston, Texas, had this to say 
about the impact of Open World on him as a host:

    On a personal note, I have never been one to push the international 
side of Rotary. I'm recognized as a community service Rotarian. I must 
admit that the Open World Program has changed my perspective. I was 
very apprehensive about my role as an Open World coordinator for my 
District. It really turned out to be easy, informative and extremely 
rewarding to me personally. I can honestly say that my time with this 
Open World delegation has been my most enjoyable week ever spent as a 
Rotarian.
                     results and impact of program
    Open World delegates return to their countries and apply their Open 
World experience to improve their local communities and regions. For 
example, an elementary school principal from Tver, Russia, was hosted 
in November 2004 by the Paso Robles (California) Rotary Club. Upon her 
return, she instituted a set of reforms based on what she had seen at 
the Georgia Brown Elementary School in Paso Robles. Among other 
projects, she started a board of trustees that was chaired by the 
mother of one of the students at her school. The board, in turn, worked 
with the principal to add electives to the school curricula, including 
a course on principles of democracy and election legislation. As a 
result of these reforms, the Russian Ministry of Education awarded the 
school a one million ruble prize as one of the ``Best Schools of the 
Year'' for 2006.
    In another instance, a city administrator from Ulan-Ude visited 
Louisiana and was inspired to launch a campaign in support of NGOs in 
her region. During a meeting with the Louisiana Office of Family 
Support, she was particularly impressed by the role of nongovernmental 
community organizations such as Louisiana Eastern European Adoptive 
Families. Upon her return, she teamed up with the first deputy 
chairperson of her department, another Open World alumna, to promote 
NGO development in Ulan-Ude. As a result of their teamwork, on October 
3, 2006, the City of Ulan-Ude declared 2007 ``The Year of Civic 
Initiatives'' and allocated 2.8 million rubles (approximately $106,000) 
to be distributed among 32 local NGOs to organize 100 different 
activities and programs throughout this year.
    Sometimes results take time to come to fruition. A judge from 
Barnaul, Russia, visiting Washington, D.C., in 2003 was particularly 
impressed by the use of information technology in the Superior Court of 
the District of Columbia. Upon her return, she started to take computer 
classes and, in 2005, was instrumental in instituting the use of web 
cameras and computerized court records in her region's supreme court.
    In another example, the director of a Yekaterinburg refugee aid 
organization and a Native American Open World host--who first met 
during the director's 2004 Open World visit--just partnered on a March 
14 videoconference between Native American children in Oklahoma and 
indigenous children in Ufa-Shigiri, Russia. The videoconference, which 
was co-hosted by the U.S. Consulate in Yekaterinburg, is intended to be 
the first in a series of events that will allow these children to share 
information about their lives, cultures, and aspirations for their 
communities.
                            scope of program
    In addition to the qualitative assessments described above, the 
Center also tracks quantitative performance measures to ensure that 
Open World is focusing on a geographically and professionally broad 
cross-section of emerging leaders who might not otherwise have the 
opportunity to visit the United States:
  --Delegates have come from all the political regions of Russia, 
        Ukraine, and Lithuania, and from 13 of Uzbekistan's 14 
        political regions.
  --88 percent of Russian participants live outside Moscow and St. 
        Petersburg.
  --More than 6,500 federal, regional, and local government officials 
        have participated, including 157 members of parliament.
  --The average age of Open World delegates is 38.
  --93 percent of delegates are first-time visitors to the United 
        States.
  --51 percent of delegates are women.
                   open world 2007 and plans for 2008
    In calendar year 2007 we plan to continue bringing Russian 
political, civic, and cultural leaders, as well as Ukrainian political 
and civic leaders, to the United States. In addition, through Open 
World, at least 175 leaders from Georgia, Moldova, Azerbaijan, 
Tajikistan, and Kyrgyzstan will visit the United States in 2007, 
virtually all for the first time. Chicago and Atlanta welcomed the 
first Open World Georgian delegations in early March. The Chicago 
visitors, all regional and city officials, reported that one of their 
favorite sessions was a morning spent at the village hall of suburban 
Bellwood, where they received a comprehensive overview of the town 
government, participated in lengthy Q-and-A with the mayor and other 
Bellwood officials, and toured town departments and facilities. Open 
World's first Moldovan delegations also arrived last month: one, a 
delegation of senior government and NGO officials, met with their 
counterparts in Washington, D.C., to explore ways to curb human 
trafficking. The other group, composed of one federal and three 
municipal officials, studied public finance with city administrators 
and economic experts in the Research Triangle area of North Carolina.
    Open World administrative activities in 2007 include developing 
annual plans for 2007-2011 as part of the strategic planning process, 
and finalizing all assessment tools to measure program successes. Open 
World will explore ways to recognize some of our most dedicated U.S. 
hosts, and the Board will consider additional countries for possible 
inclusion in the 2008 expansion program.
                    fiscal year 2008 budget request
    The budget request supports hosting and other programmatic 
activities at a level of approximately 1,400 participants total. Actual 
allocations of hosting to individual countries will be determined by 
the Board of Trustees in consultation with the Appropriations 
Committees. The requested funding support is also needed to cover 
anticipated fiscal year 2008 pay increases and the Department of 
State's obligatory Capital Security Cost Sharing charge for the 
Center's two Foreign National Staff attached to the U.S. Embassy in 
Moscow.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits ($1.379 million)
  --Contracts ($8.075 million--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process
    --Obtaining visas and other travel documents
    --Arranging and paying for air travel
    --Coordinating with grantees and placing delegates
    --Providing health insurance for participants
  --Grants ($4.6 million--awarded to U.S. host organizations) that 
        include the cost of providing:
    --Professional programming for delegates
    --Meals outside of those provided by home hosts
    --Local transportation
    --Professional interpretation
    --Cultural activities
    --Administrative support
                               conclusion
    The fiscal year 2008 budget request will enable the Open World 
Leadership Center to continue to make major contributions to the 
deepening understanding of democracy, civil society, and free 
enterprise in a region of vital importance to the Congress and the 
nation. This Subcommittee's interest and support have enabled this 
unique program to obtain gratifying results and a special status in the 
successor states of the USSR.
    I thank the Subcommittee for its continued support of the Open 
World Program.

          OPEN WORLD LEADERSHIP CENTER BUDGET FISCAL YEAR 2008
------------------------------------------------------------------------
                                                            Fiscal Year
                       Description                        2007 Estimated
                                                            Obligations
------------------------------------------------------------------------
11.1  Personnel Compensation............................      $1,085,000
12.1  Personnel Benefits................................         293,700
21.0  Travel............................................          97,500
22.0  Transportation....................................           2,000
23.0  Rent, Comm., Utilities............................           6,100
24.0  Printing..........................................           2,100
25.1  Other Services/Contracts..........................       8,309,500
26.0  Supplies..........................................           4,100
31.0  Equipment.........................................  ..............
41.0  Grants............................................       4,600,000
                                                         ---------------
      TOTAL, Fiscal Year 2008 Budget Request............      14,400,000
------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service
    Madam Chairwoman and Members of the Committee: Thank you for the 
opportunity to appear before you today to present the fiscal year 2008 
budget request for the Congressional Research Service (CRS). I come to 
you with great appreciation for the support you have given us in past 
years. Having worked closely alongside Congress for more than 13 years 
now in my capacity as Director of CRS, I know full well the fiscal 
pressures under which you must operate, and that frame your 
deliberations.
                    fiscal year 2008 budget request
    The CRS fiscal year 2008 budget request is $108,702,000. This 
request covers mandatory pay increases for CRS staff, as well as price 
level increases due to inflation for the goods and services we require 
in the course of doing our work. We are not asking for any funds for 
new initiatives or program growth and are undertaking all of our 
initiatives within current funding.
    CRS is appreciative of Congress' continuing support. Even in these 
times of constrained resources we have managed to sustain our full 
services to the Congress, serving every Member and congressional 
committee. Our highest priority is to ensure that Congress has 
continued access to the nation's best thinking on policy issues, and to 
that end we devote almost 90 percent of our budget to personnel. Since 
1994 we have successfully increased the number of analysts within the 
organization from 313 to 343, and they along with our information 
professionals represent 75 percent of our total staff. At the same 
time, the overall number of CRS staff has declined by about 10 percent.
    The pressures and evolving priorities of Congress drive CRS' short- 
and long-range planning. We strive to strengthen our analytic capacity 
and the quality of our analysis. We evaluate a host of factors in an 
effort to target and improve our analyses, including: institutional 
changes within Congress; demands on Members' time; turnover of Members 
and staff; complexity and interdependencies of policy issues before the 
Congress; need for creative new solutions to policy questions; cultural 
shifts in the United States and abroad; global integration; continuing 
rapid advances in technology; and growth in information sources.
    We stand in direct service to Congress. We continually review our 
services to improve access, streamline operations, and increase our 
efficiency. We are: enhancing our website so that you have targeted 
access to the analysis you need; providing our staff with the research 
tools they need to accomplish their work; protecting the safety of our 
staff and ensuring that, if disaster strikes, CRS' services to the 
Congress will remain available; looking for economies within the 
organization and efficient ways of undertaking our mission; and 
minimizing our non-personnel costs through systematic assessments of 
each program activity and support function.
                            research agenda
    Congress turns to CRS daily. In fiscal year 2006 we provided over 
900,000 services to the Congress. These included more than 65,000 
customized products and services such as memoranda, telephone and in-
person briefings. In addition, CRS created over 800 new reports, 
bringing the total number of reports available to the Congress to over 
5,800, all available through the CRS website.
    As in previous years, in the months before the start of the 110th 
Congress, our experts from across CRS got together, assessed events 
here in the United States and around the world, and working closely 
with every congressional committee, determined the issues that would 
most likely face this Congress. The result of this and ongoing work is 
the creation and maintenance of a robust and evolving research agenda 
framed around almost 150 policy issues. We continue to work alongside 
you as you identify and clarify policy problems, explore policy 
options, monitor and assess program implementation, and conduct 
oversight.
    CRS approaches its work with a commitment to serving the Congress 
and a spirit of collaboration, resulting in research and analyses that 
are creative, interdisciplinary and insightful. As Congress conducts 
its deliberations, CRS makes every effort to provide the best thinking 
on the problems that congressional lawmakers address. To meet these 
demands, CRS staff must have access to the best research and 
information resources to provide authoritative analysis whenever and 
however Congress requires assistance. Thus the Service invests in 
education and training for staff members to stay current in their 
respective disciplines, and ensures that staff are challenged and 
informed by interactions with colleagues in other disciplines.
    All this, of course, means nothing unless our analysts also 
understand the intricacies of the legislative process and remain 
sensitive to the competing demands on time that Members of Congress 
juggle day after day. CRS' analysts are therefore educated about the 
workings of the Congress so that they have a command of Congress as an 
institution--its rules and procedures--and an understanding of 
Congress' processes in enacting legislation and in conducting 
oversight.
                              core values
    As Congress adjusts to the changes in the world and CRS realigns 
its services to meet those changes, our commitment to our core values 
does not waiver. CRS analysis is renowned for being confidential, 
objective and authoritative. These core values underscore our service 
to Congress and remain stable regardless of the changes around us.
    In today's marketplace of ideas, we strive to outpace all others. 
CRS is unique among the legislative branch agencies and like no other 
think tank, government bureau, or policy organization in the world. 
According to the guiding principles that Congress set forth when it 
established CRS in 1914, our sole purpose is to support the United 
States Congress, serving equally both chambers and both parties on all 
issues.
    I came to this subcommittee in 1996 asking for assistance in 
addressing the challenge that half of CRS staff would be eligible to 
retire by 2006. Well, the future is here and thanks to the support the 
Congress provided for our succession planning, we hired one-third of 
our staff in the past four years. They are all enthusiastic, highly 
credentialed individuals, dedicated to public service. Our more tenured 
staff work closely with these new employees to transfer their 
institutional memory and expertise in the legislative framework. I tell 
all new employees that it is an honor to work for the Congress. But it 
is also a weighty responsibility. And so honoring and applying our core 
values becomes at once a reward, a challenge, an obligation.
    CRS holds confidentiality as its first core value and highest 
priority. When working with CRS, Congress can access information, 
dispute it, ask questions about it, knowing that questions and comments 
are held in the strictest confidence. I am frequently told by Members 
of Congress that the promise of confidentiality is what keeps them 
coming back to utilize our services. Members know they can come to us 
to float an unusual idea or explore issues, and they can do so without 
question, challenge, or disclosure.
    Our second value is objectivity. Because our work is objective and 
non-partisan, we sit in a unique position. We focus all our efforts on 
getting you, the Congress, what you need, when you need it--and in a 
form that works for you. CRS works one-on-one with Members and 
committees to address specific questions as they arise. Those who 
choose to reference or distribute our work can do so with confidence, 
knowing each report we produce is objective and fair.
    As CRS provides authoritative and confidential assistance, we are 
vigilant about our ability to analyze issues without bias or unexamined 
assumptions. Our outstanding reputation for objective and nonpartisan 
analysis is hard-won by every one of our policy experts, each and every 
day.
    Finally, CRS ensures that the research and analysis it provides are 
authoritative. Rigorous research methodologies must be free of built-in 
bias. Every critical assumption must be presented, explained, and 
justified. Data anomalies must be investigated and rechecked for 
appropriateness and applicability. Primary resources are used whenever 
available, all statements of fact are double- or triple-checked, all 
sources are documented and appropriately caveated. We at CRS understand 
that our research and analysis must be authoritative and above reproach 
if it is to continue to serve as the foundation upon which Congress 
engages in debate.
    Such assurance is critical. For example, as Congress sought to 
improve preparation for and response to future catastrophes, such as a 
national flu pandemic, CRS experts assisted with appropriations 
legislation and oversight. When the House and Senate continued to 
confront the myriad issues stemming from the government's response to 
Hurricane Katrina, CRS experts analyzed flood insurance reform and the 
funding of infrastructure repairs on highways, bridges, ports, and 
airports. Analysts used mapping software to estimate the 
characteristics of individuals most likely affected by the storm. We 
examined the entire range of federal agencies' preparedness and 
response. For example, in addition to extensive examinations of such 
agencies as the Federal Emergency Management Agency and the Army Corps 
of Engineers, CRS prepared analyses on the Department of Housing and 
Urban Affairs' role in responding to past disasters. This provided 
precedents and an analytic framework for further consideration of 
disaster-related housing needs and use of Section 8 housing vouchers.
                         management initiatives
    In the coming years, CRS will continue to align research capacity 
to meet congressional needs, to improve congressional access to our 
services, and to develop tools for our research managers and staff to 
facilitate their work. This year we will launch a new authoring and 
publishing system that will reduce the time devoted to writing and 
publishing reports and memoranda, thus freeing up the time available to 
CRS analysts to undertake their research. This new tool will 
standardize the presentation format and enhance graphic capabilities.
    In a world of ever-evolving technologies and a constant need for 
information, CRS is forefront. We plan to enhance our online services--
be it podcasts, webcasts, or interactive discussions. For example, 
mapping and spatial software will allow Congress to manipulate data to 
determine the possible implications of legislative options for specific 
populations, regions, industries or economic sectors. In addition to 
providing Congress with analysis, this next step would make analytic 
tools available for Congress and staff to use. Another example is a 
legacy series that will capture the knowledge and institutional memory 
of our experts before they retire, further preserving their valuable 
analysis for the Congress and their successors.
                               conclusion
    I wish to thank the Congress for its continuing support for CRS. In 
keeping with the current fiscal realities, the CRS budget request for 
fiscal year 2008 does not seek additional funds to support program 
growth. The Service seeks your support for the mandatory pay increases 
for CRS staff and price-level increases for goods and services.
    These funds will allow CRS to continue serving the legislative 
needs of the 110th Congress.
                                 ______
                                 
  Prepared Statement of Marybeth Peters, The Register of Copyrights, 
                            Copyright Office
    Madam Chairwoman, Senator Allard, and other members of the 
Subcommittee: Thank you for the opportunity to present the Copyright 
Office's fiscal year 2008 budget request.
    The Copyright Office is completing its reengineering project which 
you have generously supported for the past seven years. In fiscal year 
2008 we are returning $10.1 million in non-recurring funding from the 
Basic Fund that was used for this project. Renewal receipts are 
decreasing by $850,000. Our mandatory and price level request is $3.4 
million, and we request a temporary $1 million increase in offsetting 
collections authority to use receipts in the no-year account to fund 
the Office's Records Preservation Project. The net effect of these 
requests is a $6.6 million decrease in the Copyright Office Basic fund. 
In addition, we request a $5.6 million decrease in permanent net 
appropriations spending authority and a corresponding permanent 
increase in offsetting collections spending authority due to the July 
1, 2006, fee increases that bring in more annual receipts. The net 
impact on the total spending authority is zero.
    The Office requests the elimination of the CARP fund since these 
program activities have been transferred to the Copyright Royalty 
Judges, an independent entity under the Librarian of Congress. We also 
request mandatories and price levels for the Licensing Division.
    I will discuss these requests in more detail, after I provide some 
brief highlights of the Office's work and an overview of our 
accomplishments in reengineering.
                    review of copyright office work
Policy and Legal Activities
    We continue to work closely with the Senate Committee on the 
Judiciary; this year the focus is on ``orphan works,'' that is 
photographs, text and other content for which a user cannot identify or 
locate the copyright owner. At the request of Senators Leahy and Hatch, 
the Office conducted a year long study of the problems and potential 
solutions. Our report, delivered in January 2006, recommended a new 
section 514 which would allow a good faith user to proceed to use such 
a work following a reasonably diligent search to locate the copyright 
owner. If the copyright owner emerged, he would receive reasonable 
compensation from the user, except in one limited situation. Although 
no bill was introduced in the Senate last year, the Senate Subcommittee 
on Intellectual Property held a hearing on April 6, 2006, on our 
recommended solution; the Associate Register for Policy and 
International Affairs, the primary drafter of the report, represented 
the Office. We expect a bill to be introduced in the Senate in the not 
to distant future, and we are hopeful that it will be enacted.
    The Copyright Office participated in numerous multilateral, 
regional, and bilateral negotiations and U.S. delegations to meetings 
of international organizations in fiscal year 2006. This included 
heading the U.S. delegation to the 14th and 15th sessions of the World 
Intellectual Property Organization's Standing Committee on Copyright 
and Related Rights, which considered the draft basic proposal for a 
treaty on the protection of broadcasting organizations.
    The Office also continued to assist the Justice Department in a 
number of important court cases related to copyright or with 
significant copyright implications, including cases on the 
copyrightability of settlement prices, the constitutionality of various 
provisions of the copyright law, refusal to register certain claims, 
and Supreme Court cases raising antitrust issues.
Registration and Recordation
    During fiscal year 2006, the Copyright Office received 594,125 
claims to copyright covering more than a million works and registered 
520,906 claims, including 20,434 registrations submitted 
electronically. We recorded 13,016 documents covering more than 350,000 
titles of works. During the year, the Office transferred 1,120,791 
copies of registered and nonregistered works valued at more than $41 
million to the Library of Congress for its collections.
Public Information and Education
    The Office logged more than 31 million external hits on key pages 
of its website during the year--a six percent increase over the 
previous year. In fiscal year 2006, the Office responded to 338,831 
requests for direct reference services, and assisted 8,886 members of 
the public in person, taking in 12,758 registration applications and 
2,463 documents for recordation. The Office answered 106,141 telephone 
inquiries, 8,380 letter requests, and 29,795 email requests for 
information from the public.
    In response to public requests, the Office searched 12,792 titles 
and prepared 832 search reports and assisted 8,886 visitors to the 
Copyright Card Catalog. The Office published twenty issues of NewsNet, 
an electronic news update about the Copyright Office and copyright-
related activities, to 6,333 subscribers.
Licensing Activities
    The Licensing Division collected nearly $227 million in royalty 
payments during fiscal year 2006 and distributed royalties totaling 
more than $191 million. The division worked on developing options for 
electronic filing for cable Statements of Account to be tested in a 
pilot e-filing program, scheduled for fiscal year 2007.
                         reengineering program
    The Copyright Office has many to thank for the support we have had 
during the past seven years for our Reengineering Program initiative. 
We especially thank the Committee for the support you have given us 
through appropriations; we thank the Architect of the Capitol for their 
dedication to completing the facilities work on time and within budget; 
and we thank the Library's infrastructure units, the labor 
organizations, and our own staff, whose support has been crucial to our 
success.
    Online service is at the heart of improvements coming to the Office 
as part of this major reengineering effort. The Copyright Office of the 
future is scheduled to arrive this year with the full implementation of 
eCO, the electronic Copyright Office, which combines the efficiency and 
cost savings of an integrated, enterprise-wide information system with 
the reach of the World Wide Web. The eCO system will improve the 
timeliness of our services, increase public access to copyright 
records, and provide better tracking of individual items in the 
workflow. At the same time, eCO will greatly enhance our ability to 
acquire digital works for the Library's collections. This is 
particularly important since we expect the number of ``born digital'' 
works submitted for deposit to trend upward indefinitely.
    The Office's implementation efforts in fiscal year 2006 continued 
to focus on the three components that support the reengineered 
processes: information technology, facilities, and organization. 
Because the three components are interconnected and the Office must 
provide uninterrupted customer service, the Office will implement all 
components at one time when it switches to new processes in 2007.
Information Technology
    At that time, the Office will release eCO Service to the public who 
can submit applications, deposits, and fees electronically through a 
portal on the Copyright Office website. This will reduce the paperwork 
and the effort involved in submitting an application and, as a further 
incentive, we are proposing to offer a reduced fee for this online 
registration. A copy of the work being registered can also be uploaded 
along with the electronic application or submitted separately in hard 
copy according to the Library's best edition regulation. In addition to 
reducing the burden for the applicant, online registration will also 
reduce the cost to the Copyright Office in the long term. For 
applicants who choose not to use the eCO Service, we will also put in 
place the capability to process paper applications.
    Enhanced online search capability for Copyright Office records will 
be implemented in 2007 for searching registrations and recordations 
created since 1978. The eCO Search feature will have the look and feel 
of the Library's bibliographic record system. The copyright record will 
clearly delineate the information provided by the applicant and the 
bibliographic information taken from the deposit copy.
    During fiscal year 2008, the Office will refine the information 
technology processes through adjustments and reconfiguration of the 
software. Despite the testing and pilot processing that has been done 
and will continue, the first year of use may be a challenging year as 
the system is exercised under full load. A help desk will be available 
to staff and the public to assist them in their use of the new system.
Organization
    On the organization front, the Copyright Office presented its 
reorganization package to the Library's Office of Human Resources 
Services on November 20, 2006. The package included the plan for the 
reorganization and 125 new position descriptions that were created to 
align job duties with our new business processes under reengineering. 
The Librarian reviewed and approved the reorganization package and 
implementation will begin almost immediately in order to have staffing 
completed in time for the move back to the Madison Building. The Office 
must bargain any impact of the reorganization with the labor 
organizations.
    Training has already begun to provide staff with skills needed in 
their new positions and will intensify in the spring of 2007. For the 
past 16 months, examiners and catalogers have been cross-trained to be 
able to perform both duties in the new registration specialist 
position. The Office hired a Training Specialist in 2006 and she 
refined the Training Plan to include methods for training 35 trainers 
who will in turn train the staff in eCO. Training in soft skills, such 
as effective communication and team building, was required of the 
entire staff involved in the reorganization.
Facilities
    The project passed two major milestones in fiscal year 2006. First, 
nearly all staff and contractors moved to swing space locations to 
permit the renovation of Copyright Office space in the Madison 
Building. Approximately 75 percent moved to temporary swing space in 
Crystal City in July 2006; others moved to swing space within the 
Capitol Hill complex; and a few remained in place until the new space 
was ready for occupancy. Second, after years of planning, the Architect 
of the Capitol began the renovation of Copyright Office space in the 
Madison Building. The Architect of the Capitol is making great progress 
and remains on schedule to complete the renovation of Copyright Office 
space in the Madison Building this year. Of particular note, the new 
Copyright Public Record Reading Room, which houses the Office's card 
catalog comprising some 30,000 individual catalog drawers in 1,234 
cabinets, opened to the public on December 11th of last year. Most 
Office staff that remained on Capitol Hill during the renovation have 
already moved into their newly renovated space, and staff currently 
working in temporary office space in Crystal City will move back to the 
Madison Building beginning June 1 and ending August 10, 2007.
                    fiscal year 2008 budget request
Reengineering
    No new funding is needed for reengineering in fiscal year 2008. 
Rather, the Office is reducing its offsetting collections authority for 
reengineering by $6.1 million and its net appropriation authority by 
$4,036,000 for a total reduction of $10.1 million since most of the 
reengineering program will be completed in fiscal year 2007 except for 
the IT system, which will be completed in fiscal year 2008 with 
adjustments and reconfiguration of the software as necessary.
Renewal Receipts
    With respect to renewal registrations, the Office is reducing its 
offsetting collections authority by $850,000 and reducing staff by five 
due to the fact that the number of renewal registrations will decrease 
significantly in fiscal year 2007 and remain at that level or lower 
from that point on.
    When renewal registration was required, the Office annually 
registered approximately 52,000 claims. Since the enactment of the 
automatic renewal provision in 1992, the number of renewal claims has 
decreased each year. In fiscal year 2006, the Office received 
approximately 8,782 renewal claims bringing in fees of approximately 
$531,305. In fiscal year 2007, we believe that amount will drop to 
about $150,000 and continue at that level or lower in fiscal year 2008 
and thereafter.
Adjustment of Fees
    The Office requests an increase in offsetting collections spending 
authority of $5.6 million that is matched by a reduction in net 
appropriation spending authority of $5.6 million due to an increase in 
its fees in July 2006. In accordance with  708 of the copyright law, 
the Office completed a cost study and, for services specifically 
enumerated in  708(a)(1)-(9) (statutory fees), submitted the cost 
study and proposed fee schedule increase to Congress on March 1, 2006. 
The major change was the increase in the basic registration fee from 
$30 to $45. Congress took no action and the Office implemented the new 
fees. The new fees are projected to bring in an additional $5.6 million 
in receipts.
    On February 21, 2007, the Office submitted a second cost study, 
entitled ``Analysis and Proposed Copyright Fee Adjustments,'' to 
Congress. The key proposal is a lower fee of $35 for electronic 
registration. The Copyright Office plans to implement the use of the 
lower fee service on or after July 1, 2007, to coincide with its 
transition to the new, reengineered processes and the initiation of eCO 
Service. The lower fee for electronic filings has been proposed for two 
reasons. First, the proposed fee adjustment for basic registration 
filings is being adopted in anticipation of lower processing costs 
which will be realized once the Office has had an opportunity to fully 
integrate the new processes. Electronic filings will be processed in 
fewer steps than paper filings and thus represent a savings to the 
Office. Moreover, a lower fee will provide applicants with a strong 
incentive to file electronically.
    The impact of electronic filing on the Office will not be known for 
at least one year. Until that time the Office will be unable to project 
any fee or staff adjustments.
Copyright Records Preservation
    The Office requests $1 million in offsetting collections authority 
to use no-year receipts to fund the digitization of 70 million pre-1978 
copyright records. The key objectives of this record digitization 
project are (1) disaster preparedness preservation of pre-1978 public 
records and (2) provision of online access to those public records. 
Copyright records are vital to the mission of the Library and the 
Copyright Office and they are important to the public and the copyright 
industries that are a significant part of the global economy. The pre-
1978 records document the ownership and copyright status of millions of 
creative works. Loss of these sole-copy public records due to a site 
disaster would trigger a complex and expensive intellectual property 
ownership dilemma.
    The first stage would cost approximately $6 million over a six year 
period and would achieve the preservation goal and very basic online 
access. The second stage would add item level indexing, enhanced 
searching and retrieval, costing between $5 million and $65 million 
depending on the extent of fields indexed.
CARP
    With respect to CARP, the Office is reducing its offsetting 
collections authority by $297,000 and terminating the CARP Fund.
                               conclusion
    Madam Chairwoman, I ask you to support the fiscal year 2008 
Copyright Office budget request for the Basic and Licensing 
Appropriations of $50.1 million for a permanent decrease in the 
Copyright appropriations of $6.6 million. Our request includes a non-
recurring funding for the Records Preservation Project.
    I thank the Congress for its past support of the Copyright Office 
requests and for your consideration of this request in this challenging 
time of transition and progress.

                LIBRARY ROLE IN DYNAMIC INFORMATION AGE

    Senator Landrieu. The vote was just called, but we have 
about 10 or 15 minutes before we have to walk over, so we'll 
address our questions, and then anything that you all want to 
submit for the record, please do. And I want to meet with you 
all personally, in some depth, about some of these issues. 
Because I want to go on record, as the Chair of this 
subcommittee that, I don't believe the Library of Congress 
should be a museum for books.
    I believe it should be a leader in a dynamic information 
age, and I want to support you in that. And I realize that 
we've had quite a few setbacks with the continuing resolution 
last year.
    But we've got to find a path, reasonable path, forward, and 
I'm committed to help you do that. I'm not exactly sure how 
we're going to do it, but I'm personally committed to help you 
figure it out.

                          BOOKS FOR THE BLIND

    I also want to say, since our time is short, that I've 
worked with the Federation of the Blind personally now for many 
years. I'm very familiar with some of their leaders that are 
here today. I realize that the machine that exists today is 
very outdated. Millions of visually impaired and handicapped 
individuals have to use this machine now, and the fact is that 
there are not many players that even use this kind of 
technology. It reminds me of what my father still uses to 
listen to music. He doesn't even have--you know, not every 
household has an iPod.
    But we need to move up, and I want to help you with that. 
Again, we want to be careful, though, in purchasing 
technologies with them changing so rapidly, that we'll be in 2 
years, stuck with something that's outdated. So, I'd like to 
ask you more questions about that at a later date.
    Senator Allard, what are some of your questions?
    Senator Allard. Thank you, Madam Chairman.

                            EVOLVING MISSION

    You know, I don't want to see us just collecting books for 
the sake of collecting books, but I think you need to keep 
original, old editions, so that you have a good database of 
information. And, I think you can use technology to make that 
available for the public.
    And I know that Dr. Billington has a huge challenge in 
prioritizing everything that's going to come into that Library, 
and how he's going to store it, and what he's making it 
available to the public electronically, and I sympathize with 
you. I know that in order to try and meet that challenge, 
you've been doing some strategic planning, and I want to 
compliment you on that effort. You've come up, I understand, 
with a new 5-year strategic plan, and you have used that to 
develop your 2008 budget, as I understand.

                           NEW STRATEGIC PLAN

    Dr. Billington. Yes, it's informed by it, but we will 
derive the 2009 budget from it. The 2008 budget has already 
been informed by the new plan, with a reduction, for instance, 
from 18 organization-centric goals of our previous plan to just 
five strategic goals that are Library-wide. So, we're getting 
the value of synergy, and we're deriving performance 
evaluations from the plan. I know that GPRA is an interest of 
yours----
    Senator Allard. Here's my question, Dr. Billington--I'd 
like to have some specific examples of items which were not 
included in the budget as a result of your strategic planning, 
can you provide us with those?
    Dr. Billington. I'm sorry, I didn't quite understand the 
question.
    Senator Allard. Well, when you set your strategic plan in 
place----
    Dr. Billington. Yes.
    Senator Allard [continuing]. Like you said, you started 
with a list of 18 goals----
    Dr. Billington. Sure.

                     BUDGET AND LIBRARY-WIDE GOALS

    Senator Allard [continuing]. And you reduced that down to 
five or so. I'd like to have an understanding of how you 
arrived at the five that you have, or however many that you 
have, but in order to get an understanding of how you arrived 
at it, my question is this--what items did you not include in 
your strategic plan?
    Senator Landrieu. And, Doctor, if you want to answer that 
you can, both of you can----
    Dr. Billington. Well, Jo Ann Jenkins, our Chief Operating 
Officer--she certainly can. If you're looking for a detailed 
answer for the record----
    Senator Allard. That's probably enough.
    Dr. Billington. All I would say, in a general way, is that 
we removed goals that were unit-specific, rather than Library-
wide. And therefore, in accordance with the five central 
strategic goals--content, customer, outreach, organization, and 
workforce--performance will be determined in accordance with 
those goals, rather than with the greater multiplicity of goals 
focused on individual organizations.
    Now, Ms. Jenkins may wish to add to something more on that, 
but we will give you a full account of exactly what was, what 
was eliminated as a result of this reduction in goals.
    Senator Allard. Okay.
    Dr. Billington. With the increase in accountability, 
together with the reduction of goals.
    Senator Allard. And I realize that's a complicated 
question, and you probably won't be able to provide us in 
full----
    Ms. Jenkins. We'll be more than happy to provide more 
detailed information for the record. We have a very extensive 
budget process, and provide recommendations to the executive 
committee. We weed out probably 80 percent of all requests 
before we come to the Appropriations Committee to request 
funds. We'll be more than happy to share.
    Senator Allard. And, like I say, I know you have a huge 
challenge, and I am very empathetic to----
    Dr. Billington. The result was reached in a process in 
which everybody--including myself and Ms. Jenkins--were active 
participants. All levels of the Library were represented.
    Senator Allard. Well, that's important.
    Dr. Billington. Yes, sir.
    Senator Allard. I want to compliment you on that effort, 
and----
    Dr. Billington. We'll get you those specifics.

                      PERFORMANCE-BASED BUDGETING

    Senator Allard. Now, the inspector general, when he did the 
report on your performance-based budgeting, he stated that 
you're off to a good start, but yet, there's still challenges 
ahead that we've got to deal with, and anybody that's worked 
with performance-based budgeting, knows that it isn't perfect 
the first time you do it. It's something that grows, and it's 
something that you learn to work with as you move forward.
    I noticed that the Financial Officer disagreed with many of 
the report's recommendations. For the record, can you provide 
me a detailed description of how the Library will implement 
those recommendations from the inspector general?
    Dr. Billington. Ms. Jenkins.
    Ms. Jenkins. The inspector general and myself and the Chief 
Financial Officer (CFO) have met on all of the recommendations 
that the inspector general reported. I believe that we have 
reached agreement on how we will implement the recommendations 
that the inspector general has put forward, from doing 
performance-based budgeting to how that falls into our annual 
performance planning. We have already automated for the Library 
the entire, what we call the AP3, annual program performance 
planning process, so it is now automated. The point that we're 
trying to reach is the new levels of documentation of dollar 
requests to which we can link specific performance indicators, 
and we're trying to work with the financial accounting system 
as to how we might track that. I think the inspector general 
and CFO and myself have reached an agreement of how we will 
reach that point that we can all live with.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                    RESCISSION AND OTHER PRIORITIES

    Senator Allard. Very good. And, I appreciate your initial 
efforts on that.
    Now, one more question.
    You've asked for $21.5 million to be included in fiscal 
year 2008 for the NDIIPP, the National Digital Information 
Infrastructure and Preservation Program. With that being 
included, your total budget would increase by about 22 percent 
over the budget we're dealing with now, that's excluding that 
rescission.
    Are there lower-priority activities that you could cut from 
your budget?
    Dr. Billington. There are other things in the budget that 
we didn't mention, because we tried to focus on several key 
priorities.
    But, I think projects like the Lincoln Exhibit are 
essential. We've been cooperating with the Commission for the 
Lincoln Bicentennial, and we have the basic Lincoln collection, 
all online, so everyone can get to it. There are other elements 
of the budget, I'm prepared to respond to them, but that was 
one I would particularly mention, because, like other needs, it 
cannot really wait. More than just the Library is involved.
    Senator Allard. Well, you know, my staff may come back to 
you on that.
    Dr. Billington. Yes, we'd be happy to----
    Senator Allard. The subcommittee staff may come back, and 
try to work with you on that as we kind of filter through this 
budget, so we can give you the maximum amount we can afford, 
and get your highest priorities taken care of. And I think both 
of us are very sensitive to the challenges you face. It's an 
important institution in this country, but we want to come up 
with the best program, and so----
    Dr. Billington. We appreciate that, Senator.
    Senator Allard. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. We thank you very much for your testimony 
this morning, and look forward to working with you on the new 
initiatives that you've outlined. And, again, I know that 
you've got a very tough job, Dr. Billington, in working with 
professional staff to expand the focus of the Library in a new 
and emerging technological age. You've got a lot of demands on 
you, but I've got confidence in your leadership and look 
forward to working with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:
              Questions Submitted by Senator Wayne Allard
                      performance-based budgeting
    Question. The Library's Inspector General released a report in 
October on LOC's efforts in performance-based budgeting. The IG found 
that LOC's efforts were ``a good start but much work remains.'' The IG 
found that ``the Library's overall budget base is not being 
``scrubbed.'' Given the enormous increase you are requesting, it is 
critical the Library look at its ``base'' resources and determine 
whether certain activities are not providing the outcomes we desire. 
What are your plans to go back and more carefully assess the base 
budget?
    Answer. The Library of Congress has fully embraced the call to 
implement the spirit of GPRA. We recently revised the Library's 
Strategic Plan which engaged the Library's senior leadership, including 
the Librarian, the Chief Operating Officer, the Executive Committee, 
and senior managers, as well as a cross-section of the Library's 
subject experts. This process represented an unprecedented level of 
collaboration, cooperation, consultation and communication across the 
Library. The new Strategic Plan focuses on long-term strategic results 
with five Library-wide goals, replacing the previous strategic plan, 
which had 18 organization-specific goals.
    Since completing the new draft Strategic Plan, the Library has 
implemented strategy mapping for all Library Service/Support Units to 
link the draft Strategic Plan to our organizations' annual program 
performance plans. We have also developed an automated database system 
for managing the annual program performance plan process and ensuring 
the strategy mapping links are retained in the annual plans. Finally, 
we are developing a Management Dashboard to track monthly progress in 
key Library infrastructure operations. The dashboard approach to 
managing the Library's Strategic Plan and related goals, outcomes and 
performance targets will eventually be implemented Library-wide.
    The efforts detailed above represent the many significant steps the 
Library has already taken to implement the spirit of GPRA, steps that 
will ultimately lead to implementing performance-based budgeting (PBB). 
Although the IG report indicated that ``much work still remains,'' the 
Library has provided a plan for the next steps in implementing PBB, and 
the IG has accepted the plan.
    Implementing PBB is an iterative process, one that must be built on 
a solid foundation. The Library has established that foundation in our 
new draft Strategic Plan, in our Library-wide strategy mapping efforts, 
in our automation of the annual program performance planning process, 
and in our more recent efforts to use dashboards to reinforce 
accountability to the Strategic Plan and to demonstrating results. 
Other efforts will include a current Library initiative to improve 
workforce performance management. The Workforce Performance Management 
Initiative (WPMI) will ensure that workforce planning and management 
takes the links between the Library's Strategic Plan and organizations' 
annual performance plans and extends those linkages to the annual 
performance plans of individual employees. This initiative will be 
coordinated Library-wide, ensuring that workforce performance 
management is a central element in the workforce transformation process 
for the Library.
    Another PBB next step will be the Library's effort to use the 
direction of the new Strategic Plan and the structure of the annual 
performance plans as the roadmap for formulating the fiscal year 2009 
budget request. The five strategic plan goals will provide a framework 
for analyzing, prioritizing, realigning (where necessary) and defending 
both our base budget and any new and expanded requests. The annual 
plans will provide strategies and measurable performance targets which 
will be the basis for demonstrating results.
    The budget formulation process will require each organization to 
develop resource requirements in accordance with their annual program 
performance plans and to identify base savings to offset the new and 
expanded resource needs. Budget requests will be reviewed and approved 
(or denied) by the Library's Operations Committee, under the direction 
of the Chief Operating Officer, with recommendations for approval by 
the Library's Executive Committee and the Librarian. In short, the 
Library's fiscal year 2009 and future budget requests will fully 
incorporate both the scrubbing of the base budget and the alignment of 
resource needs with the goals of the Library's Strategic Plan.
    Although we are outlining future steps for implementing the spirit 
of GPRA at the Library and a more carefully mapped-out format for 
performance-based budgeting, the Library can provide a number of 
current examples of how we have been engaged in ongoing efforts to 
``scrub'' our base budget numbers before going to Congress to request 
additional resources. With respect to the ``enormous increase'' we have 
requested in our fiscal year 2008 budget, we would argue that the 
combined big-ticket items coming together in this one fiscal year's 
(fiscal year 2008) budget request is the result of an unplanned and 
unfortunate synchronicity of competing program priorities. Funds 
requested for the Digital Talking Books request have been in planning, 
with the full knowledge of the Appropriations Committees, for almost 17 
years. The NDIIPP funding request comes as a result of the rescission 
of $47 million in no-year funding that the Library was on the verge of 
obligating. The Logistics Center request was a scrubbed resubmission of 
the Library's fiscal year 2007 budget request. No amount of internal 
base-budget scrubbing would enable the Library to simply reprogram and 
absorb these important budget requests.
    Finally, while the Library has set as its number one priority to 
maintain current services funding levels, this funding request does 
represent the results of a scrubbed budget at many levels throughout 
the Library. Some examples of our internal efforts to analyze and 
reprioritize our base budgets follow:
National Library--Basic (Library Services)
    Library Services' internal budget development process is designed 
to meet its highest priorities in an increasingly tight fiscal climate. 
Library Services divisions submit itemized requests for all budget 
needs, including contracts, travel, equipment, and new hires. Funding 
for employees currently occupying positions are considered part of the 
base.
    Through this approach, Library Services has denied an approximate 
total of $28 million in internal personal and non-personal requests for 
the past three fiscal years. They have also limited over 215 vacancy 
requests to internal postings; thus moving existing staff into 
positions where the need was greatest, rather than hiring new staff 
from outside the Library.
    As part of the fiscal year 2007 Operating Plan, Library Services 
moved $3.65 million from personnel compensation to GenPac acquisitions 
to permit the purchase of collections now available that would 
otherwise be lost to the Library and the Nation. Some of the planned 
acquisitions are electronic resources that are needed to meet 
Congressional needs, such as Jane's Information Group (definitive 
reference source on defense, geopolitics, transport and police), 
Science Direct (science, technology, and medicine full-text database), 
and Historical Newspapers (online versions of New York Times and The 
Washington Post). Secondly, special materials that are now in the hands 
of private collectors are coming available and the Library must 
purchase them now. Examples of such collections are the Tony Schwartz 
Recorded Sound Collection, a unique collection of 30 years' worth of 
off-air recordings of the sounds of New York City, everything from 
street noises to campaign films and tapes, to speeches and press 
conferences; the papers and photographs of African-American 
photographer, Gordon Parks; and the Zinmann Collection of Americana, a 
collection of rare American Colonial pamphlets.
Congressional Research Service
    CRS incurs a significant personnel cost for research analysts 
moving through our career ladder promotion plan (GS 11-GS 15) that is 
not requested in the fiscal year 2008 budget. In order to fund this 
cost, CRS eliminated lower priority pay requirements in the amount of 
$155,000.
    Rather than requesting additional funding from Congress, CRS made 
major reductions to its Workspace Transformation Project for improving 
space utilization and providing a more efficient office layout. The 
desired plan would have required more than $1.5 million in supplemental 
funding, with approximately half of that amount needed in the first two 
years.
    The manpower costs for support personnel are being reduced by 
satisfying near-term needs with individuals hired in positions that 
have NTE limits of one year or less. This provides the opportunity to 
accomplish the work while taking steps to improve efficiency and reduce 
future manpower requirements. Three individuals were hired on this 
basis in fiscal year 2007 and the money needed for their pay and 
benefits was budgeted for research analysts in fiscal year 2008.
Law Library
    Each year the Library of Congress has attempted to identify and use 
savings from all sources within the Library's S&E account to address an 
urgently needed reclassification project critical to providing public 
access to a significant portion of the Law Library's historic 
collection.
Other Library S&E
    While the Library has requested funding (including mandatory pay 
and price level increases) to maintain current services funding levels, 
the Library has repeatedly scoured its base funding in order to 
identify resources to fund high priority initiatives internally and 
without seeking additional funding from Congress. The following are 
among the many examples of such scrubbing of the Library's base budget:
  --This year the Library identified the need to perform an agency-wide 
        supervisory training program for all Library managers. This 
        program will cost the Library a total of $345,000, none of 
        which has been included in the budget request.
  --Re-equipping the preservation lab in the Madison building. 
        Equipment required to establish a preservation research and 
        testing laboratory that meets requirements for a national 
        preservation program. All upgrades of preservation lab have 
        been accomplished with base funding--$2 million.
  --Purchase of shelving and shelf equipment required to help maintain 
        the Library's collections and to help protect against potential 
        damage caused by improper housing of materials--$850,000.
  --Books for the Blind and Physically Handicapped program purchase of 
        spare parts for cassette players. Manufacturer will no longer 
        make spare parts for these players. Purchase of existing spare 
        parts will provide sufficient inventory for cassette players as 
        Library transitions from analog to digital technology--$3.28 
        million.
  --Contractual service support to automate the Library's patient 
        management system, to include digitization of medical records--
        $145,000.
  --Improve the Library's environmental and hazardous materials program 
        to meet regulations and requirements on handling and disposal 
        of hazardous waste--$80,000.
  --Purchase of Escape Hoods for Library staff--$737,000.
  --Human Resources contract for support for retirement benefit 
        counseling--$73,000.
  --Purchase of digital video recorders to replace analog recorders in 
        reading rooms. Digital video recording technology enhances 
        security of collections and efficiency of staff time--$250,000.
    Finally, as part of an effort to develop an enhanced budget 
justification, the Library commits to identifying within the fiscal 
year 2009 (and future) justifications, those specific areas of the 
budget where programs and initiatives are being reduced in order that 
other higher priority programs and initiatives may be funded.
                                 ndiipp
    Question. Dr. Billington, I understand that restoring funds to the 
National Digital Information Infrastructure and Preservation Program is 
now your highest priority. You have asked that $21.5 million be 
included in fiscal year 2008 for NDIIPP. This would bring your total 
budget to $682 million--a 22 percent increase over fiscal year 2007--
excluding the 2007 rescission. Are there lower-priority activities 
which you could cut from your budget?
    What has been accomplished to date with NDIIPP?
    What would you do with the $21.5 million you are requesting?
    Answer. The accomplishments of the national program to preserve the 
nation's digital heritage are many.
    National Digital Preservation Network.--The NDIIPP network of 
partners has grown to 67 and, with restored funding, will grow to well 
over 100 and include projects to assist the states in preserving 
critical state records. This national network, which was Congress's 
vision for NDIIPP, supports the catalytic basis for NDIIPP and ensures 
that the sum of what is achieved is greater than the individual parts. 
The Library is also working with other federal agencies such as GPO and 
NARA and with the private sector.
    Selecting, Collecting and Preserving Content.--Approximately 230 
terabytes of born-digital information has been saved by current 
partners and the Library. NDIIPP has worked with the Congressional 
Research Service and Law Library to identify content of particular 
interest to the national legislature. For example:
  --The current partners are collecting and preserving information of 
        interest to Congress such as geospatial information, social 
        science datasets, foreign news broadcasts, judicial proceedings 
        and political Web sites.
  --The Library has itself collected Web sites relating to national 
        elections, the Iraq war and Hurricane Katrina.
    Technical Architecture.--To enable this information to be securely 
saved, partners have identified models and standards that are flexible 
and reliable, yet can be used by other institutions. For example:
  --The San Diego Supercomputer Center (SDSC) is working with NDIIPP to 
        test the reliability of third-party storage of digital 
        materials. SDSC will host partners' digital content and 
        guarantee data integrity and access. This will enable the 
        NDIIPP partners to remotely access, manage, process, and 
        analyze that content.
    Digital Preservation Research.--In concert with the National 
Science Foundation, the Library has developed the first digital-
preservation research grants program. Ten university teams are:
  --Working to ensure that what is preserved today does not become 
        inaccessible in the future due to format obsolescence.
  --Exploring challenging topics, such as preserving rich oceanographic 
        data from hundreds of deep-sea submersible missions; automating 
        methods to describe digital objects and place them in secure 
        archival storage; testing how to preserve digital video when it 
        is first created; preserving complex three-dimensional digital 
        content such as engineering drawings.
    Informing the Public.--The work of NDIIPP has helped to promote a 
national conversation on the importance of preserving born digital 
content--not only for archival institutions but also for the general 
public. For example, major articles on NDIIPP and digital preservation 
have appeared in:
  --The Atlantic Monthly (September 2006)
  --The Washington Times (April 26, 2007)
  --National Public Radio's ``All Things Considered'' interviewed Laura 
        Campbell (October 2004) on NDIIPP
  --New York Times (September 2004).
    Outreach efforts have included:
  --Workshops for all 50 states and territories
  --Workshops for commercial content distributors and owners
  --Workshops for archival institutions
  --Workshops with computer scientists and technology companies to 
        address technical challenges.
    The new NDIIPP Web site, which has been refocused to appeal to a 
broader public, now offers a section on ``Preserving Your Digital 
Memories'' at http://www.digitalpreservation.gov/you/
digitalmemories.html.
    The $21.5 million would ensure the future viability of NDIIPP for 
both current and future partners, by providing funding for:
  --Current partners: to continue to select, collect and preserve 
        important born-digital content; and to continue development of 
        a technical infrastructure to provide tools and services to 
        support the network's preservation activities.
  --Future partners: States Demonstration Projects will comprise four 
        multi-state initiatives to develop digital archives of at-risk 
        digital content needed as part of a national digital 
        collection. The goal is to build digital repositories among the 
        states and share in costs by leveraging scarce resources.
                          books for the blind
    Question. GAO recently completed a review of the Library's $75 
million plan to convert its books for the blind to digital format. No 
one could disagree that the old cassette players are cumbersome and 
outdated and need to be replaced with new technology. However, GAO 
found that the Library's planning and analysis for the new digital 
talking book was insufficient. The program is already underway, with 
books being converted to the new ``flash memory'' format. Do GAO's 
findings impact your $19 million budget request?
    Is it too late to consider GAO's concerns?
    What specifically will you do to incorporate GAO's recommendations?
    Answer. The Digital Talking Books program has been carefully 
planned over the last decade. Congress has been informed throughout the 
process, and based on the plans for converting to digital technology, 
the last order has been placed for analog machines. The $19 million 
budget request will allow us to produce a sufficient number of new 
digital players to meet the first year's needs of the users who depend 
upon this service. The full $76.4 million is required to fulfill the 
total requirement and to meet the legislative mandate of NLS.
    We are carefully considering GAO's concerns. Deanna Marcum, 
Associate Librarian for Library Services, met with Linda Koontz, head 
of the GAO audit team, and Carrie Apostolou, Senate clerk, in April to 
discuss the best way to proceed in light of the GAO briefing to the 
Appropriations clerks. Ms. Koontz acknowledged that the flash 
technology selected for the program is appropriate but noted that NLS 
has not adequately analyzed commercial options and different 
distribution systems.
    The Library's chief concern is that the program is already in 
progress. The last order for analog machines has been placed, and 
without manufacturing new digital machines, we cannot provide equipment 
to everyone who needs it.
    Ms. Marcum agreed that the Library will carefully analyze the 
broader questions raised by GAO, i.e., how can the new system 
accommodate rapidly changing technology. GAO is concerned that it is 
not practical today to try to design a system that has a long life span 
and believes that the commercial sector is more likely than government 
entities to incorporate technological improvements more quickly.
    GAO was also concerned that NLS assumed the existing distribution 
system rather than considering new methods. It is the case that NLS 
assumed the continuing existence of the network of participating 
libraries having an active role in the Digital Talking Books program. 
The Library will consider other methods of distribution, but it will 
also analyze the non-financial, non-technological aspects of having 
such a network in place to serve the blind and physically handicapped 
communities.
    One of the questions that has been raised consistently is the size 
of the user population. The Library is conducting the necessary 
research to provide a definitive answer. The Library is also working 
with experts to predict the likely changes in the user population over 
the next several years.
    These analyses will be carried out as quickly as possible, but they 
must not impede the ongoing program of manufacturing new digital 
players to meet immediate and critical needs of our users. Blind and 
physically handicapped individuals have been eagerly awaiting this new 
technology, and we cannot slow progress.
                   crs documents on ``gallery watch''
    Question. CRS does not make its documents available to the public--
an issue some members have had concerns with. Yet a private 
organization--``Gallery Watch''--has been able to retrieve CRS reports 
and make them available to their subscribers. Please explain how these 
taxpayer-funded reports end up being sold through Gallery Watch and 
whether you are concerned about it.
    Answer. Availability of CRS Products to the Public.--As set forth 
in the Legislative Reorganization Acts, CRS was established as a shared 
Legislative Branch resource, serving all Members and committees with 
authoritative, objective, and non-partisan expertise across the full 
range of legislative policy issues. It does so in a confidential 
relationship--a congressional expectation that is clear not only from 
the legislative history of its creation, but also from annual statutory 
restrictions placed on publication of its work. The prohibition on 
publication of CRS products without oversight committee approval has 
appeared in the annual appropriations acts for the Legislative Branch 
for more than fifty years. This provision is intended to preserve the 
role of CRS as a confidential resource solely available to the 
Congress. The appropriations acts, supplemented by congressional 
guidance that CRS has received over the years and supported by judicial 
opinions, leaves to the Members and committees the decision whether, on 
a selective basis, to place CRS products in the public domain. Members 
have long made CRS products available to interested persons either 
directly, by inclusion in congressional publications, or more recently 
through their office or committee web sites.
    Wholesale public dissemination raises several policy, legal, and 
institutional concerns. Principle among these is the danger of placing 
CRS, a support agency, in an intermediate position between Members and 
their constituents instead of preserving the direct relationship 
between constituents and their elected representatives. This threatens 
the dialog on policy issues between Members and those they represent 
that was envisioned by the Constitution. Further, there is a 
significant risk that wide publication could over time affect the 
mission and congressional focus of the Service, resulting in products 
being written with a large public audience in mind and no longer 
focused solely on congressional needs. Wholesale dissemination would 
inevitably generate a significant number of comments, questions, and 
concerns from the public regarding content. In addition to placing a 
burden on congressional offices, responding to such correspondence 
would require CRS to shift significant resources away from direct 
service to the Congress.
    There is also a very real concern that the current judicial and 
administrative perception of CRS as adjunct congressional staff might 
be altered by congressional authorization of systematic release of CRS 
products. Such action might put at risk speech or debate protections 
critical to the maintenance of confidentiality. The Speech or Debate 
Clause of the Constitution has been interpreted to grant broad immunity 
to Members and their aides when activity occurs in the performance of 
``legislative acts.'' Widespread dissemination of products to the 
general public would likely be viewed by the courts as an exercise of 
Congress' representational or informing function for which speech or 
debate immunity would not be available. Of major concern has been the 
extent to which a policy permitting significant public dissemination of 
CRS products might render the protection that the Service currently 
enjoys under the umbrella of this constitutional protection of Members 
inapplicable to communications with CRS. Stated simply, if the Service 
were to become generally known to frequently distribute products 
directly to the general public, it might lose these constitutional 
protections regarding even its confidential work, doing irreparable 
harm to its working relationship with congressional clients.
    A frequent lament of proponents of public access to CRS work is 
that taxpayers fund CRS and therefore deserve to have access to its 
products. This is an effective ``sound bite'', but the reality is that 
Congress appropriates funds for CRS to ensure the most effective 
research and analytical support for its legislative activities. Just as 
with Member and committee office staff, Congress' confidential 
relationship with CRS is critical to that support. It is in this way 
that Congress and the American taxpayer get the most for their 
investment.
    GalleryWatch.--CRS does not know how GalleryWatch (which is in 
partnership with Penny Hill Press) obtains its reports. Over the years 
the Service has made efforts to determine whether the source of CRS 
products for outside parties is internal to the organization or 
elsewhere in the congressional community. Whenever CRS has done so (on 
one occasion at the request of an oversight committee and on another at 
its own initiative, and with the help of the Library's Office of the 
Inspector General), the Service has been assured that there was no 
evidence of improper activities by its own or other Library employees. 
CRS also has found no basis for concern that its electronic systems 
might have been compromised and that access to its products has been 
gained through intrusion into CRS or library systems that are well 
protected by firewalls. As a result of these efforts, CRS has concluded 
that it is likely, though not certain, that the source is a person or 
persons with access to the CapNet and the CRS Web Site, who thereby is 
able to download products and convey them to a third party (e.g., 
GalleryWatch). The source could therefore work in any congressional 
office or for one of the Legislative Branch sister agencies--i.e., 
anyone with access to the CRS Website.
    CRS products are not copyrighted, and are not in the public domain 
unless and until released by a Member or his/her staff. Any effort to 
curtail or punish an identified congressional source of the report's 
dissemination would likely require proof that not only were the 
products provided, but also evidence of additional factors such as 
receiving payment for the service, unlawful use of government 
equipment, use of official time, violation of ethics rules, etc.
    As to the comprehensiveness of the GalleryWatch inventory, it 
appears that they have a regular source that provides reasonably timely 
copies of our reports. There are gaps however, and some reports do not 
reflect the most recent updating. CRS continues to have concerns 
regarding this phenomenon, but it believes that even though many of its 
reports are made available in this way, it is still in the interest of 
the Congress to preserve the direct communication between Members and 
their constituents regarding their policy deliberations and positions. 
The Service also believes that it is important to preserve an 
enforceable policy of confidentiality and the role of CRS experts as 
adjunct staff.
                      crs earmark reporting policy
    Question. Recently CRS changed its policy with regard to reporting 
on earmarks. Can you explain what the policy is and why it was changed?
    Answer. On February 22, 2007, Director Mulhollan issued a new 
policy statement explaining why CRS will no longer identify earmarks 
for individual programs, activities, entities, or individuals. It also 
stated that, at the request of Congress, CRS can provide information on 
the allocation or distribution of funds for programs and activities 
where the allocation or distribution is clear from the public 
documents, such as the Appropriations Committee reports or the 
Administration's budget justifications. CRS also will continue to 
conduct research in the Legislative Information System and other 
automated systems to identify where funding is specified for particular 
entities noting limitations of this methodology.
    Recent congressional and executive actions make it unnecessary and 
impractical for CRS to attempt to identify earmarks in appropriations 
or other laws. In January 2007, the House, Senate, and Office of 
Management and Budget (OMB) took actions to define, compile, and 
disclose comprehensive information on earmarks. Specifically, the House 
agreed to a rules change (H. Res. 6, 404); the Senate passed a bill 
including rules changes, which has been sent to the House (S. 1, 103); 
and OMB issued a memorandum for the heads of departments and agencies. 
CRS determined that these developments made obsolete their research 
using definitions and methodologies different than those contained in 
the legislation and OMB memorandum. Additionally, it is not possible 
for CRS to conduct research on earmarks using the definitions set out 
by the House, Senate, and OMB. For instance, the House and Senate 
definition of earmark is (in part) that it is a provision or report 
language included primarily at the request of a Member, a criterion of 
which CRS would not have knowledge.
    When Congress has determined to use committees or other sub-
entities in enforcement of its rules, it has clearly defined their 
roles (e.g., the two ethics committees, or an impeachment investigatory 
entity). The congressional rulemaking process is enshrined in the 
Constitution; Article I, sec. 5, empowers each House to ``determine the 
rules of its proceedings.'' The courts have held that Congress is the 
arbiter of the scope and interpretation of its own rules and the 
exercise of its rulemaking authority is insulated to a large degree 
from judicial review and other outside interference. Separation of 
powers animates this balance but it also serves to underscore the 
plenary nature of congressional rules in ordering the internal 
operations of Congress, its Members and subunits. The House rule and 
the Senate proposed rule (contained in S. 1) governing earmarks, vest 
the responsibilities in the committees and subcommittees. It would not 
be appropriate for CRS--an entity of the Congress that serves as its 
adjunct staff--to embark on work that would duplicate the 
responsibilities described in the rules and, even worse, potentially 
cause confusion in an area in which the body is seeking clarity.
    There is another aspect of earmark research that was considered in 
establishing this new policy. Earmarks are being defined by both Houses 
as provisions that are requested by specific Members. The reports 
required of the requesting Member and the committees include 
identification of the Member and related financial interests in the 
project or activity of the Member and his or her family. Thus, each 
earmark is linked to the Member requesting it, and the rules place 
certain obligations on that Member which become part of the public 
record. CRS is prohibited by a long-standing direction of the Joint 
Committee on the Library from doing research concerning a Member at the 
behest of another Member. We studiously avoid being placed in a 
position of collecting information on specific Members or their 
activities, even basic reference information. While we do at times 
assist the ethics committees or special investigatory committees with 
questions of law and the applicability of rules of conduct, our work is 
carefully generalized and is prepared in a way that is not linked to 
individual Members.
                     teaching with primary sources
    Question. In 2006, permanent authorization was included in the 
legislative branch appropriations bill for the ``Teaching with Primary 
Sources'' program--formerly known as Adventure of the American Mind. 
This program has been very successful in Colorado, first at Metro State 
University and now at Northern Colorado University, teaching educators 
how to use the Library of Congress' online material in their 
curriculum. Can you describe how you plan to change the program, to 
broaden its reach to more teachers nationwide?
    Answer. The Library seeks to broaden the Teaching with Primary 
Sources (TPS) program by piloting a regional-center model to award a 
large number of small grants to new partners in neighboring states, 
encouraging geographic growth of the program. These regional centers 
will be located at Metro State University, at Illinois State 
University, at Waynesburg College in Pennsylvania, and at a location to 
be determined in the South.
    Additionally, an exportable TPS program curriculum will be 
published this fall and available for download on the TPS Web site, 
allowing all interested educational institutions to implement the 
program. An online version of the TPS course will be piloted this 
summer and available to educators nationwide this fall.
                            logistics center
    Question. The Library is requesting $43.9 million for a logistics 
facility. This project was included in last year's AOC budget request 
but did not get funded. During last year's hearing, we raised questions 
about the high cost of the proposed facility. We understand that costs 
have been reduced, but most of the reductions are due to cost 
deferrals. Does the Library have any further plans to look at the total 
cost of the proposed logistics center?
    Answer. At the request of the Senate Appropriations Clerk during 
the fiscal year 2007 budget cycle and in response to concerns expressed 
by the Library's Inspector General, the Library worked closely with the 
Architect of the Capitol to review and reduce where possible the 
Library's program and facility requirements, construction costs, and 
AOC markup costs. Reductions of $12.2 million are reflected in the 
$43.9 million fiscal year 2008 budget request. A recap of actual cost 
reductions and deferrals appears below.
    Looking for ways to further reduce the total project cost in fiscal 
year 2008, the Library and the AOC have again reviewed the construction 
cost estimate, contingencies, and markup to ensure all possible savings 
have been identified. To this end, the AOC has agreed to consider a 
construction management plan that utilizes AOC staff rather than 
outsourcing. The Library is confident the AOC can successfully execute 
the project with in-house staff, and cites recent and sustained success 
in construction of Library projects at Fort Meade, NAVCC and the 
Copyright Office renovation project on Capitol Hill as evidence 
thereof.
    Recap of actual cost reductions and deferrals captured in the 
fiscal year 2007 budget cycle:
  --LOC program reductions of $3 million include elimination of a water 
        leak detection system, elimination of COOP space fit-out, and 
        removal of furnishings, folding partitions and appliances.
  --AOC markup reductions of $2.4 million were achieved by 
        restructuring some aspects of project oversight. The U.S. Army 
        Corps of Engineers reduced their fee for construction 
        management by accepting a flat fee rather than a percentage of 
        construction cost, saving $825,474. The AOC plans to hire two 
        temporary employees for project management rather than 
        outsourcing this service, saving $1,605,563. The AOC has agreed 
        to consider all possible savings that could be realized using 
        in-house staff rather than outsourcing. As outlined above, we 
        are confident the AOC can successfully execute the project 
        using internal resources.
  --Eliminating shelving from the contract for construction reduces 
        initial cost by $6.81 million and results in cost reductions of 
        $430,000. Savings are realized by purchasing shelving in fiscal 
        year 2010 under a separate AOC contract--outside of the 
        contract for construction--resulting in cost deferral of $6.38 
        million (includes cost escalation to fiscal year 2010).
  --The $43.9 million fiscal year 2008 budget request reflects $12.2 
        million in LOC and AOC reductions, plus an amount added for 
        cost escalation resulting from delay.
                           space utilization
    Question. Three years ago, the Library's Inspector General 
recommended there be an evaluation of the space utilization in reading 
rooms. Today this evaluation still has not been completed. What 
progress has the Library made so far in addressing the recommendations 
in that IG report? What are the Library's milestones for completing 
this evaluation and making decisions on better utilizing reading room 
space?
    Answer. In March 2004, the Library of Congress' Office of the 
Inspector General issued Final Audit Report No. 2003-PA-104, Reading 
Room Space Allocations Should be Re-evaluated. To produce the report, 
the IG staff conducted a careful audit of floor space considerations in 
the Library's 23 reading rooms, 16 of which are under the jurisdiction 
of Library Services. They noted a significant decline in the numbers of 
patrons visiting the reading rooms since 1993 and as a result, 
concluded that an underutilization of floor space may have resulted 
from this decline. However, a lack of consistent and useful statistical 
data collected by the Library made it difficult to reach definitive 
conclusions and make strong recommendations as to the potential 
reallocation of reading room floor space--based on costs, benefits, and 
other considerations--to offices and collections storage.
    The Report's first general recommendation was: obtain more accurate 
and useful reading room usage data. As a result, on January 3, 2006, 
all Library Services reading rooms instituted a similar method to 
measure utilization, resulting in the accumulation of consistent data. 
All readers are requested to sign in using a daily register kept at the 
entry of all reading rooms. The register records the patron's name, the 
time and date of entry, and in many cases his/her research subject. The 
number of readers accessing the collections through the various reading 
rooms is now based strictly on the number of daily registrants; hourly 
counts are no longer made, nor are directional queries tabulated. All 
divisions report quarterly statistics related to reading room use in an 
accurate, consistent, and useful manner. Management is now in a 
position to compare statistics fairly and to make informed decisions as 
to resource allocation.
    The second general recommendation was: analyze reading room 
requirements. In the 2004 report, the auditors stated that (a) reading 
room space should be used more efficiently, and (b) Saturday hours 
should be reconsidered. Efficiency is an essential goal in our public 
service of the Library's collections--the largest repository of 
recorded knowledge in the widest variety of languages and formats in 
human history. Library Services' 16 reading rooms serve the Library's 
general, area studies, and special format collections--some 129.5 
million items (excluding the Law Library). As points of access to these 
vast and disparate collections, the reading rooms are complex 
organizations of human and material resources, not measurable only in 
terms of floor space.
    Each individual reading room--for example, the Geography and Map 
and the Local History and Genealogy rooms--not only serves research 
materials specific to a subject or a format, but also, through a 
dedicated staff of scholarly experts, provides in-depth reference 
services to patrons. Since the Library collects and makes accessible 
information resources in some 470 ancient and modern languages, the 
reference and subject specialists of the four international area 
studies divisions speak, read, and provide assistance in a wide variety 
of languages. In the African and Middle Eastern Division reading room, 
recognized as a major world resource center for information on Africa, 
the Middle East, the Caucasus, and Central Asia, multilingual staff 
members serve materials from 78 countries recorded in some 35 different 
languages. Their colleagues in the Asian Division reading room serve 
textual materials in some 100 languages.
    Moreover, a majority of the individual reading rooms are 
deliberately co-located with the collections they serve, not only to 
ensure efficiency of public service, but also to provide maximum 
security for Gold and Platinum-level collections. For example, the 
Prints and Photographs Division has custody of pictorial materials with 
a value of $2.2 billion. Its collections storage areas are highly 
secured and reference staff in the adjacent reading room is carefully 
trained in format-specific, safe handling techniques, and also in 
observing patrons to ensure items are not damaged through use or lost 
through theft. The same conditions of public service efficiency and 
collections security apply equally to the Music, Manuscript, Map, and 
Rare Book division reading rooms. The Main Reading Room in the 
Jefferson Building and the Science and Business Reading Room in the 
Adams Building do not serve secured, high value special collections. 
Instead, they are the access points for the general collections.
    In recent years, a decline in on-site readership has been 
experienced by all research libraries. In the digital age, much 
information (not all of it accurate or authentic) can be easily 
obtained via the Internet. However, only a tiny fraction of the 
Library's collections have been digitized. For example, some 11 million 
digital images of primary source documents (i.e., photographs, 
manuscript pages, maps) are available online, but only 2,000 of the 
Library's 29 million books have been scanned so that their full text 
can be read remotely. To gain full access to the nation's strategic 
reserve of recorded knowledge, readers must still come to Congress' 
library and to its various and specialized reading rooms. To make those 
available resources more widely known and attractive to the American 
people, the Library in general--and in particular the divisions of the 
Collections and Services Directorate--must increase public outreach.
    As a destination, the Library of Congress will be transformed once 
the tunnel from the Capitol Visitor Center is opened. The number of 
visitors is estimated to double to 2.8 million. New exhibits and 
educational experiences in the Jefferson Building will greatly expand 
the public's knowledge of the Library's magnificent resources. With the 
inauguration of the New Visitor Experience (NVE) in 2008, we intend to 
offer scheduled tours of the Jefferson Building reading rooms to make 
people aware of the Library's unsurpassed collections and reference 
services. This will likely have a direct impact in augmenting the 
number of readers, but we will need to verify such an increase through 
statistical analysis. The NVE will provide new ways to assess and 
optimize reading room space.
    Nonetheless, Library Services has already studied ways to make more 
efficient use of existing reading room space throughout the Library. 
However, we recognize the reprogramming of specialized spaces to new 
programmatic uses--including the installation of wireless technology to 
enable patrons to access Internet-based information resources such as 
electronic databases--will be a highly complicated and expensive task. 
Large collections will have to be shifted within a stack environment 
that is already overcrowded. But plans are now underway to enlarge the 
Performing Arts Reading Room--to date, serving Music Division 
collections--to incorporate service of the motion picture and recorded 
sound collections of the Motion Picture, Broadcasting & Recorded Sound 
Division, whose staff is presently being relocated to the Library of 
Congress' Packard Campus (NAVCC) in Culpeper, Virginia. Options to 
consolidate some separate reading rooms into the Main Reading Room are 
also being explored, as is the possibility of creating a centralized 
service point for all distributed microform collections. However, given 
the overriding need to provide efficient and secure service of the 
Library's disparate collections, and specialized and multilingual 
reference assistance, there will always be a requirement to have 
numerous reading rooms.
    One of the recommendations of the Final Audit Report was to develop 
a decision model for determining reading room, as well as office and 
collections storage, space requirements. However, Library Services 
decided to continue to use existing pragmatic decision models for 
determining such requirements. Determining the efficient use of all 
Library spaces, both on-site and off, will soon be enhanced by the 
introduction of a new, electronic planning tool--a Web-based Computer 
Assisted Facility Management (CAFM) program--now being populated with 
data and tested by Facility Design & Construction, Facility Services, 
Integrated Support Services.
    The single most important milestone for completing an evaluation of 
reading room space is the effect on the Library's programs of the NVE, 
due to open in the Jefferson Building in 2008. With the increase in 
visitors and an expanded awareness of the Library's research resources, 
we anticipate a rise in readership and need to at least maintain 
current levels of service in the reading rooms. At the same time, there 
may be an institutional demand for more existing spaces to be 
programmed for exhibits. This will necessitate re-evaluating the use of 
present reading rooms. Square footage is but one of a complex of 
resources and requirements to ensure effective service in a reading 
room. Nonetheless, it is a primary consideration for Library Services 
as we continually adjust our collections and public service in an 
environment of physical, societal and technological change.

                         CONCLUSION OF HEARINGS

    Senator Landrieu. Meeting recessed.
    [Whereupon, at 10:49 a.m., Thursday, May 3, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
